<html>
<title> - DEPARTMENT OF HOMELAND SECURITY'S PROPOSED FISCAL YEAR 2005 BUDGET</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



   DEPARTMENT OF HOMELAND SECURITY'S PROPOSED FISCAL YEAR 2005 BUDGET

=======================================================================

                                HEARING

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2004

                               __________

                           Serial No. 108-36

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
22-341                      WASHINGTON : 2005
_____________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005

                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     1
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security.......................................................     3
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey...................................    52
The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan..............................................    36
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    50
The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  From the State of Florida......................................    40
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    30
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    60
The Honorable Barney Frank, a Representative in Congress From the 
  State of Massachusetts.........................................    34
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    38
The Honorable Duncan Hunter, a Representative in Congress From 
  the State of California........................................    48
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    62
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia
  Prepared Statement.............................................     7
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    42
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................    64
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    54
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    25
The Honorable Christopher Shays, a Representative in Congress 
  From the State Connecticut.....................................    32
The Honorable Louise McIntosh Slaughter, a Representative in 
  Congress From the State of.....................................    46
The Honorable John E. Sweeney, a Representative in Congress From 
  the State of New York
  Oral Statement.................................................    28
  Prepared Statement.............................................     7
The Honorable Mac Thornberry, a Representative in Congress From 
  the State of Texas.............................................    44
The Honorable Curt Weldon, a Representative in Congress From the 
  State of Pennsylvania..........................................    22

                                WITNESS

The Honorable Tom Ridge, Secretary, Department of Homeland 
  Security
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
  Response to questions from the Honorable Kendrick B. Meek......    65

                                APPENDIX
                   Material Submitted for the Record

Questions from the Honorable Diaz-Balart.........................    68
Questions from the Honorable Jim Gibbons.........................    72
Questions from the Honorable Ernest J. Istook, Jr................    69
Questions from the Honorable Jim Langevin........................    67
Questions from the Honorable Bill Pascrell, Jr...................    76
Questions from the Honorable John Sweeney........................    74
Questions from the Minority Staff of the Committee...............    79

 
   DEPARTMENT OF HOMELAND SECURITY'S PROPOSED FISCAL YEAR 2005 BUDGET

                              ----------                              


                      Thursday, February 12, 2004

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:30 a.m., in Room 
2200, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Hunter, Boehlert, Weldon, 
Shays, Camp, Diaz-Balart, Istook, King, Linder, Shadegg, 
Souder, Thornberry, Gibbons, Granger, Sessions, Sweeney, 
Turner, Sanchez, Markey, Dicks, Frank, Harman, Cardin, 
Slaughter, DeFazio, Andrews, Norton, Lofgren, Jackson-Lee, 
Pascrell, Etheridge, Langevin, and Meek.
    Chairman Cox. A quorum being present, the Select Committee 
on Homeland Security will come to order. It feels as if we have 
more than a quorum in these very intimate quarters. We have a 
big Department and a small room this morning.
    The committee is meeting today to hear testimony on the 
proposed Department of Homeland security budget for fiscal year 
2005, and we are privileged to have with us today the Secretary 
of the Department of Homeland Security, the Honorable Tom 
Ridge.
    In order for us to utilize the time we have with our 
witness more fully and ensure adequate time for questioning, I 
ask unanimous consent that oral opening statements be limited 
to the Chairman and the Ranking Member and that all questioning 
proceed under the 5-minute rule. Without objection, so ordered.
    If other members have statements, they can be included in 
the hearing record under unanimous consent. Again, without 
objection, so ordered.
    Today this committee begins what will be a deliberate and 
thoughtful process to review the President's proposed budget 
for the Department of Homeland Security for fiscal year 2005. 
Our objective on behalf of the American people is to evaluate 
the progress that has been made in the Department's first year 
and to assess the Department's plans and challenges for the 
near future.
    Much has been achieved in the past year under the 
leadership of President Bush and Secretary Ridge. We are all 
demonstrably safer than we were a year ago but we all recognize 
that we have much more to do. We can look back on tangible 
progress in securing our ports, borders, and other critical 
infrastructure. We have improved the flow of threat-based 
information to our first responders. We have materially 
improved their capability both to prevent and respond to a 
terrorist attack.
    As we meet this morning, more scheduled commercial flights 
have been canceled, this time a British Airways flight to 
Washington, D.C., reflecting how intelligence information is 
being put to use to protect Americans. Now, at the 1-year 
anniversary of the Department, the time has come for us to 
develop and implement a more fully considered national strategy 
for homeland security that will govern our spending and permit 
the measurement of our progress. To that end, we need concrete 
goals to make the country safer. The Secretary, the Department, 
and this committee are all committed to this path.
    The Department will soon inaugurate its first comprehensive 
strategic plan. Strategic planning deters ill-advised binge 
spending. And this committee will pursue a fiscally responsible 
legislative agenda focused on making the Department more 
effective. This will include our threat-based first responder 
grant bill which has already passed unanimously in the 
Emergency Preparedness and Response Subcommittee. It will 
include a metrics bill to monitor the Department's progress in 
meeting strategic goals and also a DHS authorization bill. In 
cooperation with the other committees of jurisdiction, we will 
continue to work to identify the right priorities to secure 
America against terrorism.
    I am pleased to welcome Secretary Ridge back to this 
committee. I know that I speak for every member of this 
committee today, Mr. Secretary, when I say you have one of the 
hardest jobs, if not the hardest job, in Washington, D.C. and 
you do it very well. We admire your dedication to your country 
and your devotion to protecting the security of your fellow 
citizens, and we thank you for the tremendous and undeniable 
progress the Department is making in enhancing our Homeland 
Security, the safety of the American people, our territory, and 
the institutions and activities that mark and lend distinction 
to our way of life.
    Let me also say that I am very pleased with many aspects of 
the President's homeland security budget proposal. That 
demonstrates this Nation's unwavering commitment to defending 
American lives and territory against further terrorist attacks. 
It also begins to take some necessary steps towards strategic 
resource allocation, towards the creation of a long-term 
sustainable homeland security budget.
    After September 11th there was an understandable rush to 
provide whatever funding is necessary, that was called homeland 
security. And as the President has so often stated, this war on 
terrorism is a long-term war, and simply spending more each 
year is not a strategy. Instead we need to get smarter about 
how and where we spend our homeland security dollars.
    This budget starts to do that. It invests in new 
technologies that will allow us to screen people and cargo 
entering the United States more effectively and at lower cost. 
It funds biosurveillance and other prevention-oriented systems. 
The President's budget seems to be asking the right questions 
and coming up with sound answers. This is particularly true in 
the area of terrorism preparedness grants. States, local 
governments, and our first-responder communities need this 
help.
    It is well known that Mr. Turner and I have been advocating 
for some time a shift away from grant making based on ancient-
legacy political formulas unrelated to the post-9/11 mission. 
The committee's first responders bill, H.R. 3266, would 
prioritize and distribute terrorism preparedness grants to our 
first responders based on actual risk of terrorist attack, 
making sure that our limited resources get to the areas that 
need them most and that they get there faster.
    The President's budget proposal clearly embraces this 
strategy. It would double the funding for grants distributed on 
the basis of risk to $1.4 billion, while cutting back 
significantly the grants that are awarded based on political 
formulas without regard to risks. This may not be universally 
popular but it is definitely smart and necessary.
    The committee also looks forward to working closely with 
Secretary Ridge and the Department as you move to develop and 
then implement a comprehensive strategic plan to integrate the 
Department's 22 legacy agencies and two major start-up 
directorates. This is exactly what was envisioned by the 
Congress when we passed the Homeland Security Act. Nowhere is 
this more important than in the Information Analysis and 
Infrastructure Protection Directorate, which, unlike the other 
directorates in the Department, has had to be built from 
scratch. Significant progress has been made in building this 
function but the Department still has a long way to go in this 
area. Standing up IAIP will be a critical element in the 
Department's strategic planning and this committee's 
legislative program this year. But on this 1-year anniversary, 
Mr. Secretary, we should be proud of what we have been able to 
accomplish so far, united for good in a global war on terror.
    We have worked very constructively across the aisle and at 
both ends of Pennsylvania Avenue. There is no doubt in my mind 
that this continued strong leadership and our concerted action 
have prevented other potential terrorist attacks on America. We 
need to strengthen that spirit of collaboration in the year 
ahead as we implement more strategic and measurable programs to 
protect the American people from the scourge of terrorism. They 
expect and deserve no less.
    I want to thank you in advance, Mr. Secretary, for your 
testimony today and I now recognize the Ranking Member, Mr. 
Turner, for his opening statement.
    Mr. Turner. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary. We appreciate very much your presence here today 
with us. Without a doubt, you have a daunting set of 
responsibilities, and I know I speak for everyone on this 
committee in saying how grateful we are for your dedication to 
addressing the great challenges that we face in homeland 
security.
    You have assembled a very skilled leadership team and we 
have begun to develop good working relationships with many of 
them. They are working hard to try to bring the Department up 
to speed, and we appreciate all of their efforts as well.
    And we had a chance to hear from Admiral Loy last week, 
certainly a distinguished American, who I know is dedicated to 
the task of serving as your deputy. And we look forward to 
working with all of the under secretaries that you have 
assembled in appearing before us in the coming weeks to follow 
your testimony.
    And, Mr. Secretary, I also want to praise the people who 
work in the Department. I think so often we fail to compliment 
the front-line workers, those customs and immigration 
inspectors, the screeners that work tirelessly at our airports, 
the intelligence analysts, the Coast Guard, and many others who 
are out there as the front line, protecting us in the war on 
terror. They work at their post every day, too. It is not 
glamorous work on many occasions, and sometimes dangerous. But 
they are very necessary, and we want you to know and we want 
them to know that they are very much appreciated in their 
efforts to protect America.
    We are here today, a few weeks shy of the 1-year 
anniversary of the date that the 22 agencies merged to form the 
Department of Homeland Security. As the budget that was 
submitted by the President last week reflects, the Department 
is maturing. The organizational structures are becoming 
clearer. The Department has performance goals and programs 
dedicated to achieving those goals. Many of the initiatives 
launched over the past year are beginning to take root. They 
are laying a foundation for greater security in this country, 
and we appreciate the leadership that you have provided in 
achieving the progress so far.
    The question clearly that we all must ask is not whether we 
are safer than we were before September 11th, because most 
certainly we are; the key question is whether we are as safe as 
we need to be. And unfortunately, I think we all understand 
that we are not as safe as we need to be. America continues to 
face serious security gaps. It really doesn't matter whether 
you would look at our ports or our land borders or our 
bioterrorism preparedness or our chemical plants. Up and down 
the line, there are substantial security gaps that remain and 
that are open to exploitation by terrorists.
    Let me mention just a few examples. Two-and-a-half years 
after September 11th, we still do not have a functional 
comprehensive terrorist watch list. This means that people are 
boarding our planes or entering our borders without being 
checked against--or entering without being checked against a 
government list that contains all of our terrorist--our known 
terrorists. I know the FBI is working hard to solve this 
problem, but they have a ways to go. I notice that Director 
Mueller stated a few weeks ago that the task would be completed 
by March. I think you made a comment earlier this week that you 
thought the job would be completed by the end of the summer. We 
all know it should have been done 2 years ago. But this is a 
very critical task that must be completed.
    The ricin attack in the Senate last week reminds us that 
bioterrorism is still a significant and dangerous threat. Yet 
it is clear we are not as prepared as we need to be on 
bioterrorism.
    Last year the administration set out to vaccinate 500,000 
emergency workers, and they were going to follow that by the 
vaccination of 10 million citizens to increase our ability to 
respond to a smallpox attack. To date, only 39,000 emergency 
workers have been vaccinated across our Nation. And it is even 
more disturbing when you analyze where those vaccinated 
emergency workers live. In the State of Nevada, only 17 people 
have been vaccinated under this program. And in Chicago, only 
71. And in New York City, population 8 million, only 342 people 
have been vaccinated under this program. That is a total in New 
York of only 1 vaccinated emergency worker for every 30,000 
people. And we all know the goal is to be able to vaccinate the 
entire population in the event of an attack within 10 years. 
Clearly we have failed to carry out this very critical 
vaccination effort.
    We also know that we have 20 million cargo containers 
coming in this country to our seaports and land borders and 
then travel by truck and rail right through our communities. 
But we do not screen all of these cargo containers for 
radiological materials. We all know the threat of a dirty bomb 
or of a nuclear weapon is a very real one. The installation of 
radiation portals, as they are called, would allow us to screen 
100 percent of the cargo containers that enter our country 
without slowing commerce.
    Last year Congress provided funding to install portals at 
every major seaport, but the job is not yet done. Only one 
seaport in this country has the technology fully installed. In 
fact, they did it on their own, and that is right down the road 
here. Not a single port of entry on our southern border has any 
radiation portals and not a single rail hub has them either. So 
we have a long way to go to ensure that radiological devices or 
dirty bombs are not going to enter this country through 
commerce.
    We also know that our communities all across America still 
lack the equipment, the training and the personnel they need to 
respond to acts of terrorism. While we know that large resource 
increases have gone to our Nation's first responders, we still 
lack a national goal of what more needs to be done. As you 
know, some outside experts have estimated it may take something 
approximating $100 billion to ensure that all of our citizens 
are fully protected. And yet when we look at our budget that 
was submitted by the President the other day, total spending 
for first responders is 18 percent below the amount provided 
last year.
    Mr. Secretary, it is without any disparagement of your 
efforts or of your honorable intent that, in my opinion, we are 
not moving fast enough, we are not being strong enough in 
closing the security gaps that we all know still exist. The 
budget increase that the Department is receiving this year is 
important and necessary but we really need to put that figure 
in perspective.
    You know, despite common perceptions, we have really not 
restructured our national budget to adequately protect the 
homeland. Since September 11th, we have increased discretionary 
spending on the agencies that now make up your Department by 
about $12 billion. During that same period, our defense budget 
went up $135 billion. The budget increase for this year in 
homeland security is about the cost of 1 month of the 
occupation in Iraq. Another way to look at it is that we could 
run the entire Department of Homeland Security for 3 years with 
just the estimating error that was recently made public by the 
administration on the Medicare prescription drug bill that we 
passed last year.
    The limitations that are imposed on your efforts to secure 
the homeland is a direct function of the choices that the 
administration makes in submitting the budget to the Congress. 
If we wanted to take faster and stronger action to close the 
security gaps we face, we know we could. It is simply a matter 
of priorities. And, Mr. Secretary, history has shown that if 
the President of the United States requests support in the name 
of homeland security, this Congress never fails to respond.
    Many of us are very concerned that our homeland security 
efforts lack the sense of urgency that we all had after 
September 11th of 2001. There are a couple of examples that I 
think illustrate the lack of urgency that we now need to 
restore. A key component of a robust and effective homeland 
security strategy is a comprehensive threat and vulnerability 
assessment to help set priorities and ensure that scarce 
resources are directed to where they are needed most. The 
Washington Post has an editorial on this very subject in 
today's issue. Clearly, we have not completed this task, and as 
we all know, representatives in your Department in charge of 
this national threat and vulnerability assessment have told us 
that it may take 5 years. We believe that is unacceptable.
    Another example is, by law, the Department of Health and 
Human Services was supposed to develop with you a coordinated 
strategy to prepare for and respond to bioterror attack. It is 
now 8 months past the promised date of that coordinated 
strategy.
    Another example is the lack of information sharing that 
continues to exist between the Federal Government and local law 
enforcement officials, which has been identified as a cause, a 
key cause of the 9/11 attacks. While new organizations have 
been formed to address this problem, every major study that I 
have seen--including a recent Markle Foundation report which I 
would urge you to take a look at--they have all found that the 
Federal Government is not taking the steps necessary to create 
a decentralized coordination information network. State and 
local officials bitterly complain to us on a daily basis that 
they are not getting the information they need from the Federal 
Government, and we certainly don't have in place a 
comprehensive, decentralized coordination and information 
network whereby they can provide us with information that they 
daily collect.
    In summary, Mr. Secretary, if we ask is progress being 
made, most certainly, it is; and I commend you for that. Are we 
safer today than we were before September 11th? Yes, we are. 
But it is also clear to me that we are not as safe as we need 
to be. Again, it is solely a matter of priorities.
    Mr. Secretary, the American people don't hear the daily 
threat reports that you hear and that the Chairman and other 
Members of this Congress routinely hear, and I suspect that if 
they did, the American people would be demanding that we move 
faster and be stronger in protecting against the threats we 
face.
    It is our responsibility to recapture the sense of urgency 
that we all had after September 11th, to recapture that focus, 
recapture that sense of purpose that every American felt on 
September 11th. I hope that through the efforts that you are 
making, and the work of this committee, that we can move to be 
stronger and to move faster in protecting our country.
    Thank you again, Mr. Secretary, for being with us today.
    Chairman Cox. Thank you, Mr. Turner.
    [The information follows:]

  Prepared Statement of The Honorable John Linder a Representative in 
                   Congress From the State of Georgia

    A few weeks ago, I was asked by a group of Georgia citizens to 
support a transfer of money from defense and homeland security programs 
to programs that advanced a more domestic agenda in this country. My 
response to this request was simple: If I were to support such a 
transfer, I would be negligent in my responsibility to uphold the 
single greatest responsibility of the Federal government ? to protect 
the people of this great nation.
    Often times, I have quoted the words of John Jay, America's first 
Chief Justice to the U.S. Supreme Court, who once wrote that providing 
for the safety of the people seems to be the first item to which a wise 
and free people find it necessary to direct their attention. These 
words, canonized by The Federalist Papers, are the grounds upon which I 
base many of my decisions here in the U.S. House of Representatives. 
These words are, in my opinion, the best example of what great men like 
Washington, Hamilton, and Madison intended for this government when 
they affixed their signatures upon the Constitution.
    It is because of our responsibility that we are called here today. 
I am pleased that this Committee is now giving us the opportunity to 
discuss how we, in the 108th Congress, are able to recognize the words 
and meanings of the Founders, and refocus this government's attention 
on providing for the safety and security of the American people.
    President Bush has consistently demonstrated his own intention to 
uphold the objectives of the Founders. Immediately after the September 
11, 2001, terrorist attacks, we made a commitment to take defensive 
measures and to defeat terrorism by stopping it and eliminating it 
where it grows. We have since focused on making America safer from 
terrorists and the nation-states that support them. By proposing a $3.6 
billion increase over the fiscal year 2004 levels for the U.S. 
Department of Homeland Security in his fiscal year 2005 budget 
proposal, he continues to show the American people that he remains 
committed to protecting the citizenry of the United States. I applaud 
and support him in this effort.
    As Members of Congress we should ask: how can the American people 
possibly hope to enjoy any of the freedoms and liberties given to them, 
or look to continue their advancements in medicine, science, education, 
or health care when they are forced to live with the fear of foreign 
threats or terrorist attacks? I am hopeful that my colleagues will join 
me in reviewing how the Legislative and Executive Branches can work 
together to find the best answers that both ensure this is not the case 
and recognize that this government is upholding its 200-year old 
constitutional responsibility.

 Prepared Statement for the Record of The Honorable John E. Sweeny, a 
         Representative in Congress from the State of New York

    Welcome, Mr. Secretary. This Committee is pleased to hear your 
thoughts today on the Department's fiscal budget 2005 budget. Under 
your direction, the Department of Homeland Security has moved from a 
proposal toward becoming a functioning organization.
    I want to commend you and the Administration for the increase in 
funding for first responder grants, and for high threat urban area 
grants specifically. In fact, I strongly believe all DHS first 
responder grants should go out on the basis of threat, vulnerability 
and consequences.
    Nothing pleases me more than carrying out the monumental task of 
securing our homeland in an apolitical fashion. Threat-based first 
responder funding is a good start toward achieving this goal.
    The Department is also making significant strides in information 
analysis. The Information Analysis and Infrastructure Protection 
directorate is working hard to bring many divergent groups together to 
better evaluate and effectively communicate threats against our great 
country.
    Understanding the Department is still in its infant stages, I 
retain some concerns. After nearly one year, I hope to see DHS begin to 
place a heavier emphasis of importance on productivity and 
responsiveness.
    There remains a need to see progress in the area of linking 
programs across the Department. Interoperability is not just a 
necessary term the military uses to have the Services better able to 
communicate with each other, but it is a term that needs to be included 
in the culture of the hard working employees of the Department of 
Homeland Security. Once every one is talking to each other within the 
Department, the Department will then be more able to communicate with 
the public and the U.S. Congress.
    I look forward to your testimony today and continuing to work 
together to ensure our nation remains safe and secure.

       Prepared Statement of The Honorable Sheila Jackson-Lee, a 
           Representative in Congress From the State of Texas

    Good morning Chairman Cox, Ranking Member Turner, and my colleagues 
on the Full Committee. Thank you for organizing today's hearing, and 
thank you to Secretary Tom Ridge for your preparation and time today. 
In many ways, today's hearing is probably one of the most important 
that we will have all year. As we know, the President's Fiscal Year 
2005 budget was composed, largely, based on the specific 
recommendations of our witness today. The prioritization of homeland 
security needs for the entire nation was reflected directly in the 
money allocations, and in the case of Houston, Texas, as is the case 
with many of my colleagues' districts, the money received from the 
federal government will dramatically change from the budget of fiscal 
year 2003.
Funding of Local First Responders
    The President's fiscal year 2005 budget request for grants to our 
state and local first responders, and related homeland security 
efforts, represents close to an $800 million (18 percent) decrease from 
amounts appropriated by Congress for fiscal year 2004. The request 
proposes to consolidate grants previously administered by other DHS 
components (e.g., port security grants overseen by the Transportation 
Security Administration) to the Office of Domestic Preparedness (ODP). 
Furthermore, with respect to our first responder funding mechanisms, it 
reduces grants for the first responder law enforcement community by 
over $700 million (53 percent). The total reduction of grants made to 
local and state first responders and related homeland security programs 
for fiscal year 2005 is $1.5 billion.
    The House Select Committee on Homeland Security, and the leadership 
of Ranking Member Jim Turner, helped the Houston area make tremendous 
strides in their homeland security preparations in past funding 
periods-in particular, it secured funds for our first responders in 
fiscal year 2003.
    On April 8, 2003, the Department of Homeland Security (DHS) 
announced that approximately $100 million from the fiscal year 2003 
funding would be dedicated to large urban areas. Of that $100 million, 
$29.5 million was made available to Texas from the Department of 
Homeland Security's Office of Domestic Preparedness. Plus, an 
additional $8.63 million was provided to the City of Houston as part of 
the Urban Area Security Initiative.
    The Members of the Houston delegation have also worked tirelessly 
to secure additional funds through the appropriations process for local 
organizations that are part of the Homeland Security battle. For 
example, I have requested funds be appropriated for:
        <bullet> The Harris County Hazardous Materials Team and Fire 
        Department
        <bullet> Houston area Immigration Enforcement Efforts
        <bullet> The City of Houston for collaborative efforts to build 
        community health centers
        <bullet> The Mental Health and Mental Retardation Authority of 
        Harris County
        <bullet> Millennium Super Neighborhoods Southeast
        <bullet> Port Security
    My appropriations requests on behalf of local organizations 
fighting the war on terrorism and protecting our homeland totaled over 
$18 million. The requests were designed to help our first responders 
and also improve the resources available to help the victims of 
terrorist attacks. An objective was to build new and improve existing 
local medical and counseling facilities. Included in my requests also 
were funds to help mental health organizations provide trauma relief to 
the victims of terrorist attacks.
    On December 31, 2003, I met with personnel from the Houston Police 
Department, School District Police Department, Fire Department, Mental 
Health Mental Retardation of Harris County, Office of Emergency 
Management, Health Department, Airport System, and the Houston chapter 
of the American Red Cross; members of the local branches of the Federal 
Bureau of Investigation (FBI) and the Drug Enforcement Agency (DEA); 
and the local academic and church communities to discuss the viability 
of Houston's threat assessment systems with respect to homeland 
security.
    Among the issues that we discussed today were whether the funding 
levels, equipment availability, depth of personnel, and degree of 
interoperability between local, state, and federal systems are adequate 
to facilitate timely emergency response. Overall, some of the responses 
given were that intelligence-sharing has generally improved; however, 
other important aspects clearly require immediate attention. Monies 
that were promised back in 2001 by the federal government have not been 
received; more hospital beds and medical equipment are needed; and the 
first responder staff and equipment levels must be increased.
    Border Security and the US-VISIT Program
    The United States Visitor and Immigrant Status Indicator Technology 
program's (US-VISIT) first phase is deployed at 115 airports and 14 
seaports. US VISIT was designed to expedite the arrival and departure 
of legitimate travelers, while making it more difficult for those 
intending to do us harm to enter our nation.
    The budget for fiscal year 2005 provides $340 million in 2005, an 
increase of $12 million over the fiscal year 2004 funding to continue 
expansion of the US VISIT system.
Appropriations
    In fiscal year 2003, the Department of Justice requested $380 
million for US-VISIT--$362 million in new funding and $18 million in 
fiscal year 2003 base resources.
    Relative to the Consolidated Appropriations Resolution, 2003, the 
conference report recommended $362 million for the program and related 
information technology (IT) infrastructure upgrades. According to DHS 
officials, the $18 million in base resources was to come from a user 
fee account. However, according to these officials, given the decrease 
in user fee receipts since September 11, 2001, it is unclear whether 
the $18 million will be available for the US-VISIT program.
    DHS submitted its fiscal year 2003 expenditure plan for $375 
million on June 5, 2003, to its House and Senate Appropriations 
Subcommittees on Homeland Security.
    Criticisms of the Program
    In his testimony, Secretary Ridge indicates that ``over $1 billion 
will be used to support [US-VISIT].'' Unfortunately, the testimony 
fails to adequately address how the budgetary plan will address the 
following criticisms:
        <bullet> That US-VISIT will not be effective for border 
        security
        <bullet> That it will impede U.S.-Mexican trade
        <bullet> That it will discourage legitimate international 
        travel and hinder South Texas retail.
        <bullet> That it essentially amounts to an anti-immigration 
        policy under the guise of homeland security.
        <bullet> Harm to efficiency--Without a way to separate 
        travelers, lines during high-volume times will be staggering, 
        regardless of how fast the machines may operate.
                -- Of the estimated 400 million people whom US-VISIT 
                would process annually, 360 million would go through 
                land ports of entry--five times more than go through 
                airports and seaports. And unlike air and sea 
                travelers, most land travelers do not file itineraries, 
                carry passport information or go through personal 
                screening.
                -- Legitimate travelers--truckers who haul goods to 
                warehouses just north of the border; people who live in 
                Mexico and work in Texas retail shops or factories; 
                Mexicans who own property in the United States--could 
                be stuck in processing lines.
        <bullet> hat US-VISIT targets the wrong people: Mexican and 
        Texas businesses and people who have created an interdependent 
        relationship.
        <bullet> As identified by a GAO Report issued in September 
        2003, there are 10 risk factors associated with US-VISIT:
                <bullet> Mission is critical. The missed entry of one 
                person who poses a threat to the United States could 
                have severe consequences.
                <bullet> Scope is large and complex. Controlling the 
                pre-entry, entry, status, and exit of millions of 
                travelers is a large and complex process.
                <bullet> Milestones are challenging. Progress and 
                current status of the program makes satisfying 
                legislatively mandated milestones difficult.
                <bullet> Potential cost is significant. DHS has 
                estimated that the program will cost $7.2 billion 
                through fiscal year 2014, and this estimate does not 
                include all costs and may underestimate some others.
                <bullet> Existing systems have known problems. The 
                program is to initially rely on existing systems with 
                known problems that could limit US-VISIT performance.
                <bullet> Governance structure is not established. The 
                program is not currently governed by an accountable 
                body that reflects its government wide scope and that 
                can make and enforce decisions and commit resources for 
                all program stakeholders.
                <bullet> Program management capability is not 
                implemented. The program office is not yet adequately 
                staffed, roles and responsibilities are not yet clearly 
                defined, and acquisition management processes are not 
                yet established.
                <bullet> Operational context is unsettled. Operational 
                issues have not been decided, such as which rules and 
                standards will govern implementation of biometrics 
                technology.
                <bullet> Near-term facilities solutions pose 
                challenges. Interim facility planning for high-volume 
                land ports of entry (POEs) must satisfy demanding as 
                well as yet to-be defined requirements.
                <bullet> Mission value of first increment is currently 
                unknown. The benefits versus costs of the first 
                increment are not yet known.

Aviation Security
    Today, it was reported that a British Airways flight from London 
Heathrow to Dulles Airport, flight #223, has been delayed. According to 
the report, this flight has been delayed or canceled eight previous 
times this year because of U.S. security alerts. Furthermore, more 
Americans were in the air over the Christmas holiday than at any time 
since September 11, 2001, yet the security of our airports has not 
clearly made any significant improvements. After more than two years of 
federal security operations, it is not clear that Americans are getting 
the security they deserve for the enormous sums they have spent.
    Spending on aviation security since September 11, 2001 has totaled 
$14.5 billion. Since September 11, we have spent $18 securing our skies 
for every $1 spent securing ports, trucks, buses, mass transit, and 
pipelines combined. Numerous media accounts tell of passengers bringing 
knives and guns on flights without realizing it, and not getting 
caught. In the recent situation regarding Nathaniel Heatwole, it was 
discovered that he told the TSA that he was going to put box cutters 
and other potentially dangerous items on airplanes, but it still took a 
routine maintenance check a month later to find them.
    Recent government alerts indicate that Al-Qa`eda continues to plan 
terrorist attacks using aircraft. A major security step was taken 
without spending a lot of money: fortifying cockpit doors so hijackers 
cannot take over the controls. The security yield from the roughly $4 
billion spent on screening bags and passengers is less clear. While the 
Administration reports that its personnel have intercepted more than 
1,500 firearms and more than 54,000 box cutters since February 2002, 
disturbing reports draw attention to how many similar items have not 
been caught.
    If the procedures aren't being followed, the $4 billion we're 
spending on air security every year is wasted. Roughly half the 
passenger planes flying today carry cargo. Despite a legal requirement 
to screen all cargo shipped on planes, hardly any of these materials 
are screened for explosives or anything else. Planes that carry only 
cargo are also dangerously unsecured. Many do not have hardened cockpit 
doors, and the pilots are not yet allowed to carry firearms.
    Another problem was created by the Administration's inexplicable 
policy of allowing airport employees to enter secure areas of the 
airport without being screened in the same way passengers and pilots 
are. Congress has given the Administration substantial resources to do 
the job--more than any other aspect of homeland security. They must 
move faster to strengthen our front line defense against the terrorists 
threatening the safety of our skies and our communities.
    Overall, $890 million is provided for aviation security, a nearly 
20 percent increase, including funds to improve integration of 
explosive detection system (EDS) equipment into individual airports' 
baggage processing to increase security effectiveness and promote 
greater efficiency. In addition, the Federal Air Marshals will receive 
supplementary training and have opportunities to rotate into land-based 
agent assignments, further refining their law enforcement skills.
    Between fiscal year 2003 and fiscal year 2005, the FAMS budget will 
grow from $466 million, to $613 million, an increase of 32 percent. 
Because aviation continues to be an attractive terrorist target, we 
must continue to strengthen our aviation security system. The 2005 
Budget provides:
        <bullet> $5.3 billion for TSA, an increase of $890 million over 
        resources appropriated in fiscal year 2004. These funds will be 
        used to continue to improve the quality and efficiency of 
        screening operations through additional screener training, 
        stronger management controls of screener performance, and 
        technology automation.
        <bullet> The funding includes $400 million to continue 
        deploying more efficient baggage screening solutions at our 
        nation's busiest airports.
        <bullet> $85 million for air cargo security in TSA's budget, to 
        continue the research and deployment of screening technology 
        started in FY 2004.
        <bullet> $61 million in S&T's budget, to accelerate development 
        of more effective technologies to counter the threat of 
        portable anti-aircraft missiles.
    In Houston, the 11,000-acre Bush Intercontinental Airport facility-
the largest in the City, plans to institute a program to increase 
security capabilities called ``Airport Rangers.'' Under this program, 
Rangers will patrol the perimeter of the facility and utilize the 
advantage that it has over vehicles in monitoring airport traffic. It 
is unclear whether the 2005 proposed budget will fund this type of 
hybrid service of aviation and first responder security.

    Chairman Cox. Welcome again Mr. Secretary. Thank you for 
providing your testimony to the committee, and we offer you 
such time as you may need to summarize it for the committee.

STATEMENT OF THE HONORABLE TOM RIDGE, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Ridge. Very good. Thank you, Mr. Chairman and 
Congressman Turner, members of the committee. First of all, I 
would like to thank both of you for your public recognition of 
the quality of service and the commitment of 180,000 coworkers. 
All of us affiliated with their work, members of this 
committee, know how hard they work, and I am grateful for that 
public acknowledgment of that. Part of our job as leaders and 
managers is also to equip them. And they are highly motivated. 
One of the challenges in the years ahead is to give them the 
continuous training and the technological assistance that they 
need to do their job. They are doing a great job, and I thank 
you for recognizing it.
    I am grateful for the opportunity to appear before you 
today and to present the President's budget and priorities for 
the Department of Homeland Security in the coming year. Before 
the tragic events of 9/11, no single government entity had 
homeland security as a primary charge. With the creation of the 
Department, that charge is now ours; 22 agencies, 180,000 
employees brought together to pursue a single mission. That 
mission has been outlined and well recognized by this 
committee: To secure our Nation and citizens from the threats 
of terrorism and natural disaster is one that does not change 
or lessen in importance with the passage of time.
    As we prepare to celebrate our 1-year anniversary as a 
Department, it is the steadfast support of this Congress and 
the resources you have provided that have made it possible for 
us to not only carry out a vigorous and ambitious slate of 
security initiatives, but also to say with confidence that 
Americans indeed are safer, and also to recognize in the same 
breath we still have more work to do. In a short time, we have 
strengthened airline security, increased vigilance at our ports 
and borders, forged unprecedented partnerships across the 
private sector and State and local governments, improved 
information sharing, launched robust efforts to engage citizens 
in preparedness efforts and distributed funds and resources for 
our dedicated first responders. Of course, as I said, there is 
still more we can do and there is still more we must do.
    The President's budget request for the Department in fiscal 
year 2005 includes $40.2 billion in new resources. When you 
take the total amount for BioShield, it is a 10 percent 
increase. If you take the BioShield dollars out of there and 
consider the fee increases and the discretionary increase, it 
is a 6 percent increase. If you take the fees out, it is still 
nearly a 4-1/2 percent increase. This increase in funding will 
provide the resources we need to expand and improve existing 
projects and programs as well as build new barriers to 
terrorists who wish to do us harm.
    Let me touch briefly on a couple of areas where a specific 
increase in our resources will help us continue to make 
progress at our borders, in our skies, on our waterways and 
throughout the Nation.
    To further strengthen our borders and port security, the 
budget includes $411 million increase for our Customs and 
Border Protection, Immigration and Customs Enforcement, and 
Coast Guard. This funding will support such innovative 
initiatives as the recently launched US-VISIT program which is 
now operational at 115 airports and 14 seaports across the 
country to help ensure that our borders remain open to 
legitimate travel but closed to terrorists. The program has 
been very successful, utilizing biometric technology to process 
more than 1 million legitimate passengers since the program 
began. And since that time, we have matched more than 100 
potential entrants against criminal watch lists. With 
additional funding of $340 million, we will continue to expand 
US-VISIT to include land borders and additional seaports.
    However, we realize that potential enemies will not always 
arrive at a customs checkpoint. That is why we have more than 
$64 million to enhance monitoring efforts along the border in 
between our ports.
    We have also requested an increase of $186 million to 
better enforce our immigration laws. We are also pushing our 
perimeter of security outward, making sure that our borders are 
the last line of defense, not the first. The Container Security 
Initiative, for example, focuses on prescreening cargo before 
it even reaches our ports, and this budget includes $25 million 
in additional funding to enhance our presence at existing ports 
and to begin the final phase of CSI, especially in high-risk 
areas around the world.
    Also the Coast Guard's budget will increase by 9 percent, 
which includes continued funding for the continuation of the 
Integrated Deepwater System and important new resources of more 
than $100 million to implement the Maritime Transportation 
Safety Act.
    One of the greatest concerns of Congress to the American 
public since September 11th, of course, has been aviation 
security, and thus it continues to be an area of high priority 
for our budget, and we have requested a 20 percent increase 
this year. The Transportation Security Administration will 
receive an additional $892 million to continue to improve the 
quality and efficiency of the screening process. Also, 
considerable funds will be available to continue the research 
and deployment of air cargo screening technology, as well as 
accelerate the development of technologies to counter the 
threat of portable anti-aircraft missiles. We have seen the 
havoc possible when aircraft are used as weapons.
    We have yet to experience the full impact of a bioterror 
attack, and may we never have to do so. But we must be 
prepared. And it is in that spirit that Secretary Tommy 
Thompson and I announced a $274 million Biosurveillance Program 
Initiative designed to protect the Nation against bioterrorism 
and to strengthen the public health infrastructure. The 
initiative will enhance ongoing surveillance programs for human 
health, hospitals, vaccines, food supply, State and local 
preparedness, and environmental monitoring and integrate them 
into one comprehensive surveillance system.
    In addition, one of our prime responsibilities is to gather 
intelligence and share information with the private sector and 
State and local officials as we work to secure the vast 
critical infrastructure upon which our economy as well as our 
way of life depends. That is why Information Analysis and 
Infrastructure Protection will receive an $864 million increase 
in funding that will enable us to carry out this important 
task.
    And finally, as I have said many times in the past, for the 
homeland to be secure, the hometown must be secure. That is why 
we continue to funnel resources to our State and local 
partners, as well as to ensure that those who serve on the 
front lines of this war, our firefighters, police, and medical 
personnel have the tools they need. And with that in mind, the 
total first responder funding in this budget adds another $3.5 
billion to the more than $8 billion we have made available 
since March 1st of last year.
    These are just some of our budget priorities over the 
coming year, priorities that reflect the vast nature of our 
mission. Whether safeguarding America from terrorist attacks or 
providing aid in the face of natural disasters, our charge 
never changes, and our course must never alter.
    To protect the people we serve is the greatest call of any 
government through the work of many. From the men and women of 
Congress of the United States who allocate the resources to 
those who serve as Governors and mayors, who work to fill gaps 
in their States and their cities' security, to those individual 
citizens who make preparedness kits, that call is being 
answered and embraced by an entire Nation. It is that 
singleness and dedication of purpose that fuels our work in 
homeland security. We are grateful for the continued support of 
the Congress of the United States and of this committee in that 
effort. We thank you very much.
    Chairman Cox. Thank you very much Mr. Secretary.
    [The statement of Secretary Ridge follows:]

Prepared Statement of the Honorable Tom Ridge, Secretary, Department of 
                           Homeland Security

Introduction:
    Mr. Chairman, Congressman Turner, and Members of the Committee:
    I am honored and pleased to appear before the Committee to present 
President Bush's fiscal year 2005 budget for the Department of Homeland 
Security. Before beginning to outline our fiscal year 2005 budget 
request, I want to thank you for the strong support you showed for the 
Department in the fiscal year 2004 budget and for the fact that that 
appropriation was passed in time for it to be signed by the President 
on October 1, 2003--the first day of the fiscal year.
    The $40.2 billion request represents a ten percent increase in 
resources available to the Department over the comparable fiscal year 
2004 budget and reflects the Administration's strong and continued 
commitment to the security of our homeland. The fiscal year 2005 budget 
is a $3.6 billion increase over fiscal year 2004, and it includes 
increased funding for new and expanded programs in border and port 
security, transportation security, immigration enforcement and 
services, biodefense, incident preparedness and response, and the 
implementation of a new human resources system that will reward 
outstanding performance. The budget also continues our momentum toward 
integrating intelligence, operations and systems in a way that 
increases our nation's security.
    The Department of Homeland Security has made great organizational 
strides during the first year of operations. Nearly 180,000 employees 
and a budget of $31.2 billion were brought under DHS less than a year 
ago. The Department established a headquarters operation and 
successfully began operations on March 1, 2003--bringing together the 
legacy agencies and programs that now make up DHS. Customs, border and 
immigration activities have been reformulated into new agencies that 
will increase the effectiveness of our dedicated employees. DHS 
continues to create new ways to share information and intelligence 
within the Department and between levels of governments, and 
horizontally across agencies and jurisdictions. Already, over 350 
different management processes have been consolidated to 130, and DHS 
has begun consolidating 2,500 support contracts into roughly 600.
    While DHS invested considerable time to make the many 
organizational improvements that will improve our effectiveness, much 
was also accomplished programmatically. The fiscal year 2003 
Performance and Accountability Report provides a comprehensive 
discussion of our accomplishments of the past year. We believe that in 
the twelve months since the creation of the Department, we have made 
substantial progress. Through the hard work of our dedicated and 
talented employees, America is more secure and better prepared than we 
were one year ago.
    We have achieved many results since our creation, including:
        <bullet> improving the collection, analysis and sharing of 
        critical intelligence with key federal, state and local 
        entities;
        <bullet> allocating or awarding over $8 billion to state and 
        local first responders to help them prevent and prepare to 
        respond to acts of terrorism and other potential disasters;
        <bullet> strengthening border security through the ``One face 
        at the border'' initiative, which will cross-train officers to 
        perform three formerly separate inspections--immigration, 
        customs and agriculture. This will allow us to target our 
        resources toward higher risk travelers;
        <bullet> instituting innovative new systems like 
        US<bullet>VISIT to identify and track foreign visitors and 
        students and to screen for possible terrorist or criminal 
        involvement;
        <bullet> safeguarding air travel from the terrorist threat by 
        hardening cockpit doors, instituting 100 percent checked 
        baggage screening; and training more than 50,000 federal 
        passenger and baggage screeners;
        <bullet> increasing safeguards on maritime transportation and 
        port infrastructure;
        <bullet> expanding research and development in the defense of 
        our homeland, through the creation of programs such as the 
        Homeland Security Advanced Research Projects Agency (HSARPA) 
        which has already engaged hundreds of private companies and 
        universities in developing new cutting-edge technologies;
        <bullet> launching an ambitious, collaborative effort involving 
        input from employees at all levels, unions, academia, and 
        outside experts to design a modern human resources system that 
        is mission-centered, fair, effective and flexible;
        <bullet> initiating a five-year budget and planning process and 
        commencing the development of an integrated business and 
        financial management system (Project eMerge \2\) to consolidate 
        the 50 different budget execution systems, 43 different general 
        ledgers, and 30 different procurement systems inherited by DHS; 
        and
        <bullet> successfully transferring more than $50 billion in 
        assets, $36 billion in liabilities and more than 180,000 
        employees to the Department.

Fiscal Year 2005 Budget Request
    The Fiscal Year 2005 budget for the Department of Homeland Security 
builds upon the significant investments to date to our safeguard 
against terrorism, while also sustaining the many important 
departmental activities not directly related to our fight against 
terrorism. The President's budget clearly demonstrates the continuing 
priority placed on the Department of Homeland Security in providing 
total resources for fiscal year 2005 of $40.2 billion. This is an 
increase of 10 percent above the comparable fiscal year 2004 resource 
level, $9 billion (29 percent) over the 2003 level and $20.4 billion 
(103 percent) over the 2001 level.

Strengthening Border and Port Security
    Securing our border and transportation systems continues to be an 
enormous challenge. Ports-of-entry into the United States stretch 
across 7,500 miles of land border between the United States and Mexico 
and Canada, 95,000 miles of shoreline and navigable rivers, and an 
exclusive economic zone of 3.4 million square miles. Each year more 
than 500 million people, 130 million motor vehicles, 2.5 million 
railcars, and 5.7 million cargo containers must be processed at the 
border. Conditions and venues vary considerably, from air and sea 
ports-of-entry in metropolitan New York City with dozens of employees 
to a two-person land entry point in North Dakota.
    During fiscal year 2005, we will continue to strengthen our border 
and port security. Our budget seeks over $400 million in new funding to 
maintain and enhance border and port security activities, including the 
expansion of pre-screening cargo containers in high-risk areas and the 
detection of individuals attempting to illegally enter the United 
States. Our budget also includes an 8 percent increase for the Coast 
Guard to upgrade port security efforts, implement the Maritime 
Transportation Security Act, and enhance other activities.
    Specifically, our budget includes an increase of $25 million for 
U.S. Customs and Border Protection's Container Security Initiative 
(CSI) which focuses on pre-screening cargo before it reaches our 
shores. We are also seeking an increase of $15.2 million for Customs 
Trade Partnership Against Terrorism (C-TPAT). C-TPAT focuses on 
partnerships all along the entire supply chain, from the factory floor, 
to foreign vendors, to land borders and seaports. To date, nearly 3,000 
importers, 600 carriers, and 1,000 brokers and freight forwarders are 
participating in C-TPAT, surpassing the Department's original goal of 
participation of the top 1,000 importers. In order to further protect 
the homeland against radiological threats, the budget seeks $50 million 
for next generation radiation detection monitors.
    As well as continuing development for secure trade programs, the 
President's budget also seeks an increase of $20.6 million to support 
improvements for the National Targeting Center and multiple targeting 
systems that focus on people and/or goods. These systems use 
information from diverse sources to provide automated risk assessments 
for arriving international air passengers, shipments of goods to our 
country, and land border passenger traffic.
    The United States Visitor and Immigrant Status Indicator Technology 
(US-VISIT) program's goals are to enhance the security of our citizens 
and our visitors; facilitate legitimate travel and trade across our 
borders; ensure the integrity of our immigration system; and respect 
the privacy of our welcomed visitors. US-VISIT represents a major 
milestone in our efforts to reform our borders. DHS deployed the first 
increment of US-VISIT on time, on budget, and has met the mandates 
established by Congress as well as including biometrics ahead of 
schedule. The budget seeks a total of $340 million in fiscal year 2005, 
an increase of $12 million over the fiscal year 2004 level. Through 
fiscal year 2005, over $1 billion will be used to support this 
initiative.
    Our budget also seeks an increase of $64.2 million to enhance land-
based detection and monitoring of movement between the ports, and $10 
million to plan, procure, deploy and operate unmanned aerial vehicles. 
In addition, the budget request for U.S. Immigration and Customs 
Enforcement (ICE) includes an increase of $28 million to increase the 
flight hours of P-3 aircraft. The P-3 has already proven itself to be a 
key asset in the battle against terrorism as demonstrated in the days 
immediately following the September 11, 2001 attacks when P-3s flew 
airspace security missions over Atlanta and Miami.
    The Coast Guard funding increase includes over $100 million to 
implement the Maritime Transportation Security Act, to support the 
Coast Guard's ability to develop, review and approve vessel and port 
security plans, ensure that foreign vessels meet security standards, 
improve underwater detection capabilities, and increase intelligence 
capacity. The budget also maintains the Coast Guard's ongoing 
Integrated Deepwater System initiative, funding the program at $678 
million, an increase of $10 million over the fiscal year 2004 funding 
level.

Enhancing Biodefense
    The President's fiscal year 2005 budget reflects $2.5 billion for 
Project BioShield that will be available in fiscal year 2005 to 
encourage the development and pre-purchase of necessary medical 
countermeasures against weapons of mass destruction. Project BioShield 
allows the Federal Government to pre-purchase critically needed 
vaccines and medications for biodefense as soon as experts agree that 
they are safe and effective enough to be added to the Strategic 
National Stockpile. The Administration is moving forward in purchasing 
the most important countermeasures and high on the list are next-
generation vaccines for both smallpox and anthrax.
    The Department's efforts to improve biosurveillance will involve 
the Information Analysis and Infrastructure Protection (IAIP) and 
Science and Technology (S&T) directorates. In S&T, the budget requests 
$65 million increase to enhance current environmental monitoring 
activities, bringing the total fiscal year 2005 investment in this area 
to $118 million. One key component of this initiative will be an 
expansion and deployment of the next generation of technologies related 
to the BioWatch Program, a biosurveillance warning system. In IAIP, $11 
million increase is included to integrate, in real-time, 
biosurveillance data collected from sensors throughout the country and 
fuse this data with information from health and agricultural 
surveillance and other terrorist-threat information from the law 
enforcement and intelligence communities.
    The National Disaster Medical System (NDMS) is responsible for 
managing and coordinating the Federal medical response to major 
emergencies and federally declared disasters. For 2005, FEMA's budget 
includes $20 million for planning and exercises associated with medical 
surge capabilities. In addition, the budget transfers funding ($400 
million) for the Strategic National Stockpile to the Department of 
Health and Human Services to better align the program with that 
agency's medical expertise.
Improving Aviation Security
    We have made great strides to improve the safety of the aviation 
system from acts of terrorism. For example, we have made significant 
investments in baggage screening technology--over $2 billion to 
purchase and install Explosive Detection System machines (EDS) and 
Explosive Trace Detection machines (ETD) to the nation's airports from 
fiscal year 2003 to fiscal year 2005; hardened cockpit doors; deployed 
45,000 federal passenger and baggage screeners at the Nation's 
airports; and trained pilots to be Federal Flight Deck Officers. The 
President's fiscal year 2005 budget seeks to enhance our efforts in 
this regard and would provide an increase of $892 million, a 20 percent 
increase over the comparable fiscal year 2004 level, for the 
Transportation Security Administration (TSA). Additional funding for 
TSA supports aviation security, including efforts to maintain and 
improve screener performance through the deployment of technology.
    The Department implemented a substantially improved air cargo 
security and screening program last year, and the President's budget 
sustains funding to continue program deployment and screening 
technology research. In addition, the fiscal year 2005 budget seeks a 
total of $61 million to accelerate development of more effective 
technologies to counter the threat of portable anti-aircraft missiles.

Enhancing Immigration Security and Enforcement
    Comprehensive immigration security and enforcement extends beyond 
efforts at and between the ports-of-entry into the United States. It 
extends overseas, to keep unwelcome persons from reaching our ports, 
and to removing persons now illegally residing in the United States. 
The Administration is committed to stronger workplace enforcement in 
support of the President's temporary worker proposal announced January 
7, 2004.
    The requested increases include $186 million for U.S. Immigration 
and Customs Enforcement (ICE)--whose appropriated budget overall 
increases by about 10 percent--to fund improvements in immigration 
enforcement both domestically and overseas, including more than 
doubling of current worksite enforcement efforts and approximately $100 
million increase for the detention and removal of illegal aliens. 
Detention and Removal of illegal aliens present in the United States is 
critical to the enforcement of our immigration laws and the requested 
funding will expand ongoing fugitive apprehension efforts, the removal 
from the United States of jailed illegal aliens, and additional 
detention and removal capacity.
    Our proposal for ICE also includes an increase $78 million for 
immigration enforcement. As part of the President's proposed new 
temporary worker program to match willing foreign workers with willing 
U.S. employers, enforcement of immigration laws against companies that 
break the law and hire illegal workers will increase. The Fiscal Year 
2005 President's Budget includes an additional $23 million for enhanced 
worksite enforcement. This more than doubles existing funds devoted to 
worksite enforcement and allows ICE to hire more Special Agents devoted 
to this effort. With these resources, ICE will be able to facilitate 
the implementation of the President's temporary worker program 
initiative by establishing a traditional worksite enforcement program 
that offers credible deterrence to the hiring of unauthorized workers. 
Without such a deterrent, employers will have no incentive to maintain 
a legal workforce.
    Our budget also seeks $14 million to support our international 
enforcement efforts related to immigration, including enabling ICE to 
provide visa security by working cooperatively with U.S. consular 
offices to review visa applications.
    We are a welcoming nation, and the hard work and strength of our 
immigrants have made our Nation prosperous. Within the Department, the 
U.S. Citizenship and Immigration Service (CIS) has improved the 
administration of immigration benefits to the more than seven million 
annual applicants. For fiscal year 2005, the President's budget seeks 
an additional $60 million, for a total of $140 million, to achieve a 
six-month processing for all immigration applications by 2006, while 
maintaining security.

Increasing Preparedness and Response Capability
    Though the primary mission is to protect the Nation from terrorism, 
the Department's responsibilities are diverse. The ships that interdict 
threats to our homeland are also used to help mariners when they are in 
distress and protect our marine resources from polluters and illegal 
fishing. While we must be prepared to respond to terrorist attacks, we 
are more often called upon to respond to natural disasters
    To support the Department's efforts to respond, the President's 
Budget includes an increase of $10 million, for a total of $35 million 
in fiscal year 2005, for the Homeland Security Operations Center 
(HSOC). Pursuant to the Initial National Response Plan, the HSOC 
integrates and provides overall steady state threat monitoring and 
situational awareness and domestic incident management on a 24/7 basis. 
The HSOC maintains and provides situational awareness on homeland 
security matters for the Secretary of Homeland Security, the White 
House Homeland Security Council and the federal community. In addition, 
the HSOC provides the Department's critical interface to all federal, 
state, local & private sector entities to deter, detect, respond and 
recover from threats and incidents.
    The National Incident Management System (NIMS) is designed to 
ensure that all levels of government work more efficiently and 
effectively together to prepare for, respond to, and recover from 
domestic emergencies and disasters, regardless of cause. For fiscal 
year 2005, the Department requests $7 million to ensure that the major 
NIMS concepts involving incident command, coordination, communication, 
information management, resource management, etc., are incorporated 
into and reflected in FEMA's national disaster operational capability. 
This funding will provide for plan development, training, exercises and 
resource typing at the Federal, State, and local levels

Supporting State and Local First Responders
    The Department has initiated consolidation of the two principal 
offices responsible for administering the grants awarding process for 
emergency responders and State/local coordination, the Office of State 
and Local Government Coordination and the Office of Domestic 
Preparedness. This consolidation provides an opportunity to tie all DHS 
terrorism preparedness programs together into a cohesive overall 
national preparedness program designed to support implementation of 
State Homeland Security Strategies.
    The fiscal year 2005 budget continues to support the Nation's first 
responders and seeks a total of $3.6 billion to support first-responder 
terrorism preparedness grants with better targeting to high-threat 
areas facing the greatest risk and vulnerability. For fiscal year 2005, 
funding for the Urban Area Security Initiative (UASI) doubles from $727 
million to $1.45 billion. Since March 1, 2003, DHS awarded or allotted 
over $8 billion to support state and local preparedness. Between fiscal 
year 2001 and the fiscal 2005 budget request, over $14 billion in 
assistance will be made available for programs now under DHS. Our 
request for fiscal year 2005 is slightly higher than funding sought for 
these programs in fiscal year 2004.

Investing in Human Capital and Building Departmental Infrastructure
    Our employees are our single greatest asset and we are committed to 
investing in the development and motivation of our workforce. To 
support our efforts in creating a model personnel system, the 
President's fiscal year 2005 budget seeks $133.5 million for the 
implementation of a new DHS human resources system that is mission-
centered, fair, and flexible by rewarding top performers. The fiscal 
year 2005 budget specifically provides additional resources that will 
be used for training supervisory personnel to administer a performance-
based pay system and to create the information technology framework for 
the new system. Our new system will ensure that DHS can manage and 
deploy its resources to best address homeland security threats and 
support information technology tools for workforce management.
    We also seek additional funds to invest in the Department's core 
infrastructure. Our budget request seeks a total of $56 million, an 
increase of $17 million to support a new resource management system. 
This funding will support the design, development, and implementation 
for a single Department-wide financial management system. It will 
provide decision-makers with critical business information, e.g., 
budget, accounting, procurement, grants, assets, travel, in near 
``real-time'' and eliminate stovepipes within existing systems and 
processes.
    An increase of $45.1 million is also sought to continue expanding 
the DHS presence at the Nebraska Avenue Complex (NAC). These resources 
will enable DHS to perform tenant improvements to the facility and 
relocate U.S. Navy operations, pursuant to congressional authorization, 
from the NAC to leased facilities.

Conclusion:
    We have a dedicated and skilled team in DHS who understand that 
what they are doing is important. We have the support of our partners 
in government and the public and private sectors. I thank the Congress 
for its support, which has been critical to bringing us to this point.
    Our homeland is safer than it was a year ago, but we live in 
dangerous times and cannot count on times to change. That is why the 
Department of Homeland Security was created, and why we are moving 
forward. I am grateful to be here today to talk about the work we are 
doing to make America a safer home for us, for our children and 
generations to come.
    Thank you for inviting me to appear before me today, and I look 
forward to answering your questions.

    Chairman Cox. I recognize myself for questions.
    Mr. Turner alluded in his opening statement to an editorial 
in the Washington Post this morning that caught my attention 
and, I am sure, yours as well. The subject was the President's 
budget for homeland security. The Post editorial argues that, 
quote, ``Without a better analysis of likely threats and 
targets, it is impossible to say whether the amounts allocated 
are grossly inadequate or wastefully large.''
    That is certainly true. And even more important than 
knowing whether we are spending the right amount is that we put 
ourselves in a position to get the best possible analysis of 
potential terrorist threats and targets based on current 
information from all types of sources. We need to know where we 
should be acting and what we should be doing to make America 
safer, and spending needs to follow needs.
    So my first question I am going to put to you and then ask 
you to respond is, What is your strategy, what is the 
Department's strategy for bringing the Department's Information 
Analysis Division to full strength and for bringing its 
analytic products to state-of-the-art so that the IAIP 
Directorate can, in the words of the Homeland Security Act, 
quote, ``identify and assess the nature and scope of terrorist 
threats to the homeland, and understand such threats in light 
of actual and potential vulnerabilities of the homeland''?
    My second question concerns the inspection of containers, 
of cargo containers coming into the United States. The 
Brookings Institution put out a report that I know that you 
have seen and that the Department has read, the committee has 
read it: ``Protecting the American Homeland.'' The Brookings 
report cautions against inspecting everything, what they call 
the ``brute force'' approach.
    And let me just quote briefly from the report. It observes 
that there are 21.4 million import shipments in the United 
States. That was as of 2001, their most recent year. Quote: 
Inspecting all of them, instead of the current small 
percentage, could push Customs' $2.4 billion annual budget well 
over the $50 billion mark. Using such a brute-force approach, 
the broader cost to the economy would be substantially larger.
    According to one estimate, the cost of slowing the delivery 
of imported goods by 1 day, because of additional security 
checks, could amount to $7 billion per year.
    They put forward an alternative suggestion to develop a 
database for real-time tracking of containers headed toward the 
United States and to complete much of the inspecting before 
goods even reach American shores or land borders. Customs 
agents could then focus their limited resources on monitoring 
and inspecting shipments that did not undergo such offshore 
procedures. With this approach, Brookings concludes, the 
Department of Homeland Security would not have to expend its--
or, pardon me, expand its capabilities tenfold or more; it 
could selectively target those shipments of goods that pose the 
greatest risk for inspection at home, and rely on good port 
security and monitoring at overseas ports where U.S-bound cargo 
is loaded for most protection, as well as on continuous 
tracking of cargo and transit using GPS receivers and 
transmitters.
    This sounds to me to be very much like the Container 
Security Initiative, and I want to find out whether in your 
view Brookings' suggestions are good and accurate; whether, you 
know, since they have written your report as you developed CSI, 
whether you are moving more closely to the brute-force approach 
or whether more closely to a refined approach.
    Secretary Ridge. Mr. Chairman, with regard to your first 
question, it was alluded to in Congressman Turner's 
introductory remarks as well, when he talked about the need for 
an integrated threat and vulnerability assessment tool. 
Clearly, it is a high priority for Congress because it is part 
of the enabling legislation, and it is that strategic product 
that you have funded, and we are asking for a generous level of 
funding this time to assist us in that effort.
    I was looking at the dollars associated with the start-up 
of that particular unit within our Department and it was $185 
million. We were just getting started. It has gone up to $834 
million in the 2004 budget. So you have given us the resources. 
We are in the process of hiring the people. We have developed 
information-sharing advisory counsels with the 13 different 
sectors of our economy. We have asked our colleagues--and 
really they are our partners, Governors, to build strategic 
plans to address the security needs of the individual States. 
Part of those strategic plans is to have the States either 
through--with their management people, their State police, 
begin developing their own list of critical infrastructure that 
they deem critical infrastructure.
    I had a good conversation with Governor Romney yesterday up 
in Massachusetts. Part of the plan that they submitted to us 
was a basic outline of how they went about that process.
    So you have given us the resources to build the Department. 
It is clearly a strategic tool that we will use at the Federal 
level but can be even more effectively used at the State and 
local level. The Governors and their homeland security advisers 
are in the process of developing their own independent list 
that we can match.
    We are working with the private sector, from the 
telecommunications and energy and chemical and financial 
services industry and the like to take a look at it. So I think 
we are well on our way to getting the kind of threat and 
vulnerability assessment tool that was referred to in the 
Washington Post article today.
    It will continue to take a great deal of work. And one of 
the interesting components of that process is we will get a 
good threat and vulnerability assessment tool. We will map it 
against the vulnerabilities, and then the next piece of that 
puzzle, since 85 percent of the critical infrastructure is 
owned by the private sector, is to make the business case so 
that these companies pay for their own security. We are digging 
pretty deep into the taxpayers' pocket to help secure America. 
They have a fiduciary responsibility to do so. But we have a 
lot of business leaders that will help us make that business 
case. But before we can do that, we do need that threat and 
vulnerability assessment tool. You have given us the resources. 
We are hiring the people and it is an ongoing work.
    Secondly, with regard to the Container Security Initiative, 
the magnitude of international commerce combined with just-in-
time manufacturing at our borders, combined with the impact of 
delays in the supply chain that would be associated with 
literally inspecting, individually, 22 million containers, 
suggests to us that we have to be smarter than that. And we are 
in the risk management business. And I daresay there will never 
be a day we are going to open all 22 million containers and 
check out the contents. So the smart approach--using people, 
data and technology--begins when we now get 24 hours in advance 
the manifest as to what is in the container. And the Coast 
Guard and legacy customs, over the past years and years, have 
built up a database, based on a commercial database and some 
information the government has and a rule-based system that we 
have developed, very sophisticated system, has a lot of pieces 
to it that we actually put a value on that manifest and we 
grade it, and depending on the grade, then we take additional 
precautionary measures, and we begin that process before they 
load the shipping container on board.
    Right now as we speak, we have citizens and members of the 
homeland security staff in 16 ports around the world. By the 
end of the year, with the money you have given us in the 04 
budget, we will have it up to 24. And we want to expand that 
with the 2005 budget, so we do that right now. From air, land, 
and sea containers, we physically inspect, either through the 
nonintrusive technology--and we have various kinds of 
technology at various places--or physically open and inspect 
about 15 percent of that cargo. And of course, when a ship is 
in transit, we now not only have the manifest in front of us, 
but we have an opportunity to take a look at the crew list, 
where the ship has been, and we will be able to monitor and 
track where that ship has been.
    As the Brookings Institute has pointed out, they had to 
make sure they don't make any unscheduled stops that aren't 
reflected on their itinerary. So again, in the process of 
managing the rest, we understand--22 million containers--we 
understand the vulnerability associated with it.
    You have given us a lot of people. We have placed a lot of 
technology, and we start that whole process overseas. And I 
think that is the best and most effective way to deal with 
managing potential risk associated with a huge reliance on 
international commerce to keep our economy going, to keep our 
communities going, to keep people employed.
    Chairman Cox. Thank you, Mr. Secretary. I am very 
encouraged that we are using technology, targeted, and 
intelligence to take a smarter approach to this. I saw a 
remarkable similarity between what Brookings was recommending 
and what you were doing, and it seems to me that since they 
have written that report, you have taken it even much further.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, I think we all understand, you know, you 
can't open every cargo container; 20 million of them a year 
come in this country. But it does seem to me that we should 
have already made the investment, which I understand is not in 
the theme of the total budget, that large an investment, to 
install these radiation portals so that all of these containers 
as they come in can be run through these portals. And I 
understand that if we provide enough of them at our ports, it 
would not unduly delay the movement of commerce.
    And so I would ask you, one, why is it we haven't made 
those purchases in light of the fact that I think it is a cost-
effective purchase? And secondly, when we talk about this 
trusted shipper program, I guess it is called CT PAT, I was 
looking at some numbers on that and we have 5,300 companies 
that have been approved for that program as trusted, but only 
141 of the 5,300 have actually been asked to provide to the 
Department their security practices to ensure that they meet 
certain minimum standards.
    So it is disturbing to me that we say that we have this 
redundant system in place and one of those checks is to be sure 
we know who the shipper is, and yet we must have compiled a 
list of 5,300 and said you all are all okay. But I am not sure 
I understand the basis for that decision if we haven't asked 
but 141 of them to give us the security standards that they 
operate under to ensure that somebody doesn't put something bad 
in those containers. I know the threats we are worried most 
about are the catastrophic threats, and I do believe that 
moving faster to deploy these radiation portals would be a wise 
investment.
    But I would welcome your comments on those two points.
    Secretary Ridge. Thank you, Congressman. As of December of 
2003, Customs and Border Patrol had deployed nearly 10,000 
personal radiation detectors, over 300 radiation isotope 
identifier devices, and in excess of 140 radiation portal 
monitors. There is an additional 57 of these radiation portal 
monitors scheduled for deployment by--well, by the end of this 
month, I believe. We will be purchasing more during the course 
of the year and deploying them, and the budget requests in 2005 
asks for additional.
    So again, just like in many other areas, we continue in a 
very, I think, very constructive and a very appropriate way to 
build up our capacity at our borders to deal with the potential 
radiological threat.
    With regard to the Customs Trade Partnership Against 
Terrorism, there is a preliminary inspection and a commitment 
from those 5,000 companies to apply security standards. I am 
not quite sure, and I am going to ask for the opportunity to 
get back to you to clarify that huge gap, because I don't 
believe that is accurate. These are companies that have 
committed themselves to certain security protocols. We still 
reserve the right to pull those trucks aside, trust them to do 
it, but we want to verify it occasionally with random 
inspection. And again, whether it is 141 or 1,041, we have got 
the commitment from the companies. We are sending out 
inspection teams to see the kind of security procedures they 
have employed. We have asked them, and we are conducting 
background checks on the drivers of the vehicles coming across 
our borders. We get their manifest information in advance so we 
can check that as well.
    So again, there is a gap between necessarily those that we 
have physically inspected to see if they are complying with the 
security protocols that we have--they have agreed to deploy and 
that will obviously take time because it is labor intensive. 
But I do think it is a little bit higher than 141 and--but I 
will have to get back to you and either say, Congressman, you 
are absolutely right we have to accelerate it, or there is 
another figure in between.
    Mr. Turner. Thank you, Mr. Secretary. And I do hope you 
will take a look at the issue of the radiation portals. I know 
in your budget there are insufficient funds for radiation 
portals on the southern border. And if you look at the cost of 
those, I think a strong case can be made that an investment now 
in those would be a wise investment.
    I think my time has expired and so I will yield back. Thank 
you, Mr. Chairman.
    Chairman Cox. The Chair will now recognize other members 
for questions they may have. And so that there is no confusion, 
let me be clear that I plan to recognize members in order of 
their committee seniority, beginning with members who were 
present at or before the conclusion of opening statements. 
Those arriving after that time will be recognized in order of 
their appearance. That means that we begin with Mr. Shays. Oh, 
I am sorry. I have a list here that says Shays, Weldon. But I 
am happy to do it Weldon, Shays.
    Mr. Weldon.
    Mr. Weldon. Thank you Chris. And thank you, Mr. Chairman.
    First of all, let me say I would ask unanimous consent that 
we, in support of our Chairman, demand that the House 
Administration make a more suitable hearing room available for 
this very important committee. There are a number of hearing 
rooms in this--on Capitol Hill that are far more worthy of the 
importance of this Chairman and the Ranking Member in this 
issue than this room. And this has nothing do with Secretary 
Ridge, but it is an embarrassment that we have to be crammed in 
here. And Mr. Chairman it is an embarrassment to you personally 
because of your outstanding leadership. And so I would join, 
hopefully with my colleague on both sides, in demanding that a 
more appropriate room be made available. I walked around the 
room today and there are other--the halls, and I see other 
rooms that are not even being used today. And it is not the 
fault of this committee. It is House Administration that 
assigns hearing rooms, but--.
    Chairman Cox. Without objection, so ordered. We will have a 
larger room.
    Mr. Weldon. Let me get on to--.
    Secretary Ridge. So let it be written, so let be done.
    Mr. Weldon. To my good friend and colleague and my former 
Governor who is a dear friend, and I thank him for the great 
work he has done. We had a meeting the first week you were in 
office--do you remember, Mr. Secretary--and I told you some of 
my concerns, and you addressed many of them when you were The 
governor in our State on first responder issues. And you have 
come through, I think with amazing success, in responding to 
those concerns of intelligence sharing, data fusion, for the 
analysis of emerging threats. The interoperability issue you 
have taken on as a challenge nationwide and it is being 
recognized by the first responders all over the country. The 
JRISE program that is underway, which now allows vertical 
sharing of intelligence information with local, State, county, 
and Federal agencies is an outstanding success and a model that 
I have seen in reality all across the country, from California 
to the east coast. You deserve credit for all of those.
    I am a little concerned that the funding for some of our 
first responder programs, the Assistance to Firefighter Grant 
Program, or FIRE Act, is at a lower level, but I think we will 
deal with that in the Congress. It is a very popular program, 
as you know. And also the lack of funding request for the SAFER 
program, which was a bipartisan initiative in the last Congress 
modeled after the COPS first program. I think you will see the 
Congress also deal with that in the appropriation process.
    But I want to get at an issue that I think is not your 
concern but--it is your concern, but not your fault. It is the 
bureaucrats that sometimes work within the FEMA and other 
agencies below you. They have this mind-set that Washington 
knows all and that all the solutions for our local problems 
come from the top down. The fact is that, as you know, Mr. 
Secretary, we have 32,000 fire and EMS departments in the 
country. They have been in existence longer than America has 
been a Nation. 250 years. They respond to every incident and 
disaster we have had, and they have done so extremely well. 
Before there was a FEMA, before there was a National Guard, 
before there was a Department of Homeland Security, these men 
and women have responded to incidents in our refineries, in our 
ports, HazMat explosions, levies; you name it, they have been 
there. Many of them weren't terrorist incidents. Some were, 
like the Murrah Building bombing and the World Trade Center. 
But many of them were incidents that just occur as a part of 
the risk associated with our quality of life.
    And what frustrates me is that this Congress, back as far 
as 2000, said we have got to give these first responders the 
tools they need, because they best understand what their 
threats are locally. You go to any local fire chief, he or she 
knows what their threats are in that town. They know it is the 
potential for an explosion at a refinery or at a port. And 
instead of trying to come from the top down and shape what they 
have been doing for 200 years, we ought to be listening to them 
and work from the bottom up.
    And why I say that is in the new request coming in, we 
limit the amount, the types of money that can go out for first 
responders, to only four subsections. We no longer allow them 
to do the other kinds of things that were the original intent 
of the Congress. And the Congress has its ears tuned in with 
the fire departments and the emergency med. We take EMS out of 
that in the proposal put forward by the Department.
    And I would just ask you to revisit that, with the 
understanding that Congress is always in tune from the bottom 
up.
    Now, that doesn't mean that we shouldn't have that 
overarching threat assessment that comes in from terrorism. But 
it doesn't mean in support of that we should undermine the 
ability of our local first responders to have the best tools to 
deal with what they know to be the threats locally, based on 
their years of experience.
    I would ask you to look at that as a key issue. We don't 
know it at all in Washington. And in fact, the first--in fact, 
in one case, the USFA used to hold annual meetings of all the 
fire services to go over the purpose for grant uses. DHS is 
bypassing that process now and determining on their own what 
the priority should be. I think that is wrong.
    You have got a great U.S. Fire Administrator, Dave 
Paulison, who is a great guy and was chief of the Metro Dade, 
handled the Hurricane Andrew with tremendous success. We ought 
to be listening to people like Dave. He understands. And I know 
you are a big supporter of his and he is a big admirer of yours 
as well.
    One final thing. And here is your chance. Two things. Tech 
transfer. We have got to do a better job of transferring 
military technology for first responders. We haven't done that 
well. I have a bill that is bipartisan that would do that. I 
would ask you to look at that for consideration in this 
session.
    Finally, here is your chance. We tell you what you are 
doing wrong, and I am going to give you a chance to hit us over 
the head. And here is what I am going to say to you. And we 
talk a good game, Mr. Secretary, but the fact is when we 
created your agency, you have to report to 88 committees and 
subcommittees of the House and the Senate, and when you look at 
the members of those 88 committees and subcommittees, that is 
505 members of the House and Senate that you report to. In 
anyone's estimation, that is an absolute joke. It is a farce. 
It is impossible, I would say--and you can comment on your 
own--for you to have to report to that many people. One of our 
top priorities is to make this committee a full standing 
committee with a full authorization over the funding that goes 
to your agency. The appropriators in the House have done that, 
and Hal Rogers is a very capable chairman.
    What is your opinion? Should we do the same thing? What 
would it do to you? How would it impact your ability to respond 
to us if we had not just the select committee, but one 
permanent committee overseeing all the areas of funding? And 
should we do that in the next session of Congress? Would it 
help you?
    Secretary Ridge. I think you thought you were doing me a 
favor by asking me that question.
    First of all, having sat on that side of the table for 12 
years, I appreciate the importance of not only oversight, but 
you have the power of the purse, and so I think rigorous 
oversight is an important part, particularly the type of 
partnership we have developed with this committee and a few 
others, and I think it goes without saying that a streamlined 
process of oversight and accountability, in my judgment, would 
do both the executive branch and the legislative branch a world 
of good.
    Last year, we testified, myself, the deputy, under 
secretaries, I think in excess of 120 times.
    I mean, and maybe we would testify that many times if there 
was some form of consolidation. Oversight, that is your 
responsibility, but that is 24 to 48 hours of preparation 
before you testify.
    We have right now before us 420 GAO requests, a couple 
thousand very appropriate letters from Congress, and so if 
there wasSec. gain the kind of rigorous oversight is essential, 
the kind of partnership we are building I think is critical to 
the success of the Department, but I will leave it to the 
wisdom and the consensus that the leaders of this body. I am 
sure they can arrive at the best way to partner with us, but I 
am not going to sugar coat it.
    On the points of access and the points of oversight, I 
think, both the executive and the legislative branch, can do 
better than that.
    Mr. Weldon. Thank you.
    Secretary Ridge. I thank you.
    Congresswoman Pelosi, we will see what they think about my 
suggestion to reconfigure.
    Chairman Cox. The gentleman's time has expired.
    The gentlelady from California, Miss Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, thank you, Secretary 
Ridge, for being before us.
    Last time you were before us I told you I did not think 
America was so much safer with what was going on and with so 
many outstanding issues. I still feel the same way. There are a 
lot of things we need to handle and there are a lot of 
questions that I have for you.
    I am going to try to concentrate on actual questions that 
my law enforcement fire fighters and first responders submitted 
to me to ask you, because, obviously, I have been asking your 
under secretaries and your assistants and others other 
questions.
    I would like to say first that this whole issue of an 
infrastructure vulnerability risk analysis is very, very 
important, in particular since I am the ranking member of this 
subcommittee on that and it is a little disconcerting that when 
we first asked the question a year ago your under secretary at 
the time said it would take 180 days to put that together but 
would not give us a start date for that.
    180 days later he came before us and of course nothing was 
done, and so I guess one question I would have and I will let 
you go through the questions and I will let you answer. This 
one is going to be easy.
    What is the time line?
    I really want to know a time line, because I have been 
waiting almost a year now and really have seen no movement on 
that, and it is important for us because there are limited 
resources to be spent on homeland security, and we cannot make 
a good policy decision without having the weighted facts of 
what we need to invest in. That would be the first question.
    The second, you know, I used to say your Department was 
pretty chaotic because most of the time I did not even know who 
to reach for whatever. Now, I think it has actually gotten a 
little better.
    Now, it is a little confused or maybe very confused. I 
think one of the things I think that I see is--.
    Secretary Ridge. Yes.
    Ms. Sanchez. I want to understand the attrition rate that 
has gone on from when we merged these 22 departments or pieces 
of departments and who are the contract workers you are really 
using versus the real people who came over from those agencies, 
and I say confused because somebody asked me who actually works 
for the BICE.
    Is there anything happening at his place, and he mentioned 
his place of employment being INS. Is there anything happening, 
and he knows there is a change coming, but he really does not 
understand what is going on, so I guess this feeling that, you 
know, change can only happen if people are invested from the 
very ground floor up, and that just plays into the whole issue 
of I think there is a lot of confusion still going on within 
the entire department.
    I also want to get a handle from you on this whole issue of 
the immigration issue that the President has put forward and 
what you believe, because I actually think it could be a very 
good thing for us to understand and to have a way in which we 
give an incentive to people who are here without documents that 
we are never going to have the funds to find and try to figure 
out what they are doing, if we give them an incentive to figure 
out who they are and then we can spend the limited resources 
that we do have on those people who would be meaning to do us 
harm. So I would like to get your comments on how you feel 
about the issues of immigration, since it somewhat falls under 
your jurisdiction now, and then back to the first responders.
    I guess it comes down to this. You know, they all want to 
know where is the money. They still haven't seen it.
    Last week, this committee had a hearing on the orange alert 
level, and Admiral Loy, your Deputy Secretary, told this 
committee that we expect to pay the bills; we, meaning your 
department. He said that local law enforcement had to tell DHS 
by February 23 what extra costs they incurred during the 
holiday orange alert between December 21 and January 9.
    This is the first time last week, this announcement, that a 
lot of my folks had heard the Department was intending to put 
up funds for what they have gone through, and my office 
followed up after this hearing.
    They talked to our California Office of Homeland Security 
and they found something really important that there is no 
money there, so we expect to pay the bills. That was the 
statement from your second in command, but there is no 
resources for it. So can you tell me where is that money going 
to come from or are you going to put forward a supplemental?
    I also do not see anything in the budget to look at the 
next orange alert, because, you know, the City of Anaheim, we 
have Disneyland and a lot of other venues there. We spend 
$30,000 every day that you put us on orange alert, above and 
beyond what we normally do, and so I would just say what is 
happening, where is the money?
    You just have the Urban Area Security Initiative, where 
Anaheim and Santa Ana were to be granted 10,000,000, 
50,000,000. Again, no money. Nothing has come forward.
    We are just trying to understand. Help us with this 
process.
    How are we going to get the money to the local agencies?
    Secretary Ridge. Okay. Thank you, Congresswoman.
    I am not sure from chaotic to confused is progress or not. 
I do not think we are chaotic and I certainly do not think we 
are confused about our mission, but clearly as we set up the 
Department, as it relates to the second question that you have 
asked, there is a combination of people we brought in to 
headquarters that were previously working for some of the 
agencies that were in other departments, and that process 
itself would probably work its way out through the balance of 
this year.
    I, for one, favor fewer contractors and more FTEs, use 
contractors when you need them for specific projects but 
currently embedding a whole bunch of them is not the way. We 
need them now and we will need them in the future but not to 
the degree we need them now.
    Ms. Sanchez. Mr. Secretary, that might be a question for 
someone to put together.
    Secretary Ridge. Sure.
    Chairman Cox. If the gentlelady will yield. The 
gentlelady's time has expired.
    I want to make sure the Secretary has ample time to answer 
the questions that she put and I would remind members that the 
Secretary is with us for an extended period but has to leave at 
12:15.
    I have counted the members in the room, and if we stick to 
something like the 5-minute rule, every member will have the 
opportunity to ask questions, but try and give some chance for 
the Secretary within your 5 minutes to answer those questions 
or it will not work.
    Mr. Secretary.
    Secretary Ridge. First question was the threat and 
vulnerability assessment. The President has assigned a Homeland 
Security Presidential Directive, requiring us to develop 
preliminary tools for that purpose. We should have that done in 
the next 60 to 90 years.
    We have begun looking at different sectors of the economy 
in coming up with vulnerability tools, but there is a broader 
strategic overview in the direction the President has given us 
and you should be advised that that is going to be completed in 
the next couple of months. So I will tell you the next 60 to 90 
years, and if it is any different I will get back to you, but 
that is the timetable we have right now.
    We will get back to you with regard to the full-time 
equivalents and the contractors.
    The President has stated very clearly some principles 
around which he hopes the Congress will take on the very 
important task of dealing with the reality that we have 8 to 10 
million people in this country illegally. The reality is that 
just about every one of them came over to this country to live 
a dream, not to be a part of a terrorist act or a terrorist 
organization. The reality is that if we can come up with a 
lawful, rational, systematic way of validating their presence, 
not necessarily making them citizens, and one could argue that 
a lot of these people would just as soon come--a lot of these 
immigrants would just as soon come to this country, work and go 
back to their own country, so validating their presence is far 
different than putting them in the front of the line or even in 
the front of the citizenship line. We just have to accept that 
they are here and that they make an economic contribution to 
citizens all over this country, accept the reality that they 
did break the law and we do need to come up with a process in 
order to validate their presence, but come up with a better 
process of dealing with that immigration in the future. And so 
I think the President has laid out some principles and our 
department and immigration and citizenship services will look 
forward to the opportunity to work with Congress to develop 
that program.
    I will tell you at the outset that a key to the successful 
limitation of that program will be the kind of commitment 
Congress is willing to make to the resources necessary to 
enforce it. You know, we have asked for some additional dollars 
in this budget. We are going to nearly triple the teams we have 
going out to the workplaces and going out after absconders, and 
the need for a more robust enforcement procedure to make 
whatever we come up with work, but I think the President, very 
appropriately, has laid out principles that we can build a good 
policy around.
    Finally, first responders: Show me the money. That is what 
they are all saying.
    Congress had told us to get the money ready to distribute 
within 45 days. We were ready to distribute every penny. We had 
a very good conversation, frankly, about 3 weeks ago with 
California's homeland security adviser and your new Governor, 
because, as you well know, there is about $700 million I think 
from California sitting on the shelf from 2003-2004 that needs 
to be distributed to the first responders.
    The logjam I believe, Congresswoman, is there is no single 
distribution mechanism between the States and the local 
communities. It varies from State to State.
    Again, I am going to refer back. There are a couple that 
have a better system of distribution. Some distribute it 
regionally, some have it embedded in their program and some do 
not. We are going to take it on to sit down with the National 
Governors' Association, the Conference of Mayors, see if we can 
come up with one process that everybody is comfortable with so 
that when you appropriate the money to us and tell us to get it 
out the door, we can get it out the door with the kind of speed 
and efficiency that you want us to. So again the Federal 
Government is ready to cut the checks.
    The logjam is between the State and the locals and we have 
to partner with them for a better way to come up with a way to 
distribute it.
    Chairman Cox. Thank you, Mr. Secretary.
    The Chair would ask unanimous consent that the gentleman 
from New York, Mr. Sweeney, be permitted to question out of 
order since he is already late for his plane to Iraq.
    Mr. Sweeney. Thank you, Mr. Chairman.
    Chairman Cox. Without objection.
    Mr. Sweeney. And I appreciate the opportunity and I will be 
very brief, Mr. Secretary. It is a tight room. I feel so close, 
I am not sure I should be asking questions or answering them.
    Secretary Ridge. You are welcome to join me if you want.
    Mr. Sweeney. You are doing a fine job on your own.
    In my statement that I will submit for the record, I want 
to reiterate my thanks for your successes this past year. There 
are a couple of things that have already been touched on that I 
have some interest and concern about, and I will follow up on 
some of these because I am fortunate enough that I will be 
seeing you in Approps as well at some point.
    I was pleased to see in the President's budget that the 
distribution language, the formula language, referring to the 
PATRIOT Act, was deleted. I thought that was a move in the 
right direction.
    As you know, this committee, as part of its underlying 
legislation that I believe we will be moving quickly on here, 
will establish a funding formulation, I think, that will help 
your distribution problems.
    Based on a formula that focuses on threat, vulnerability 
and consequences, and we will have some debate over whether 
there ought to be a reasonable minimum allocation to the States 
or not, I know you have said in the past that you support that.
    My concern is this: In the last week, since the 
distribution of the budget, we are hearing rumblings from 
various sources that your folks at ODP want to reinsert that 
language back in.
    Where do you stand on that issue?
    Secretary Ridge. Folks of ODP stand where I stand and that 
is the President's initiative to number one, shift a lot of the 
money that historically that was just given out by formula into 
the Urban Area Security Initiative, where we do focus not just 
on population and density but threat to our protection.
    I do believe that States large and small have to build up 
some minimal capacity, if nothing else, for mutual aid within 
their own--in their own jurisdictions. But I also think that 
there is something else that we ought to look at, based on the 
documents that are given to us by the States.
    Our threat and vulnerability assessment tools can be used 
for some of the allocation. The allocation should not be just 
according to a formula.
    Mr. Sweeney. You do believe, I believe you said this 
before, that the current formulation is broken, is inept.
    Secretary Ridge. I accept the notion that every State 
deserves some amount of money. I think it is, frankly, higher 
than it should be, but I also think as we look at States, large 
and small, they may very well--I certainly know there are some 
communities out there that do not qualify for any of these 
grants because they do not quite fit the fairly rigid 
requirements, and it is conceivable there may be small States 
out there who may receive more than a formula would give them 
based on what their critical infrastructure might be. So I 
think the States should be building up a minimal capacity, but 
the extent that we are sending all that money out by formula, 
that ought to be changed and there ought to be other factors 
requested by the President that we could include in our 
distribution, particularly of critical infrastructure and 
threat.
    Mr. Sweeney. I think we agree. Not to disregard the threat 
that each American faces anywhere, but the notion that certain 
places would receive substantially larger per capita 
allocations when they are not considered to be on the A list of 
threats and targets is a little too much to believe in.
    Another question I have is that I know the Science and 
Technology Directorate faces a number of challenges allocating 
resources to the national labs, based on peer review and 
competition, developing teams, drawing on the best individual 
talent in the country, and integrating the work.
    It is a pretty substantial task they face and they have to 
do it in realtime and as comprehensively as they can. There is 
an understanding that in working with those folks, they tend to 
develop two lists in terms of who they are going to deal with 
and work with in national labs, an intramural list and an 
extramural list, meaning those in and those out, and I am 
wondering what you think about that and what the purpose is.
    Secretary Ridge. Well, first of all, the national labs have 
a 60-year history working with the Federal Government, the 
Department of Energy, the Department of Defense, and that is 
Sandia, Los Alamos, and Livermore, there are four or five of 
them that would be integral to some of the research that we 
have ongoing now that would help us set priorities, but also 
because they are working so close with us internally, frankly 
being at a competitive advantage if they also had the 
opportunity to compete for some of the dollars that are going 
to be distributed by the Homeland Security Advanced Research 
Projects Agency, so again trying to avoid that kind of 
conflicts.
    There are some of those labs that we are going to say will 
be unique to us internally and help with some of the basic 
research we are doing, help set the strategic direction of the 
Department and the research we need, not just within the 
Department but taking a look at the broader research needs of 
the country. They will be adequately compensated and very much 
an integral part of that process.
    Those laboratories that are not working with us internally 
will be the ones that will be competing for literally hundreds 
of millions of dollars under the Homeland Security Advance 
Research Project Agency. That is a distinction that we are 
trying to make because basically one would have some insider 
knowledge, and you could conceivably--we are just trying to 
delineate basic functions from basic labs. Some of those will 
help us internally. Those that aren't going to be involved in 
that capacity will be the ones that have access to other 
dollars.
    Mr. Sweeney. I will follow up and I thank you for your 
time.
    Chairman Cox. Thank you. The gentleman's time has expired.
    The gentleman from the State of Washington, Mr. Dicks, is 
recognized for 5 minutes.
    Mr. Dicks. It is good to see our colleague, Tom Ridge, here 
again. Just keep working hard. We are making some progress.
    I just met with Tim Lowenberg from the State of Washington. 
I know you know Tim.
    Secretary Ridge. Right.
    Mr. Dicks. He gave me a copy of the Washington Statewide 
Homeland Security Strategic Plan. Now, I do not know if other 
States are doing this, but I think this is an outstanding 
document and I think every State should do one of these plans. 
I do not know, under existing law are the other States required 
to have a plan like this?
    Secretary Ridge. Yes, sir. We in the middle of last year 
said to the States now that we have a department and we knew we 
were going to try to integrate the grant programs into a one-
stop shop, we had a national strategy, we wanted the States and 
Territories to have a strategy, so they were all due January1 
of this year.
    Mr. Dicks. Have they all come in?
    Secretary Ridge. Last time I checked there may have been 
one or two that haven't made it. We're going through the 
review. We sent a few back for some modifications.
    Mr. Dicks. Under the Urban Area Security Initiative, where 
we are giving all this money to the big cities, in our State 
Seattle is getting a much larger share of the money than the 
entire rest of the State of Washington I think we ought to 
allow the funding to be done via the strategic plan, and what 
is happening here is the State now will get a lot less money 
for the whole rest of the State outside Seattle.
    We have got problems with Hanford, with nuclear waste, we 
have got other bases, other ports. I think there has got to be 
a way, Mr. Secretary, to fund these plans and let them at the 
local level allocate the money to the highest priorities in the 
State. By putting all the money into the big cities, we are not 
going to be getting there. I would like to hear your comment on 
that.
    Secretary Ridge. Well, first of all, we want to direct 
dollars to the individual States through the plan, number one. 
That is why we asked them for it and that will be a dynamic 
document.
    Mr. Dicks. But most of the money is going to the cities, 
not much to the States.
    Secretary Ridge. Again, it is our primary task, not 
exclusive task, but the primary task has tried to manage the 
risk of a catastrophic incident, where you have a catastrophic 
loss of life or catastrophic economic incident and more often 
than not, just because of numbers and critical infrastructure 
being combined in urban areas, that is where potentially the 
greatest threat is, not necessarily where the only threat is.
    One of the challenges we have with that, Congressman, is to 
convince these metropolitan areas that there are a lot of 
surrounding counties that provide for their mutual aid, that 
provide support if something happens.
    I had an occasion to visit a community called Port Huron, 
which is outside of Detroit, Michigan. They have an incredible 
amount of infrastructure there and yet they somehow did not get 
any money that went to Detroit. So we are going to take a look 
at that initiative to make sure that those adjacent communities 
participate in the funding.
    Mr. Dicks. That is the problem we are having and I would 
ask you to look at that.
    Secretary Ridge. I will.
    Mr. Dicks. One other point: The President's budget proposal 
also significantly impacted the Emergency Management 
Performance Grant Program. Only 25 percent of grant funds will 
be available to support State and local emergency management 
personnel salaries.
    At present, up to 100 percent of these grant funds can be 
used for personnel salaries if required. Lowenberg tells me 
this will have a devastating effect in the State of Washington 
in terms of the funding of these people by this cut. I hope 
Congress will reject this.
    A March 2002 survey by the National Emergency Management 
Association found that an additional 5,212 local management 
emergency positions are needed, with 3,960 or 76 percent of 
these positions being full-time directors needed to manage the 
program, so by cutting the funding for salaries from 100 
percent to 25 percent we are going to devastate this program. I 
cannot believe that is our intent.
    Secretary Ridge. Well, I think, Congressman, the funding 
level is higher than it has ever been. Let's have a shared 
responsibility for employing that individual, individuals, and 
using the balance of the money for training exercises and 
planning. You may disagree with that interpretation. I think it 
contains the largest amount.
    Mr. Dicks. Why change it from 100 percent of availability 
of these funds to 25 percent? I think that is going to hurt the 
program and these people are going to have to lay people off. 
We need to hire people, not lay people off in this emergency 
management response area, so I hope you will take a look at 
that.
    Secretary Ridge. I will, Congressman.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Connecticut, Mr.Shays.
    Mr. Shays. Thank you very much, Mr. Chairman.
    Mr. Secretary, it would be hard for you to know that I am a 
big fan of yours in the Department since I have been getting in 
some disagreements with the Department, but in this room you 
have Mac Thornberry and Jim Gibbons and Jane Harman, who were 
responsible in creating your office. Ellen Tauscher is the only 
other one. It came through my subcommittee, and my committee 
still has jurisdiction over your department as it relates to 
programs, not authorization and not money.
    I want to know why we have not developed an antitoxin to 
botulinum. We do not now have a capability to deal with that 
and it kills you, and I just would like it to show up in your 
radar screen as something I would like your department to be 
moving a little more quickly with.
    The other thing is as it relates to standards. You 
basically are under the impression that the States are 
providing you what they need for vulnerability assessments, and 
my understanding, I think it is the committee's as well, is 
that is these are not coming in, the States are just giving you 
a wish list, and you cannot operate on a wish list.
    I believe urban areas, the bigger cities, need--I mean, it 
is crazy for a city like New York to be ignored and have Kent, 
Connecticut get something, and I honestly believe that when you 
force yourself to have set up a higher standard level in the 
States we are going to see money spent in better ways.
    As it relates to the whole issue of the warning system, I 
just want to express a concern and have you comment, and if I 
have time to respond, I would like to as well.
    We basically are at yellow alert, which means significant 
alert. Forget the colors. It is low, guarded, significant, 
high, and severe, and I feel like significant has come to mean 
guarded; in other words, we are all guarded, but--and even if 
we are at significant, when you go up from significant to high, 
to orange, you are basically saying to me and others we have 
got one hell of a serious potential for an attack.
    Secretary Ridge. Right.
    Mr. Shays. And I need to know if you could just explain to 
me how Americans should just go on about their normal behavior. 
I want to know why the public should not be responding and 
maybe not do something they ought to do.
    Let me just give you a case in point. I would not recommend 
when we go to high alert, when we think there is maybe a 
terrorist threat of a plane being hijacked from Europe, I would 
not recommend that a group of students go and then come back 
during that high alert.
    Why would you and why would your department say just do 
what you normally do?
    Secretary Ridge. First of all, Congressman, there is no 
doubt in my department, certainly no doubt from my personal 
perspective, that you are not a supporter of the Department, 
its mission, and men and women who work there.
    Mr. Shays. Thank you.
    Secretary Ridge. We have a difference of opinion as to how 
tools are used effectively or not effectively, very appropriate 
question to suggest that, but there is no doubt about that in 
anybody's mind.
    First of all, in regard to the dollars that are being 
expended to deal with the botulism, the antidote, we have 
presently expended as a countermeasure a budget authority of 
over $200 million and we are looking for in 2005, looking for 
an outlay of at least 150 million. We have already shifted some 
money into that, and I would have to go back to the NIH and CDC 
to give you more specific dollar figures, but there are dollars 
invested in research precisely in that area.
    Your comment about wish list, Congressman, I think, is a 
good one. Understandably, if you do not have try to come up 
with some standard definition of critical infrastructure, a lot 
of people in their communities take great pride and think 
certain venues are absolutely critical to their way of life, to 
the security of their community or the economic needs of the 
community. But we need to develop a pretty good list, working 
with the States, and develop the kinds of things, a standard 
list, to frame the issue, so that they can go out and help us 
identify those, the destruction of which would result in the 
catastrophic loss of human life or catastrophic economic loss. 
So we need to pare the wish list down to needs, and we will 
address the needs so we can deal with the wishes.
    And then finally the question, with regard to the warning 
system. When we initiated the warning system, Congressman, 
before we had the Department, it was really an alert system 
based on the assessment of the threat. It is not just unique to 
the Secretary of the Department, but when the decision to raise 
the threat level or the decision to reduce it is made, it is 
after considerable work and research over a long period of time 
and then a final discussion among Secretaries of State and 
Defense and the Attorney General, the CIA Director, the FBI 
Director, the Secretary of Transportation. So there is not a 
unilateral recommendation.
    I make the recommendation to the President. If there is a 
consensus, it is whether or not we take it up, and the reason 
we say, Congressman, that people should go about being 
Americans and doing what they planned on doing even before we 
raised it is because we are now in the position to issue that 
warning and understand completely that it does two things: One, 
it is an alert system and we tell the American public it is a 
consensus among some of your leaders who have researched, 
analyzed and discussed the threat information that we are 
tomorrow and in the foreseeable future at a higher level of 
risk to a potential attack. That is what we want Americans to 
know. We want to equip them with information. We cannot tell 
them the specifics, but we want them to know that.
    It is also a signal to security and law enforcement 
professionals that at this point in time they need to add 
additional preventative or security measures at specific sites 
in their States, specific sites in the private sector, and, 
Congressman, as we develop the threat and vulnerability 
assessment tools, as we identify those critical pieces of 
infrastructure and make permanent the kinds of security 
measures that should exist there on a permanent basis, I think 
the threshold, to raise it from yellow to orange, will be a 
higher threshold, because it is one thing to be worried about 
the threat when you haven't taken any precautionary measures. 
It is another thing to have the same level of threat but take a 
look at the potential target and say the police, the security 
professionals, the fire departments, the law enforcement 
community all around, State and local, have done additional 
things to enhance security.
    So again, it is a blunt instrument, Congressman, and I know 
that. I also know we are getting better and better at refining 
and pinpointing based on intelligence we receive now, 
additional security measures that will enable us in the future 
to be targeted and almost surgical in sharing that information, 
and we do not have to raise the national threat level.
    Mr. Shays. I know the time has run out, and thank you. My 
committee will be following up on what this committee has done 
in hearings. I would just ask your cooperation.
    Secretary Ridge. Sure.
    Mr. Shays. We would really like to sort it out and help 
you.
    Secretary Ridge. Thank you.
    Mr. Shays. Thank you.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Massachusetts, Mr. Frank.
    Mr. Frank. Mr. Secretary, you have two levels, two parts of 
your job, and I want to talk about another important part. 
Protecting against the threats is very important, and we did on 
September 11th encounter a real challenge to our law 
enforcement.
    We are a free society and the rule in a free society has 
been pretty much the bad guys get the first shot; that is, we 
do not have a system of restriction and prevention. We hope 
that deterrence would be the way to work.
    We have people killing themselves to kill other people and 
obviously that requires a change in which you do law 
enforcement. It means some restriction on freedom of movement, 
on privacy. Part of your job is to protect, but obviously 
another important part of the job, I know you fully well 
understand it, is to protect as much of the freedom that we 
cherish. So this is the balance that we have to draw.
    I believe that in fact since September 11 we have done 
better than some people expected; that is, if I look back, 
World War I, World War II and Korea and Vietnam, I think we 
have seen on the whole in the country less impingement on our 
freedom than we have seen in some previous eras. I am very 
pleased, for instance, that freedom of expression has on the 
whole not been jeopardized the way it has been in some of those 
early eras.
    What I want to talk about is a few examples of the other 
hard part of your job; namely, to help us protect the liberty 
that is so precious to us within the context of security, and 
it is particularly the case with immigration. I mean, I think--
and I was pleased my colleague Miss Sanchez asked you about the 
President's plan, because there was a recognition there that on 
the whole a great contribution has been made to the country and 
that we do not want to start to pull the plug.
    I want to talk about two examples of that. One, I have to 
tell you I am going to give you some copies of this. In 
December or November all my colleagues from Massachusetts and I 
received the kind of frankly annoying letter from your 
Congressional affairs office that I know used to make you as 
irritated as it made us back when you were getting them and we 
were serving together on the Banking Committee. We asked about 
Liberia. It has been a place where terrible things have 
happened. The world community very late responded, and there 
has been some improvement. We have temporary protected status 
for the Liberians. Your office did and your department did 
extend that until October of 2004, and we appreciate that, but 
we wrote because the cutoff date had been October of 2002, and, 
sadly, the international community did not get itself together 
in time and there were people who came to this country driven 
by the same terror that had driven earlier people, and we wrote 
and asked, all of us from Massachusetts, for an extension 
beyond October of 02 for the cutoff date.
    We got back a letter that said, oh, by the way, we have 
taken care of this. We have extended till October of 2004, but 
that was not the issue. That was to the people already covered, 
so we have this group of people who came after October 2002. It 
may well be that a cutoff date should be imposed, and things 
may have gotten better in Liberia, but we believe there are 
people who came here at a time when there was still terror. Our 
government acknowledged that and I will ask you to look at 
that.
    Secretary Ridge. I will.
    Mr. Frank. The other one is a question of students. One has 
to be very careful to preserve the flow of foreign students. 
Part of this is a cultural battle.
    I am proud of this country. I do not think there is 
anything we can do better to diminish irrational and unbalanced 
anti-Americanism than to bring people over here and let them 
see our flaws and our willingness to deal with our flaws and to 
improve them, and part of the problem is a tendency to say: Oh, 
these countries, we are particularly going to restrict from 
these countries where we have the worst problems and it gets 
particularly hard to bring in some of these people. They ought 
to be vetted. There ought to be security checks. We have the 
SEVIS program that you are familiar with, and the only reason 
frankly of bringing over foreign students is that it is one of 
the few ways we have of keeping down the costs for American 
students, because they bring money with them. On the whole they 
contribute more per capita at the universities they are 
studying at than the American students, and there is also a 
third reason: American students learn from them. No matter what 
university, including the one you and I attended, the students 
educate each other more than the faculty does, and that is a 
big part of it.
    So we have a couple of bureaucratic obstacles with the 
SEVIS program, and it deals in part with the fact that State 
and Immigration are together. One is just the way they pay. You 
have to, if you are applying under the SEVIS program, you have 
to pay either by a check drawn on a U.S. bank or on a credit 
card through the Internet. That is just bureaucratic and hard 
for some of these students who do not have access.
    What we would like, and maybe you can advocate to your boss 
and to your colleague, the Secretary of State, and see if he 
could get his people to do this, we do not see why when they 
apply for the visa they could not pay at the same time. Right 
now they have to make a payment in advance and then go apply 
for the visa. In some parts of the world they do not have 
access to American banks and the Internet, so making it easier 
for them to pay the fee would be very significant, and I am 
also going to leave you with that and I do not expect off the 
top answers, Chairman, so--.
    Secretary Ridge. Well, if I might, I will personally look 
into and get back to you with regard to the response concerning 
Liberia.
    Secondly, I will tell you that I think from the 
administration of the SEVIS program in 2002 to 2003, we made 
dramatic and steady improvements.
    Mr. Frank. Yes, you did. I appreciate it.
    Secretary Ridge. But we are not done yet and frankly the 
practical suggestions you made publicly make a lot of sense to 
me and I will work on it. I could not agree with you more the 
reasons that we ought to make it easier for those students to 
get into this country.
    You hit it. That is one of the best long-term antidotes to 
deal with the problem around which we have had to build a huge 
department, and the notion they come in and see us, what we do 
right, what we do wrong, and our ability to digest it, debate 
it or take corrective action is just precisely the kind of 
system they need to see and part of the long-term solution to 
the problems you and I are combating right now.
    Mr. Frank. Could I just take 10 seconds?
    I want to take credit for a bit of modesty.
    Chairman Cox. The gentleman wants to ask unanimous consent?
    Mr. Frank. When I said that students at university do a 
better job of educating each other than the faculty, I want you 
to know that when Mr. Ridge and I were at the same university 
part of the time I was a junior faculty member, he was a 
student. So that is a very self-denying comment that I made.
    Chairman Cox. The gentleman from Michigan, the chairman of 
the Subcommittee on Infrastructure and Border Security, Mr. 
Camp.
    Mr. Camp. Thank you, Mr. Chairman and Mr. Secretary, and 
thank you for your visit to Michigan and to Port Huron and the 
Blue Water Bridge. I thank you for that. I want to congratulate 
on the successful roll out of the first phase of the US-VISIT 
program at air and seaports, and clearly it is a major border 
management system. The current budget proposal requests a $12 
million increase for that program, and we are approaching this 
deadline for implementation by December1 at the 50 largest 
ports of entry, and I wonder if you could tell me how this 
program will continue to be implemented, how funding will be 
allocated, without disrupting the necessary travel associated 
with this.
    Secretary Ridge. Congressman, the literal interpretation; I 
mean, you can take a look at the enabling legislation and the 
directive given to the executive branch with regard to the 
entry-exit system, and I think we have all concluded by now 
that literally stopping every single pedestrian, clearing 
everybody out of every bus, emptying the back seats of the cars 
coming across Canada and Mexican borders is certainly 
inconsistent with our collective responsibility to enhance 
security but improve the flow of legitimate goods in commerce. 
So right now we are looking at a system that has many parts to 
it. We are going to prescreen pedestrians and commercial 
vehicles and passengers. That will take care of some of the 
flow. We are going to do some random checks. We are also going 
to try to employ some radio frequency technology to monitor 
people coming back and forth in vehicles across the border.
    There are still many of the details that need to be worked 
out, but I think in my discussions, private discussions with 
Members of Congress, they understand that a literal 
interpretation, that would have enormous personal and economic 
impact on communities and families. So we are going to provide 
the best balance we can between security and commerce, given 
the directive of the legislature.
    Mr. Camp. Well, thank you. There has been a great deal of 
discussion on this regional structure for custom and commerce 
potentially, and obviously the worry is that there will be 
different policies for different ports or points of entry, and 
I understand the Department is moving ahead with plans for 
regions.
    Does the budget reflect that as a priority and, if that is 
true, what protections do we have to ensure we will have 
uniformity in terms of policy around the country?
    Secretary Ridge. There should not be the regionalization of 
any policy, any regulation, any law, that is inconsistent with 
Congressional intent, that is inconsistent with how any 
executive branch should be operating.
    I know that people in the trade community several years ago 
legitimately had a complaint that Customs was interpreting some 
of the programs differently depending on the port of entry, and 
I assure you we will do everything we can to make sure it is 
standardized consistent across the board. Nothing else will be 
acceptable.
    Mr. Camp. And, lastly, we are all concerned about 
maximizing our resources, to get the most out of every tax 
dollar that is spent, and one proposal along the lines the 
Department had was the ``One Face at the Border'' program to 
cross-train both Customs and Border Protection, to streamline 
the whole port of entry process. I want to commend you and 
Commissioner Bonner for this program and the progress you have 
made, but I wonder if you could give me an update on this 
program and when we might see the new management and payroll 
system the Department is developing in this regard.
    Secretary Ridge. There are two pieces of that. Congress 
gave us--is giving us additional new dollars to build 
additional capacities, but there is a legitimate expectation of 
Congress, it begins through the President and Administration 
and Congress, to do a better job with the people and resources 
you already have, and one of the ways we needed to move and 
move quickly as of day one of the Department was understand we 
needed one face at the border, not two or three faces.
    Historically, if you came into this country, an airport, 
you would run into an immigration officer in one uniform and a 
customs officer in another uniform and conceivably another 
officer from the Department of Agriculture or elsewhere. We 
decided day one that you have three chains of command. You do 
not necessarily have the kind of collaborative relationship you 
might want; I mean, personally you might but institutionally 
you might not. So we decided from day one, from this day 
forward, there will be one face at the border.
    The customs and INS, there is no reason to believe somebody 
cannot do both, and so we have done basically the Customs and 
Border Patrol. The new classes, the recruits are trained to do 
all these tasks, and gives us a surge capacity at the airports. 
Many times you will see 10, 12, 15 aisles, and there is not too 
much traffic and you have a few inspectors, and now suddenly 
you have got several international flights arrive at the same 
time, we can open up more aisles and we can take care of more 
people.
    Frankly, I think it is better for morale. My view of most 
employees is they want to do a good job. I do not know there 
are too many people in America that are going to get up and go 
to work anywhere in America that are not going to try to do 
their best during the course of a day. I also think men and 
women if they were empowered with more knowledge or more 
technology to help them do their job better they will probably 
respond to that as well. So again if we give them more training 
and more technology, and we did this with US-VISIT, and these 
are folks that work with old INS and old Customs and for a long 
time they were waiting for more technology to help with the 
entry-exit system. Well, suddenly we have given them US-VISIT 
and consolidated in one unit and they are doing a phenomenal 
job. We have turned back a hundred people at the ports already 
and they feel good about their mission but they feel even 
better equipped to get it done.
    Mr. Camp. Thank you.
    Thank you Mr. Secretary. Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady from California, the ranking 
member on the Committee on Intelligence, Ms. Harman, is 
recognized for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary.
    Secretary Ridge. Good morning.
    Ms. Harman. As Mr. Shays has said, I consider myself one of 
the founding mothers of your department; in fact, I was in a 
small but hardy bipartisan band of brothers and sisters here 
who thought we needed a department soon after 9/11. I also 
remember saying when you were an assistant to the President 
that you needed a real job. Now, you have one.
    Secretary Ridge. Thank you for your personal advocacy on 
that.
    Ms. Harman. I thought you would say that.
    The goal of the new department, as you are well aware, is 
not just to rearrange the deck chairs. It was to create one 
deck, one national integrated homeland security policy, and 
that is why so many of us are so impatient to see the final 
threat and vulnerability assessment. It not only will drive 
money to where it needs to go, but it will drive strategy.
    Secretary Ridge. Right.
    Ms. Harman. Which was the whole point in the first place.
    I think you are making progress, I know it is hard. I think 
it is useful to have the States make their own suggestions to 
feed this national integrated strategy, but we have got to 
bring this project to a close as soon as possible. The 
Washington Post editorial is right in my opinion.
    I also want to thank you for your early visit to Los 
Angeles. I know you have made more than one. I was with you, 
maybe others were too, during your visit to LAX and the 
Terrorism Early Warning Group, which is an interagency 
facility, stood up in 1996, to our ports, et cetera.
    We have many high value targets in southern California, 
unfortunately, and our chairman, Miss Sanchez, and I and others 
are on this committee in part because we are very worried about 
protecting them against terrorist attack.
    I just want to ask you about two areas that I do not 
believe have been covered. I have been listening carefully. One 
is multiyear funding, grant funding for port security.
    Let me say that TSA has done quite well. There is still 
some bumps in the road, but you now have an Acting Director, 
David Stone, who was the Acting Director at LAX, who is 
terrific.
    You also have a Director at LAX, Anna Hinojosa, who I met 
with you, who just showed me the US-VISIT program, who is 
terrific.
    TSA can issue letters of intent on a multi-year basis for 
airport improvement projects, but it cannot do this for port 
improvement projects. We have all been discussing how dangerous 
ports are. The ports of L.A. and Long Beach move 40 percent of 
the container traffic in and out of the United States and they 
need to fund multi-year improvement projects.
    My question to you is do you support LOIs for port 
improvement and will you support legislation that has already 
been introduced, H.R. 3712, by Congresswoman Millender-
McDonald, to require that there be letters of intent for ports 
improvement projects?
    Secretary Ridge. Congresswoman, I first thank you for your 
strong support of the Department and the Secretary.
    There have been many issues we agreed upon, but I think we 
probably part company on this one. I think the taxpayers invest 
a great deal in ports and in port security. The Coast Guard's 
budget is up 9 percent. We have put Customs and Border Patrol 
people there and we have already expended about $550 million 
for port grants, but I will tell you, based on my experience as 
Governor, we had a couple ports in Pennsylvania. There is 
Federal money in those ports, State money in those ports, local 
money in the ports. There are publicly supported employees in 
the ports.
    I think we ought to have a public discussion and get away 
from the aviation model and to say this is an intermediate stop 
in a supply chain that supports the private sector, and I know 
the private sector contributes a little bit to the security at 
these ports, but I think there is a responsibility, at least a 
shared responsibility, for some of these companies who use 
State or local property, where there are Federal resources 
applied, where Federal resources are overseas helping to secure 
their shipments, securing the ports. I think we need to have a 
discussion as to whether or not there is a role for those 
companies who use these intermodal facilities.
    Ms. Harman. Mr. Secretary, I do not mean to cut you off, 
but my time is going to expire. I would love to have that 
conversation.
    Secretary Ridge. We need to have it publicly.
    Ms. Harman. The same is true about airports.
    I want to also ask you about interoperable communications, 
which is obviously critical to fix the problems we had on 9/11. 
My understanding is in your current budget you zero out funding 
for interoperability communications. You answered a question 
from Senator Lieberman the other day, saying that first 
responder agencies could use other grant categories for 
interoperable equipment purchases.
    I find this very disturbing, given the priority that this 
issue needs and just want to ask you
    Secretary Ridge. Sure.
    Ms. Harman. --in my last 5 seconds to respond to why this 
category was zeroed out in your current budget.
    Secretary Ridge. Well, first of all, there are some dollars 
that will continue. This is a multi --there are several 
departments, including Homeland Security, that are contributing 
to the interoperability study and taking a look at it vis-a-vis 
the government. Our department is in the near future beginning 
to set communication standards, interoperability standards. My 
sense is from an initial reading of this, some of these State 
reports, that their number one priority is communication and we 
want those to address that need, and there is in the pipeline 
now several billion dollars for the States and locals to drive 
down, to buy their communication equipment, and I think it is 
certainly an eligible cost, and I guess the decision is that 
you have $8 million appropriated since March 1st of last year. 
The Congress is going to give us another $3.5 or whatever sum. 
There will be several billion dollars more and the States and 
locals can draw down on that massive amount of money to improve 
their communications.
    Ms. Harman. Well, my time is up, Mr. Chairman.
    Thank you, Mr. Secretary. We need to solve this problem 
obviously, and dedicated spectrum is another part of the 
answer.
    Secretary Ridge. Right.
    Ms. Harman. And we are working on that as well.
    Thank you, Mr. Chairman.
    Chairman Cox. Gentlelady's time has expired.
    The gentleman from Florida, the chairman of the 
Subcommittee on Rules, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you for appearing before us today. I 
think it is appropriate to commend you for your leadership on 
the immigration issue. I recall even before the President made 
his bold and courageous immigration proposal that you spoke in 
a similar fashion as you did today in south Florida on that 
issue, and you deserve commendation for your courage and 
leadership.
    I would like to ask two questions, if I may, and then if I 
have time simply flag a third issue.
    On July! of last year, this select committee, Mr. 
Secretary, held a hearing on the Terrorist Threat Integration 
Center, TTIC. During that hearing I raised a question regarding 
the Cuban spy networks that have operated here in the United 
States, including Ana Belen Montes, a senior analyst for the 
Defense Intelligence Agency, who was arrested after she was 
caught spying for the Cuban regime.
    During the hearing I asked for an assessment and whether 
Ana Belen Montes was able to gather and pass on information 
even beyond those that are Cuban related. During the hearing, 
Larry Medford, then Assistant Director For Counterterrorism for 
the FBI, said that the information could not be addressed in an 
open format, that they would be happy to provide in a follow-up 
closed briefing.
    It has been 7 months and this committee has been denied a 
briefing from the FBI, DOJ or from anyone else. I know, Mr. 
Secretary, that you do not have oversight over the FBI, and I 
would doubt that this issue has been brought to your personal 
attention. Nonetheless, since your department plays an active 
role in the coordination of domestic and foreign intelligence, 
I would like to request that in the next 30 days DHS organize a 
briefing on this matter.
    Would you be willing, Mr. Secretary, to work with this 
committee to ensure a briefing on the potential risks to U.S. 
security in or emanating from Cuba within the next 30 years?
    That is question number one.
    Secretary Ridge. To the extent that our department plays a 
role, and you are right we have analysts in TTIC in 
coordination with the intelligence community, you made a formal 
request, but I cannot respond on behalf of the other 
departments. I will bring it up with them and formally 
communicate. I would like to think we could do it and I think 
that is the mindset that we ought to bring toward the task you 
have given us.
    Mr. Diaz-Balart. Thank you.
    Secretary Ridge. Put it that way.
    Mr. Diaz-Balart. Thank you. I appreciate your support on 
that.
    Secretary Ridge. You know Larry Medford is no longer with 
us.
    Mr. Diaz-Balart. I am aware of that and the services exist. 
Thank you for what you said with regard to your department and 
your department's support on this.
    Number two, I applaud your commitment to reduce the current 
immigration application backlog, both for citizenship and 
residency, and I think Mr. Aguirre is doing a wonderful job, 
and he deserves commendation.
    However, the CIS still faces a serious application backlog 
issue. Dealing with the immigration backlog in my district 
takes up the overwhelming majority of case workers.
    I would like to ask you: How will, to the best of your 
knowledge how will the money be spent to achieve this goal in 
6months, because there is a concern that the focus is on 
creating a system for applications received after 2006, rather 
than clearling the current backlog, so if you could address 
that.
    Secretary Ridge. Right.
    First of all, there are two approaches that we are taking 
simultaneously. One, Eduardo Aguirre has begun a process of 
creating online applications for people. We are 6 months behind 
in just about every form of application, but there are two 
forms. One I think deals with reemployment application and one 
other form are a substantial part of the backlog.
    We began to put these online, so hopefully people can apply 
for the extension or apply for the next document and get 
approval online rather than going to the office. That will 
relieve some of the workload.
    Secondly, Congress, when they created the Homeland Security 
Department, also created the Office of Ombudsman to oversee the 
immigration process and to help oversee the backlog, and the 
ombudsman has been working with Eduardo.
    We are close to agreeing on a couple of pilot programs that 
will facilitate the process. We think it significantly will 
reduce the time from application to either approval or 
rejection, so, one, we are going to move some technology in. We 
hope it will facilitate the process, but also we want to 
experiment this year in a couple of our larger communities with 
some process changes. It does not grab any headlines, but, you 
know, people have to go back many, many times in some of these 
applications to get a final decision. We want to compress the 
number of times they have to go to the office in order to get 
approval.
    So we will be--we are working and we will be announcing 
those pilot programs in the future.
    Mr. Diaz-Balart. Mr. Chairman, do I have 10 seconds to flag 
an issue?
    As part of this hearing and part of this record, I will be 
including a question for in-line explosive detection system 
machines at Miami International Airport. This is a very 
important issue for Miami International Airport and my 
constituents. I would ask you give that a high level of 
scrutiny.
    Secretary Ridge. All right.
    Mr. Diaz-Balart. Thank you.
    Chairman Cox. The gentleman from Massachusetts, Mr. Markey, 
is recognized for 5 minutes. Welcome back.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    The City of Everett in Massachusetts is home to the only 
urban site of a liquefied natural gas facility in the United 
States, and when it went to orange alert in December it was 
reimbursed; that is, the City of Everett, for additional police 
and fire protection which was required during that period of 
time.
    Mr. Markey. Now, we have approximately one shipment per 
week of LNG coming in from overseas into Everett, a city of 
40,000 people. And, de facto, it is on Orange Alert full time, 
but yet the city of Everett receives no reimbursement for their 
police and fire, which puts a tremendous strain on Everett as 
it does on other smaller communities that have de facto Orange 
Alert facilities in their community.
    Do you think it makes sense, Mr. Secretary, that these 
communities should be eligible for reimbursement, even when 
there is no national Orange Alert because of the incredible 
burden which is placed upon these smaller communities to 
protect against the targets that have been identified by your 
agency as being at the top of the terrorist target list?
    Secretary Ridge. Congressman, I think--I don't know if you 
were here when I had a previous discussion with one of your 
colleagues. This is precisely the kind of situation where you 
have a community adjacent to a metropolitan area that gets 
substantial dollars, that benefits because of the 
infrastructure right across the river, and yet the people 
responsible for protecting the infrastructure across the river 
that generates a lot of the energy to support the metropolitan 
area don't benefit from that Urban Area Security Initiative 
grant.
    So one of the reforms that we want to undertake this year 
is to broaden the application of the urban area initiative 
grants so that smaller counties and communities that basically 
the support the metropolitan area qualify for some of these 
dollars.
    Mr. Markey. So you are saying that a community like 
Everett--see, the problem is that when the ship pulls away it 
is in Everett now, not in Boston. And so in addition to what 
happens when it is being unloaded, you also have this daily 
pressure on Everett to deal with it that Boston doesn't have to 
shoulder because the facility is in that community. So you are 
saying that Everett itself would be able to qualify forSec. 
    Secretary Ridge. No, not in and of itself. Because it is a 
critical piece of infrastructure right across the river. I mean 
I have been there, I know what extraordinary measures not only 
the locals take, but the Coast Guard takes and other Federal 
agencies when the ship is in port and leaving port. But I do 
think that because it is a significant part of that regional 
infrastructure, that there ought to be some way that they 
qualify for some of those dollars from the urban area security 
initiative.
    Mr. Markey. So you are going to make that recommendation.
    Secretary Ridge. Yes, because we have run into a couple of 
situations, Congressman, around the country where the cities 
got the big dollars, and yet the support that the cities have 
and get from adjacent counties haven't benefited from any kind 
of distribution. And we would like to remedy that because the 
surrounding counties are very supportive of the major 
metropolitan areas. So we are going to look at changing the 
regs as it relates to that distribution.
    Mr. Markey. The city of Everett actually made a request to 
your Department, and the request--and the answer that came back 
to the city of Everett was, At this time we cannot make an 
exception to our list of critical infrastructure.
    Secretary Ridge. Congressman, would you be kind enough to 
get a little closer to the microphone?
    Mr. Markey. Yeah, sure. The city of Everett actually 
received an e-mail back from your Department that said to them, 
At this time we cannot make an exception to our list of 
critical infrastructure and these facilities would not be 
eligible for funding. You are saying that is going to change?
    Secretary Ridge. Well, because we just got the State plans, 
the 50 States and the territories have given us their security 
plans. We have asked them to help us identify from their 
perspective what are the critical pieces of infrastructure. I 
realize it is not a specific answer, but we are looking for a 
way to solve that problem because it is not just unique to 
Everett.
    Mr. Markey. All right. One quick question. Last May you 
told me, in response to my questions at this hearing, that the 
technology for screening cargo exists, but deciding to use it 
is a funding question. Do you continue to feel that way, that 
the technology is available to screen cargo, but that it is a 
funding question and the agency has decided not to screen all 
cargo that goes on to passenger planes?
    Secretary Ridge. I don't--if you said I said it Senator, it 
is a matter of--excuse me, Congressman--it is a matter of the 
record. I don't believe we are convinced within our S&T unit 
that we have the technology unique enough to help us deal with 
air cargo security, but we have invested--the Science and 
Technology unit has invested considerable dollars in looking 
for technology that could be applied to air cargo security. We 
have the known shipper program, as you know, but we need the 
technology to layer in the defense.
    Mr. Markey. The TSA has put out a request, an RFP to 
companies for commercial off-the-shelf technology to screen 
cargo. I mean, your Department has in place now a program to 
purchase this equipment. So my question is, Is it a funding 
question as a result, as to whether or not you are going to 
screen all cargo?
    Secretary Ridge. And the answer is, Congressman, as soon as 
the RFPs are responded to the TSA and the S&T laboratories can 
confirm that they will do the job that we want them to do, then 
we come back to answer the question with regard to funding and 
whether or not--.
    Mr. Markey. Would you then screen all cargo on commercial 
planes if the technology is available?
    Chairman Cox. The Secretary may answer the question. The 
gentleman's time has expired.
    Secretary Ridge. We are going to layer in defenses, and the 
known shipper is just part of it. OOG teams are part of that.
    Mr. Markey. I appreciate that. I am talking about 
screening.
    Secretary Ridge. And I think that there will be places and 
choke points where we get most of this cargo in. If we have 
that technology, we will want to deploy it. I don't know, I am 
not personally familiar with the technology. I don't know what 
the RFP said and when that report is due back to us. I do know 
that by April of this year, pursuant to the appropriations bill 
last year, we are supposed to come back to the Congress and 
give you a report as relates to air cargo security. And I 
presume that you want us to comment on the technology component 
as well. So we will be back and revisiting the issue with you. 
If it is required, we ought to deploy it.
    Chairman Cox. The gentleman's time has expired. The 
gentleman from Texas, the chairman of the Subcommittee on 
Cybersecurity, Science, and Research and Development, Mr. 
Thornberry, is recognized for 5 minutes.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, you know better than anyone that one of the 
primary reasons the Department was created was to take 22 
separate agencies and to integrate them into one seamless unit. 
Obviously, you cannot go in and flip a switch and make that 
happen overnight. But management consultants, folks in the 
private sector, who have done large-scale integrations like 
this all say that you need to bite the bullet and get it done 
quickly, because the longer agencies can keep on doing their 
own thing, the more calcification that happens. Culturally and 
every other way it becomes much more difficult. From folks in 
the field to the people on the commissions that recommended 
your agency be created, there is concern that maybe we haven't 
moved as fast as we should have in the first year to do that. 
And lots of examples, from procurement to IT to one personnel 
system to having CFOs in various organizations.
    I guess I would like to get a feel from you as to what 
degree of urgency you feel you need to bring in the second year 
of the Department to force this together into literally one 
seamless unit, not just make people work together, but to have 
one organization with everything from business operations, 
personnel systems, down the line.
    Secretary Ridge. Congressman, from the day the legislation 
was signed to create the Department to the day we were supposed 
to operate was about 90 days. And I daresay that we are 
dealing, under the umbrella of the Department, with a couple of 
start-ups, a few mergers, an acquisition, and a little 
divestiture. And I also say that if that is done in the private 
sector, you normally have a couple of years to get ready to do 
it. I mean when all these big companies have merged, they have 
literally had to go for--while they are going through antitrust 
review and everything else, they had a heck of a lot more time 
to prepare for the integration of the system. There is a sense 
of urgency to do that within our Department because the 
integration of these enabling management systems will save us 
money and make us far more efficient. And I want to assure you 
that in less than a year, we have reduced the number of 
financial management systems, payroll systems--and we started 
with 22 payroll systems. By the end of this year, we are going 
to have one. We know we have to have eight or nine different 
procurement regimens. We now have one regulation that goes 
throughout the Department. But we are going to merge all those 
procurement systems. We have--we are working our way toward one 
human resource system. Those regulations should be out in a 
couple of weeks and we will begin implementing them over the 
next couple of years.
    So I would assure you that we have the same sense of 
urgency that your friends in the private sector have discussed 
with you in their conversations. It will make us more agile, 
far more efficient, and much more effective in doing what you 
have tasked us to do, and that is secure the homeland. And I 
will be happy--when we get to that first-year review on March 
1st, we are going to lay that out for you to see, and I think 
you will be gratified by how much integration has gone on.
    There is still more to do. And again, part of it is--I 
didn't have my complete leadership team in place for the first 
4 or 5 months because there is a confirmation process. But the 
pace has accelerated, and we will keep the pressure on so we 
can reduce the systems to one Department-wide system as quickly 
as we can.
    Mr. Thornberry. Well, I appreciate that. Let me ask you 
about one other issue and that is how you measure and how we 
measure how we are making progress. The Chairman mentioned at 
the beginning that we are looking at a metrics bill. I know it 
is something that you are considering. I am a little concerned, 
when I hear some of the questions you have already been asked, 
that there is some suggestion that the Department or anybody is 
going to put together one magic piece of paper that is going to 
tell us all our vulnerabilities and threats, and if we just 
fund that all our problems go away. Obviously that is not the 
case. It is important to get a sense of what our 
vulnerabilities are. The threat is going to change all the 
time, particularly in reaction to the things we do.
    But do you have a sense of ways to measure how much and 
whether we are making progress? Because a lot of the problem 
with your Department is it is what doesn't happen that 
determines our success. And so that is part of the challenge, I 
think, on both sides of the table we face.
    Secretary Ridge. Well, Congressman, there are--we certainly 
have internal performance measures. I mean, our strategic 
outline for the consolidation of the departments has been 
reduced to a couple of hundred pages of fine print, and where 
there are dates and there are names next to each date and those 
people responsible for getting that piece of the integration 
done, and we monitor that very, very carefully.
    Externally, some of the work we do is visible. How quickly 
we get the grants out, that is measurable. Now that we have 
State strategies and we have an ability to work with the 
States, I think in a more confidential way, we will determine 
what the critical infrastructure pieces are and can quietly and 
privately share what measures have been done to secure those 
critical pieces of infrastructure.
    So, yes, I agree with the Chairman's and the committee's 
notion. We have--should have some kind of performance matrix. I 
think we just have to be careful in what areas it is a public 
performance matrix. Obviously there is accountability of this 
committee across the board, both public and private. We just in 
the years ahead have to work those out.
    Chairman Cox. The gentlelady from New York, Ms. Slaughter, 
is recognized for 5 minutes.
    Ms. Slaughter. Thank you, Mr. Chairman. And, Mr. Secretary, 
it is very nice to see you this morning, my neighbor from 
Pennsylvania, and we are glad to have you here. I don't think 
anything I have heard lately, though, makes my blood run colder 
than the fact that the 50 States are doing their own 
assessment. And I want to tell you, I bet you will find out 
that every State is going to be a hotbed of intrigue and 
terrorism and that you are going to have to spend a lot of 
money there. I have experience. After 9/11, the Congress voted 
$20 billion to help New York rebuild its infrastructure and try 
to get back on its feet. And then I am sure you know the story. 
Our Governor then asked for 54 billion more for many things, 
including a rail line from Albany to Schenectady, and there was 
such major embarrassment in the whole delegation that they 
finally withdrew that.
    I had no idea we were waiting to get that vulnerability 
assessment to wait for those 50 States and come up with that 
they need. I think you are probably going to--after you get it, 
you will have to go back to the drawing board an awful lot. I 
am concerned about it. But at the same time, that places in the 
middle of States that are--small populations and probably less 
threat are getting some money.
    I represent the Niagara Falls area which represents one of 
the largest power sources on the earth, a large leftover from 
the Manhattan Project, still a number of chemical plants. One 
of the most busy--probably the busiest border, other than 
Detroit, going across. And we can't get much money. Frankly, 
the money that has been given out has gone to grants pretty 
much to Albany. Albany gives some to New York City, most of it 
to New York City, some to Albany and a little bit to Buffalo. 
This has got to change. And I would like your assurance that we 
could get something more reasonable, that the people who really 
need the money are going to get it. But I really want you to 
take another thought on that business of having 50 States do 
it.
    Secretary Ridge. Congresswoman, I assure you that the 
identification by the States of critical infrastructure is not 
the final answer. We have already begun the process of taking a 
look at what States have put forth as critical pieces of 
infrastructure, and, in the instances with which I am familiar, 
they are inflated lists. I mean, it is more of a wish list 
rather than a need list.
    Ms. Slaughter. I would bet on it.
    Secretary Ridge. Congressman Shays mentioned that. And our 
job is to work with the States and in just about every instance 
with which I am familiar we have significantly reduced the 
list.
    Ms. Slaughter. But shouldn't we have been able within a 
month to know what is in the States, the 50 States that could 
have been vulnerable?
    Secretary Ridge. Oh, I would tell you that as a former 
Governor, my emergency management community had a pretty good 
idea of what the critical resources and sites were, power 
plants, transmission grids, nuclear facilities, chemical 
facilities. I mean, I think any Governor and any emergency 
management director in every State has a pretty good idea right 
now, even before 9/11. I think post-9/11, given the threat 
environment--these are lists that are easily accessible--I 
think it is a matter of really setting priorities within those 
lists, and that will be part of the responsibility of the 
Office of State and Local Government Coordination and 
Preparedness, because not all these sites have to be secured at 
the same level. We have to set priorities within them.
    Ms. Slaughter. Well now, talking about the Nexus program, 
too, which is terribly important, again, for those of us on the 
border States, you are not planning to institute that all over 
the country, are you? That would be an enormous expense.
    Secretary Ridge. Nexus?
    Ms. Slaughter. Yes, to allow people to come across borders, 
who come across every day, to have some identity to give them 
quick access.
    Secretary Ridge. Well, we have on several areas along the 
U.S.-Canadian border implemented the Nexus program and it is 
where people register, vetted on both sides, and it expedites 
traffic.
    Ms. Slaughter. It is going very slowly, however. Traffic 
tie-ups are still very difficult, sometimes 5 and 6 hours 
between U.S.-Canadian border.
    Secretary Ridge. Well, part of that, Congresswoman, is we 
work with particularly our friends at the Canadian border to 
take a look at whatever additional infrastructure needs we 
have, and down the road, both governments, national 
governments, are going to have to determine whether they want 
to build additional infrastructure there. Right now our 
priority is we take a look at the different ports of entry to 
see what alterations we can make within the existing highway 
system to reward people who sign up for the Nexus program with 
immediate entry into the United States or into Canada. We have 
several of those lanes now and there will be more in the 
future.
    Ms. Slaughter. But it is going slowly. But I know that the 
President has requested 340 million for the US VISIT program, 
and in May you are going to be awarding that as a prime 
contract; is that correct?
    Secretary Ridge. Well, the next phase, you are talking 
about 05, the next phase of the US VISIT program is at the land 
borders, and I frankly can't tell you when the--I believe the 
RFP might be out. I can't tell you when the contract will be 
awarded. I will get back to you on that.
    Ms. Slaughter. Well, is it true that when people come into 
the United States and have their fingerprints taken, that we 
have nothing to do--we have no way to check those fingerprints?
    Secretary Ridge. They are checked against a database. We 
have already kept out about 100 people.
    Ms. Slaughter. But we don't have the strict watch list do 
we, that we need? Aren't we behind on that?
    Secretary Ridge. Two different sources of information for 
us, Congresswoman. The integration of the watch list is 
happening as we speak. And we have in the Terrorist Screening 
Center, we have all those databases and people going over those 
lists. As a matter of fact, some of the first inquiries came 
from State and local police. So that is a name-based 
identification system. But the fingerprint scans give us, we 
think, almost a failproof means of matching identities with a 
huge, basically, a criminal database that we have accumulated 
literally over the years if not decades. And based on that, 
while we have viewed 1 million people coming across, we have 
kept--we have turned over 100 away, put them on the next flight 
and sent them back where they came from.
    Ms. Slaughter. When I gave you my list of things that I 
have to look out for in my district, I omitted the Lackawanna 
7. So we probably--I may have to give you a call, Mr. 
Secretary.
    Secretary Ridge. All right.
    Ms. Slaughter. See what we can do. In the meantime, the 
National Journal says this morning they are about to cut your 
budget to pay for the highway bill, so we will have to look out 
for that as well.
    Chairman Cox. The gentlelady's time has expired, although 
surely we can find funds in the highways bill to add more lanes 
to get some of that stuff moving at the border.
    The gentleman from California, the chairman of the 
Committee on Armed Services, Mr. Hunter, is recognized for 5 
minutes.
    Mr. Hunter. Thank you, Mr. Chairman, and thanks to 
Secretary Ridge. Thank you, Mr. Secretary Ridge, for being with 
us today and walking us through this budget. You know, you 
were--you were with us in San Diego on the border a couple of 
months ago and watched that enormous truck traffic coming 
across the border. And I recall that we have some 2,200 trucks 
a day coming across at Otay Mesa, and you were there on the 
bridge at one of the ports of entry there and asked the port 
director or one of the other administrators why all those 
trucks that were in line, basically waiting to get their 
paperwork approved, couldn't at the same time be x-rayed by a 
nonintrusive--one of these nonintrusive machines that, for 
practical purposes, gives you an internal picture of the 
container, just like the x-ray machines that do our carry-on 
luggage at the airport. And his reply to you was, well, they 
didn't have the $15,000 to pave the road, or something that you 
didn't feel was really a totally responsive answer.
    And that reminded me of this basic of balancing problem 
that you have in this prioritization problem. I think it is 
clear that our duty, our primary duty as a Federal Government 
in Homeland Security, is to know two things: what is coming 
into the country and who is coming into the country. And I 
looked at the billions of dollars that are going to be going 
out to States and local governments to so-called first 
responders in this budget, and it is my feeling that if in fact 
something comes through the land border or the sea border, 
maybe coming in on one of these trucks, a weapon of mass 
destruction or something else that causes a major terrorist 
event in a city or in a community in this country at some 
point, the very same city fathers who put together a laundry 
list of shiny new fire trucks that they wanted to have for 
their FIRE DEPARTMENT are going to blame you and the Department 
of Homeland Security for not doing what they feel is your 
primary duty, which is to make sure that we know what is coming 
into the country.
    And so my recommendation would be that we would take a new 
look and we rebalance this list and that we fulfill that 
obligation first. It looks to me like it is still going to be a 
long time before we get above 10 to 15 percent of the cargo 
containers that are coming into the country on a mass basis in 
a position where they can be scrutinized by this x-ray 
technology, which is developing fairly rapidly and is becoming 
less expensive. So I would hope that you would focus on that, 
and that we would see a shift in the funding profile in this 
budget in future years.
    The other issue that I think is an important one that you 
could be of great assistance on is this. We have built a border 
fence between what was the biggest smuggling corridor in the 
Nation, that is, the smugglers' corridor between San Diego, 
California and Tijuana, Mexico. And through that corridor in 
the past, most of the cocaine that came into the country, and 
most of the smuggling of illegal aliens that came into the 
country traveled. It is about a 14-mile corridor from the 
Pacific Ocean to the coastal hills. We embarked on a program of 
building a border fence, a triple fence along that border, and 
we funded it and we have been putting dollars in in fact from 
the--under the antidrug program from the defense committees for 
a number of years into that fence. By doing that, we eliminated 
the 300 drug trucks or so a month that were simply ramming 
across the border, because there was no obstacle bringing 
cocaine into our population. We also reduced the smuggling of 
illegal aliens from what was represented as 500,000 arrests per 
year in that San Diego corridor down to about 100,000. So we 
knocked it down by 80 percent because we had the fence. There 
is one piece of fence left that hasn't been built, and I 
haven't been able to get it done over the last couple of years, 
and I think not only to my frustration but that of the Border 
Patrol and people in the U.S. Navy who are worried about the 
security of our Navy base which is just north of that border. 
And that piece of fence is a couple of miles just before you 
get to the Pacific Ocean, and it abuts what is known as Border 
State Park. That area includes the smugglers' canyon. And the 
reason we haven't been able to do that is because the Coastal 
Commission doesn't feel it is aesthetically pleasing to have a 
fence there right on the border at the Pacific Ocean.
    I would hope that you would help us, because we are going 
to have a hearing by the Coastal Commission and a decision in 
the next several days as to whether or not they allow or 
recommend that the fence be permitted to be finished at that 
location.
    And I would just remind you also, as I just reminded the 
Secretary of the Navy, that we have one of the biggest NAVAL 
bases in the world, with some very sensitive aspects, just a 
few miles north of that opening to another country where we 
have no monitoring capability with respect to systems that 
could be brought into the country by vehicle and headed north, 
and could arrive in just a few minutes at our major naval bases 
just a few miles north of that particular area.
    Now, we put in, when we passed the legislation to build the 
fence, Republicans and Democrats put in something that was very 
unusual. We put in a waiver of the Endangered Species Act, 
because the Endangered Species Act had up to that point been a 
bar to building that fence. And we put in, and President 
Clinton signed the law waiving the Endangered Species Act, if 
the waiver was requested by the administration.
    And so if this administration requests a waiver, we can 
move ahead immediately with that last section of the fence and 
we can waive the Endangered Species Act requirements. Now, let 
me tell you, what is involved in the Endangered Species Act 
requirements are now a demand from the resources people that 
the border security--that the Border Patrol pay $12 million for 
mitigating lands before they build that fence. So that is going 
to suck 12 million bucks out of your budget if you don't invoke 
the waiver, along with obviously causing a major delay.
    I would hope that you could write a letter to the Coastal 
Commission and, on a basis of security, border security and 
homeland security, do two things: approve that--approve the 
fence; and secondly, I would hope that you as our leader in 
this area in administration would, in fact, request that waiver 
that President Clinton signed the legislation providing for. I 
think that is clearly the intent of Congress. It was passed by 
a fairly overwhelming vote in the House and Senate to allow for 
that waiver to be invoked. It is somewhat surprising that it 
hasn't been invoked. I think now is the time to do it.
    Chairman Cox. The gentleman's time has expired.
    Mr. Hunter. And thank you.
    Secretary Ridge. Congressman, I will personally look into 
the enabling language in the statute, talk to the Coastal 
Commission, and communicate back to you.
    Mr. Hunter. Thank you very much. Appreciate it.
    Secretary Ridge. You are welcome.
    Chairman Cox. The gentleman from Oregon, Mr. DeFazio, is 
recognized for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here today. You have got an iron 
constitution to sit there so long. I will try and pose quickly 
three questions or concerns.
    The first goes, like many members, I went out and met with 
my emergency personnel and first responders. The thing I heard 
from the State police, the county sheriffs, the local police, 
the fire and everybody, the number one concern was the lack of 
interoperable communications. I am very concerned to see that 
that has been in its sort of singular form zeroed out of the 
budget. An 85 million reduction, and apparently merged to be 
competitive in some other programs. And I would ask you to 
address that briefly.
    Secondly, there are other categories, the FIRE grants, the 
EMPG, all these were principally accessed from smaller cities 
and rural areas as their principal sorts of funding. I am 
concerned about this. I understand about setting priorities, 
but on the other hand these are pretty smart terrorists, and I 
am worried that we create essentially soft targets if we 
totally ignore--and I am afraid we are moving in that 
direction--the needs of the smaller cities and rural areas. I 
have football games in my district that gather 25,000 people 
together on a Saturday. That is a pretty attractive target. So 
there are smaller communities that provide for very high, high-
risk potential targets for some terrorist activities, and I 
would like to hear your perspective on that.
    And then the third one is something I asked you about last 
time, and again you may not know--I am also in an aviation 
hearing. I may more appropriately ask that down there. But I 
asked about your familiarity with and the problem that we 
weren't requiring the screening of all the vendors that flow in 
and out of the airport on a daily basis; tens of thousands 
across the country, while we were requiring the screening of 
pilots, flight attendants, frequent travelers and others. And 
apparently, I don't believe this problem has been 
comprehensively addressed. So if you could, Mr. Secretary, 
briefly address those concerns.
    Secretary Ridge. All right. I will see if I can.
    Mr. DeFazio. That is actually a question, not a speech.
    Secretary Ridge. It is very appropriate. I believe 
interoperable communications is everyone's highest priority.
    We are in the position of having the responsibility to set 
standards. We are not going to tell them what equipment to buy, 
but we need to set the standard so that it is interoperable. 
There is some short-term technology on the market today that I 
understand that can assist local communities, but we do need to 
take a look at a long-term solution. We will as part of our 
strategic plan for this year; that is a--one of the highest 
priorities, we have to get those standards out. We have done 
standards for radiological detection equipment. We have done 
standards for personal protection gear. We need and are working 
on standards for interoperability, and not only this year but 
in future years, I think we will continue to support the State 
and locals and make that as an eligible expenditure.
    I would say we are--and I am going to spend a little bit of 
time with some of my former colleagues, the Governors, when 
they come into town. A couple of concerns I have that they 
could help address because we need to be partners in this. One, 
we are going to set the standards, but the police and the fire 
in the future are going to continue to upgrade their own 
communications equipment. So it is not just--we won't have--not 
only access to Federal money but there is going to be State and 
local money to do it as well. So we are going to need their 
leadership to make sure that the State and local portion is 
expanded on a broader-based regional communication system. So 
we need them to do that.
    We also need them to help us design a distribution system 
so that some of that 20 percent that goes right to the states 
can be allocated from the State capitol to some of these 
smaller communities if it is the State's opinion that there is 
critical infrastructure or events that need to be protected.
    The fire grants give us an opportunity to spread about--we 
have asked for half a billion dollars. Last year the Congress 
appropriated three-quarters of a billion dollars with some of 
the monies out to the smaller communities that you are talking 
about. We have asked for the same amount. The President asked 
for the same amount this year as he asked the year before. I 
think I have in the back of my mind, Congress, Congress will 
probably add to that amount and shift some other priorities 
within our budget. We accept that. But we know that about 95 
percent of the fire grants that went out last year were really 
directed toward use to either combat that fire or terrorist 
attack. I mean, there is no--they have got a laundry list that 
they could choose from, but they have been fairly judicious 
about where they have been spending that money.
    And one of the good things about the fire grant program is 
that there is peer review. Firemen know what firemen need. They 
know their requirements and they respond accordingly so. But at 
least there is some comfort that this is how we are spreading a 
lot of money out around these smaller communities. And I don't 
believe we have--we are complete with the screening of 
everybody that has access to our airports and our aircraft. We 
have started with those who operate and fly. But, again, 
transportation worker identification cards, there are still 
additional screening and vetting responsibilities that TSA has, 
and we will administer the Federal security directives if we 
are not done doing that yet.
    Chairman Cox. The gentleman's time has expired.
    Mr. DeFazio. Just one brief point on Disaster Medical 
Assistance Teams. I am concerned that they seem to be getting 
less support from FEMA. They are really essential--Disaster 
Medical Assistance Teams. They are expressing concerns, since 
FEMA has been moved into Homeland Security, that they are not 
getting as much cooperation and coordination as they used to, 
and if some of your staff could perhaps get back to us.
    Secretary Ridge. Well, if you would be kind enough to put 
those concerns in writing, and I will try to specifically 
address them for you.
    Chairman Cox. The gentleman from New Jersey, Mr. Andrews. 
And before you begin, the chairman has been with us, pardon 
me--the Secretary has been with us all morning.
    Secretary Ridge. I try to keep my answers brief.
    Chairman Cox. He has told us that he needs to leave at 
12:15. I think with some cooperation, we can get all of our 
member questions in. But we do need to stick strictly to this 
time limit. The gentleman from New Jersey.
    Mr. Andrews. Thank you.
    Welcome, Mr. Secretary. It is always an honor to be in 
public service with you. I want to follow up on the questions 
about interoperability because it is the thing I hear most 
frequently about from law enforcement people. I agree with you; 
it would be a mistake to throw a lot of money at this problem 
before we have sorted out what the standards ought to be.
    And I also frankly believe that although homeland security 
is a piece of this problem, it is not the whole problem. And 
although it may not be politically correct to say this, I don't 
think Federal taxpayers should be paying to solve an 
interoperability problem that deals with local crime and local 
public safety. I think we should pay a share of it but not the 
whole thing.
    When do you think the standards that your Department is 
developing would be ready?
    Secretary Ridge. Well, based upon a preliminary read of 
some of the homeland security strategies that we received on 
January 1st, it seems to be the highest priority, one of the 
highest priorities for every State. It is our highest priority 
within S&T, and they have been working on them for quite some 
time. And instead of speculating as to when they will be done, 
I would rather give you a date certain, if you let me talk to 
the folks in our Science and Technology Directorate.
    Mr. Andrews. But you think it is eminent.
    Secretary Ridge. Yes. There is a lot of pressure on them to 
get it done, because that is the highest priority for the first 
responders.
    Mr. Andrews. I have a question about TTIC and the way it is 
working, and maybe I could ask questions through this 
hypothetical scenario. Let's assume this morning that TTIC 
picked up credible information that they felt that there was 
going to be an attack that would try to take over a nuclear 
power plant somewhere and convert that plant into a weapon of 
mass destruction by deliberately causing a meltdown of the 
core. And let's assume that that was the only level of 
specificity we had, that they were interested in nuclear power 
plants. We didn't know what part of the country, we didn't know 
when or under what circumstances.
    Would you have been notified, if you were Governor of 
Pennsylvania again, and given the fact that TMI sits in 
HarrisburgSec. 
    Secretary Ridge. We have several facilities.
    Mr. Andrews. Would the TTIC notify the Governor of 
Pennsylvania of that specific piece of information? Would the 
TTIC notify the head of the Pennsylvania State Police? How far 
down would that specific information go?
    Secretary Ridge. First of all, there would probably be 
multiple notifications if the threat is deemed that credible--
this is a hypothetical, and I don't normally like to answer 
hypotheticals. But if it is that credible that that is the 
target, is there a date certain?
    Mr. Andrews. Well, when I say that, I don't mean just TMI. 
I mean a nuclear power plant somewhere in America. That is all 
we know.
    Secretary Ridge. But that has been a fairly--I mean there 
have been concerns raised from time to time about potential 
attacks on nuclear power plants for the past couple of years. I 
think what you are saying is it's from a very, very credible 
source, we have no doubt that they have got the information, 
they just don't know when and how?
    Mr. Andrews. Where.
    Secretary Ridge. And where.
    Mr. Andrews. Right.
    Secretary Ridge. I think at that point in time, the 
homeland security advisers and the Nuclear Regulatory 
Commission so to the companies themselves, and that information 
would go out.
    Mr. Andrews. Would it go out to theSec. 
    Secretary Ridge. It would go out privately.
    Mr. Andrews. Would it go out to the local law enforcement 
people? Would the people in Dauphin County, which is where 
Harrisburg, as you know--would they receive this information?
    Secretary Ridge. We would probably rely on--again, we are 
very--it would have to be very, very credible for us to rely, 
to notify every small police department around every nuclear 
power facility. But if we deemed this that critical, that 
poignant, that eminent, yes. And we are--but it raises a very 
good question in how do we go about doing that. And we are 
developing not only a normal means of communication, pick up 
the phone and call; the Nuclear Regulatory Commission has their 
way of doing it. But we are also creating an Internet-based 
system that would be able to exchange information with local 
police departments.
    Mr. Andrews. It is a hard problem that I daresay needs to 
be fixed.
    The final point is more parochial. On August 7th of 2001, 
your predecessor at INS made a commitment to create a new 
service center in my area, and it hasn't happened yet. So I am 
very interested if I could talk to your staff about how we can 
expedite that for happening.
    Secretary Ridge. Okay. When was the commitment made, 
Congressman?
    Mr. Andrews. August 7th of 2001. A lot has happened since 
then, obviously. But I would like your office's attention on 
trying to solve that problem.
    Thank you very much, Mr. Chairman.
    Chairman Cox. The gentleman is to be commended for yielding 
his time--.
    Mr. Andrews. I have great sympathy for my colleague.
    Chairman Cox. With 10 seconds remaining. The gentlelady 
from the District of Columbia, Ms. Holmes Norton, is recognized 
for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for the way you are dealing with a thousand 
different priorities at one time.
    Let me ask you first a question that concerns this entire 
National Capital Region. You may be aware that, alone in the 
United States, general aviation has been closed in the capital 
of the United States, sending a very loud message that we don't 
know how to protect our own capital. We know how to--we, of 
course, have opened general aviation just a few days later in 
New York, at Dulles, at BWI.
    The chairman of the Transportation Committee and of the 
Aviation Committee, Subcommittee, on which I serve had pressed 
and pressed for a very long time. Finally, the FAA 
reauthorization bill made a plan mandatory. The President 
signed this bill in December, and it says the Secretary of 
Homeland Security shall develop, that is ``shall,'' and 
implement a security plan to permit general aviation aircraft 
to land and take off at Ronald Reagan Washington National 
Airport. The chairman of the Aviation Subcommittee, Mr. Mica, 
told me that he intends to hold a hearing at Ronald Reagan 
Airport in order to see how security at the airport and 
certainly general aviation security is proceeding.
    May I ask you what progress you have made in drawing a plan 
mandated by the FAA reauthorization?
    Secretary Ridge. Let me for one moment check. Since 
Congress directed--within TSA or within--.
    Ms. Norton. But that is the Secretary of Homeland Security.
    Secretary Ridge. Well of course, the Secretary, but 
hopefully he has not imputed constructive knowledge of 
everything that is going on within 180,000 employees. We try to 
stay on top of it, and I would just have to get back to you 
with a specific answer rather than a general one.
    Ms. Norton. Well I would very much ask you to do that Mr. 
Chairman. I am speaking not only for myself. The entire 
Aviation Subcommittee has pressed this very, very hard for 2-1/
2 years now.
    Secretary Ridge. And I am very familiar with the complaints 
and concerns registered not only by my--by Congressmen and -
women and Senators, but the general aviation community at 
large. And we have had many conversations with them and how 
those conversations both with Congress and the aviation 
community, and where it is on the drawing board I do not know 
and I will have to get back to you.
    Ms. Norton. I commend you that the industry has indicated 
that there is nothing it would not do that Homeland Security 
asked it to do, even though it would hurt its operations in 
order to get general aviation up again at Ronald Reagan 
National Airport.
    Let me ask you a question concerning a part of your 
testimony at PAGE 4 of 8. You say, the administration is moving 
forward in purchasing the most important countermeasures, and 
high on the list--this is under biodefense--and high on the 
list are next-generation vaccines for both smallpox and 
anthrax. You may be aware that localities, States, complain 
that they diverted funds from other urgent biodefense measures 
when the smallpox project was announced by the administration. 
Actually, the administration's theory is a very good one. That 
is, if you vaccinate first responders, you can avoid mass 
vaccination of smallpox of the entire population. It made a lot 
of sense. The reason for this, as you know, is that we are not 
sure what happened to the smallpox reserves of the Soviet Union 
when the Soviet Union collapsed. No one has been able to fully 
account for that, so we are forced now to act as though there 
could be a smallpox occurrence.
    This matter seems to be stalled at least since April. And 
the States proceeded, and looks like they stopped dead. But 
there seems to have been no particular leadership from the 
administration. I think the Ranking Member read some figures 
indicating the disparity between the number of people 
vaccinated. I am concerned because I represent the District of 
Columbia, and the District of Columbia has many more first 
responders that it thinks should be vaccinated. What is great 
about this is actually it is a small number relative to the 
population. Here the District of Columbia says 3,000 to 4,000, 
because we would have to contend not only with our own 600,000 
people, but with, of course, the entire--the 200,000 Federal 
workers, the entire Federal establishment. Of course, of the 
3,000 to 5,000 we should--we said we should vaccinate, we have 
vaccinated 105.
    I understand that the compensation program is no longer the 
problem. That was part of the reason volunteers did not come 
forward. There are some adverse consequences here.
    There is apparently no--with a 10 percent reduction in the 
funding available for HHS, no CDC funding. If CDC is to be 
involved, they are going to take that out of their own funding.
    I need to know where we are on the original smallpox 
initiative and whether you think there is funding or how we can 
get the States back up. We have got 39,000 out of what you now 
say is 50,000. The problem is that scattered. No one has said, 
but you must have X number in this county of first responders, 
X number in this city, so that you would be covered. So it 
looks like they have scattered all over the place and it looks 
as if we would not be protected in the event of a smallpox 
event in our country.
    Chairman Cox. The gentlelady's time has expired.
    Secretary Ridge. Clearly, given the potential catastrophe 
associated with a smallpox epidemic and hundreds of thousands 
if not millions of people dying because of it, we, one, take 
note that for the first time we have enough vaccine in the 
national--the Strategic National Stockpile.
    The next step is to convince--because we cannot mandate--
convince the public health community and those who would be 
responsible for vaccination that it is in the broader national 
public health interest to increase the number of men and women 
who subjected themselves to the vaccination, understanding, you 
are right, there are potential side effects, small in number, 
but potentially very devastating to the individual. You have 
the compensation program, hopefully, that will relieve not the 
fear or the concern, but some of the economic consequences if 
that occurs. And I know Secretary Thompson is committed to 
doing the very best he can to educate and promote and advocate 
that people in the public health community take it upon 
themselves to identify health professionals who would be 
willing to administer the vaccine.
    We are still as interested in increasing the numbers, but 
it has been fairly--I think it is great that we have got 40, 
000. It is not evenly distributed around the country, clearly, 
and I don't believe that Secretary Thompson has diminished his 
desire and his effort to convince the public health community 
they have to help us do more. We can't mandate people to get 
vaccinated, so we have to convince them of the need, and the 
public health community needs to get it done.
    Ms. Norton. We need to make sure that there is a push to 
continue to do this because, again, all reports are that once 
it got stalled it never got started up again. Anyway, thank you 
Mr. Secretary.
    Chairman Cox. The gentlelady from Texas, Ms. Jackson-Lee is 
recognized for 5 minutes.
    Ms. Jackson-Lee. I thank the distinguished Chairman and the 
Ranking Member.
    Let me thank the Secretary for his gracious gift, I guess, 
to this committee in his time. And I hope that you will allow 
my two colleagues that are following me to complete their 
questions as well. Let me associate myself--now there are three 
colleagues. Allow me to associate myself with Congressman 
Weldon's remarks regarding the importance of this committee and 
the fact that we should have a standing Homeland Security 
Committee, because our effort with you is collaborative. We are 
a team, and even though our oversight requires us sometime to 
be constructively critical, we are in fact a team.
    Let me acknowledge the fact that I have got a number of 
Houstonians here in the room, the President of the University 
of Houston, Dr. Gogue, is here with me, and board members with 
Chairman Smith, and obviously universities and communities are 
particularly concerned about how we can ensure the security of 
the hometown.
    And so I am going to pose a number of questions if I might, 
and can I also reinvite you back to Texas? I indicated that 
there are a number of sites that you had an opportunity to 
visit. We would like to show you what we have done. But we also 
want to show you, as a city that is enormously vulnerable, 
being No. 7 on the vulnerability list, what some of the needs 
are that may be reflective of this country.
    I want to cite for you some of the financial issues and 
problems that I think--and let me do that very quickly. There 
was an $800 million--the fiscal year budget request to the 
President requests grants for our State and local first 
responders and related homeland security efforts close to 800 
million, or an 18 percent decrease from the amounts 
appropriated by Congress for fiscal year 2004.
    We are giving the Coast Guard $541 million less than the 
1.1 billion that they have requested. And we are giving the 
Bureau of Citizenship and Immigration Services--236 million was 
appropriated in 2004, and it has been slashed by $140 million. 
Each of those are just to suggest to you that we are not going 
up, we are going down. And I believe that we have problems in 
that area.
    But let me focus on specifically the immigration areas and 
a number of questions along those lines. You yourself said--as 
was cited by my colleagues--just about a year ago, that it is 
important for us to find a pathway of citizenship or at least 
to document all of those who are here. You said there were 
about 8- to 14 million undocumented individuals and, of course, 
you acknowledge that some came in illegally.
    My question and concern with the President's plan is, I 
don't think it answers the question and the statement that you 
made in Miami a couple of months ago, because it is a flat-
earth plan. What it does is, yes, it provides documentation. 
But what it does after a 3-year period, it literally drops off 
the radar screen, because at that point they have to reassess 
whether they will go again, whether they will have a job or 
not.
    Wouldn't it be better, Mr. Secretary, if we could work 
collaboratively for a pathway to citizenship, getting in line, 
not necessarily in front of the others, documenting everybody, 
knowing that these individuals are not going to return to their 
homeland, know that they are contributing taxpaying 
individuals, of which you said yourself, and so that we 
shouldn't play these kind of false games of a 3-year program?
    Let me also acknowledge the US VISIT program which I deal 
with quite readily. I am on the Border Committee--
Subcommittee--here, and also the on Judiciary Committee. I 
would like to know what your estimate is of the cost of making 
that work. There is an extensive backlog on the border between 
Mexico and the United States, a large amount of complaints 
along those lines. I have seen the program work. But I have 
also seen it not work. And I think it is extremely important 
that we talk about how many staffing that we will need and the 
cost we will need to expedite that transition along those 
borders, but also to be secure.
    You know and I know that you have heard a lot of complaints 
from the airlines on the data collection of all travelers that 
are traveling in the United States. I am particularly concerned 
about domestic travelers and the sense of collecting data on a 
grandmother visiting her grandchildren. It is an invasion of 
privacy that I don't think makes Americans more safe. And we 
can do better than this. We can do better than clogging up our 
computer lines and databases with whether or not Mrs. Jones, 68 
years old, is traveling from Chicago, Illinois to Jackson, 
Mississippi and maybe to Houston, Texas.
    Might I just quickly say as you answer that, this problem 
of reimbursement to our local communities. I have said it over 
and over again. You are a Governor. I came out of city council. 
I can assure you I love State government, but the bureaucracy 
is enormous when our cities and localities are not being 
reimbursed as they should be or as quickly as they should be. 
My city alone is still waiting for reimbursement.
    Let me finish by saying if you come to Houston, I would 
like you to see our citizen corps, but know that citizen corps 
needs to be neighborhood based. I am continuing to press the 
agency for that. Not big congomlerate-based, county-based or 
city-based, but we need to have citizen corps that are directed 
through the neighborhoods.
    I hope you will look at that and I hope you will provide 
this in writing and give me your structure for MWBEs so that we 
can get more of our small businesses and minority businesses 
working locally, and our small--and our other university 
systems working locally with Homeland Security.
    But if you can just focus on the data and the US VISIT and 
the immigration question and reimbursement, I would appreciate 
it. Thank you for your time.
    Chairman Cox. The gentlelady's time has expired.
    Secretary Ridge. Well, let me see if I can cover it all for 
you, Congresswoman. First of all, you should know that we have 
designed some very--probably some of the most flexible rules 
for procurement for small businesses. And we have been working 
with the minority business community to do that. And I would be 
happy to share that with you because, again, as we create a 
model agency, we take a look at how things have been done in 
the past. And we decided that we needed more flexibility and 
greater outreach to the minority business community, and I 
would be happy to share that work with you.
    You talked a little bit about the reimbursement dilemma 
that the locals have. This Department, hopefully with the 
support of Governors nationwide, and mayors, will try to work. 
It is an intraState problem. We are ready to cut the checks, 
but I think we need to be the catalyst to get the Governors to 
sit down with the mayors and come up with a satisfactory plan.
    I would tell you some States already have one. I happened 
to visit Massachusetts and was familiar with their plan. They 
have divided their State into regions. They only honored 
regional requests for equipment and training exercises. They 
came out with a very specific distribution program, and so 
there, through their homeland security adviser, with the great 
support of the Governor, they have come out with a plan to 
strategize and to take all those dollars and distribute them in 
the most effective way for those citizens.
    I think we have to take a look at a couple of best 
practices and convince our colleagues to adopt one of them.
    The data collection at the airports, we are hopeful that we 
can convince the Congress and the aviation public that the 
CAPPS II program, the Computer Assisted Passenger Pre-Screening 
program, is something that will add not only additional 
security but certainly improve the convenience at the airports. 
I, too, have witnessed some people being pulled aside for more 
intense examination and review and have questioned myself--
certainly as I looked at them, I couldn't see any reason why 
they would have been pulled aside, particularly elderly people. 
But I do know that we have a job to make sure that we ensure 
the rights of personal privacy are protected. As we scan the 
database to make some decisions to let people go through, I 
think it will cut down substantially on secondary screening, 
but we have to make the case before Congress and the American 
public and I think we are prepared to do that.
    You talk about the borders. I think one of the big 
challenges we have at the border, something the country is 
going to have to wrestle with, is that we have existing 
infrastructure, but it was not--most of it was built pre-NAFTA 
not post-NAFTA. And at the highest level, I think the countries 
of Canada and Mexico and the United States are going to have to 
take a look at that and plan for additional infrastructure. 
Right now our task as a country is to--in working with our 
colleagues with our border agreements--is to adjust some of the 
entry lanes or reassign some of the existing highways so we can 
move people and products across quicker. The whole immigration 
debate is one that you can all imagine is going to be very, 
very visible it is going to be very controversial. I think the 
President was basically saying--what I do not understand I 
guess, is the controversy about the notion, is we have 8, 10, 
12 million. Let us accept the reality. Let us accept as a 
country that we are unlikely going to deport everybody, even 
though we know they have broken the law. Let us accept the 
reality that most of them have come across, because this is 
America and are thinking about the opportunities they have, not 
only for themselves, but particularly across the southern 
border. They sent fifteen to twenty billion dollars back. We 
certainly do need to validate their presence here. So the 
President lays out a group of principles, and it will be our 
department working with Congress to take these principles and 
at least match a willing worker with a willing employee, but 
that is going to take quite a bit of time, between our 
department, this committee and several other committees.
    You should know that the Coast Guard got a 9 percent 
increase. The Immigration and Naturalization Act gave us the 
authority, for basically a fee based system, and we are going 
to move to that in the future.
    I hope I covered it all.
    Ms. Jackson-Lee. Thank you very much. You did.
    Thank you.
    Chairman Cox. The gentleman from North Carolina is 
recognized for 5 minutes, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Secretary, I do not know that anyone has a more 
difficult, complicated job than you do in the Federal 
Government and it is an important one.
    Let me see if I can ask questions that have not already 
been asked. We go to the area of first responders. I remember 
my first responders always remind me, when they dial 911, they 
ask us to help coordinate and do other things.
    As you know, agriculture is about a $1 trillion industry in 
this country, and it is one-sixth of the American Gross 
National Product, and it provides employment for one in eight 
Americans. The administration in 2003 recognizes a significant 
element of this critical infrastructure in America and 
contributes greatly to our balance of payments, as you well 
know, and a lot of the attention in dollars have been now 
shifted in this budget to urban areas from rural areas and 
ultimately from rural States.
    Even if they have significant agricultural operations, that 
leads to my question, because a recent RAND study estimated 
that foot and mouth disease would cost our economy over $30 
billion, it would cripple the country's transportation and 
agricultural sector. Even though a lot of that is privately 
required, it still requires us in the Federal sector to protect 
it, and you have requested complete discretion over these State 
and urban threats. So my question is, number one, do you plan 
to include consideration of these agriculture operations when 
determining the threat levels and, second, if you do not, why 
not?
    I trust you will.
    Let me move to my second question and get you to answer in 
the time allotted. You have stated in the question and we 
covered it in several others already, as relates to Federal 
funds, getting in the hands of first responders.
    In many of our States, North Carolina being mine, is not 
immune to it, have really been devastated by the economic 
situations in our State more than others because of tremendous 
job loss. My understanding is to get the reimbursement, even 
though they have submitted the plan--and incidentally North 
Carolina has committed about 91 percent of the funds, but to 
get the funds back is really on a committed basis and they have 
to--it is a reimbursement model, as you well know.
    In some cases they do not have the money to spend, even 
though they make the commitment, and my suggestion would be I 
hope you will consider that. It would be a way to clean up this 
pipeline, because if you are going to make them spend the funds 
it makes sense if you have funds at the local level, but for 
some large expenditures they absolutely do not have the 
resources to get it done in some cases, and that is why we got 
this tremendous backlog. I hope you will look at that.
    And, finally, as relates to a question that was raised 
earlier today, and I hope you will elaborate on it a little 
more, the National Emergency Managers Association. The 
President of the association happens to live in my 
Congressional district, Dwayne West, who is an outstanding 
person, does a tremendous job across this country. He has 
contacted our office and indicated that currently if only 25 
percent of the EM, emergency management, performance grant 
funds are allowed to be used, we will finally cross this 
country. Currently they are able, as you well know, to use 100 
percent. We can find that a lot of folks in a lot of these 
rural areas that have high vulnerability threats will do a 
competent job. I hope you will look into that, and I would 
certainly appreciate it.
    Secretary Ridge. Congressman, very good. As you know, one 
of the responsibilities of the Department of Homeland Security 
was to work in collaboration with other Cabinet members to deal 
with their particular niche as relates to potential terrorist 
attack. We work in coordination with Secretary Thompson because 
HHS is the primary lead on bioterrorism. There are many things 
we do together. The same situation applies with regard to 
agriterrorism.
    Now, from our perspective within the Department there are a 
couple primary missions. As you know, we inherited as part of 
the enabling legislation the Plum Island facility. It was in 
need of substantial repair and we are in the process of doing 
it now, and we have asked for additional money because that is 
critical to the agriculture industry in the country.
    Secondly, you should know that we are going out, this year, 
and create a couple of additional academic centers of 
excellence, and, if my recollection is correct, two of the new 
ones are going to be related to agroterrorism. So that will be 
the part we will be playing and hopefully again we will find 
multiple universities making applications so we can bring 
capacities around the country to deal with the potential 
agroterror to benefit the entire Nation.
    Thirdly, you should know that I believe the President has 
asked for several hundreds of million dollars in the Department 
of Agriculture's budget for an initiative to support the 
agricultural community. So we have a role, sometimes it is 
primary, with regard to Plum Island, creating the academic 
centers of excellence that will support USDA and us, and 
certainly where we interface with that initiative in the 
Department of Agriculture, we are anxious to work with them.
    The question of reimbursement is, I think, frankly an 
interesting one because I have heard that complaint before. One 
of the challenges, and we really have to be mindful of this, if 
we are going to invest these dollars we want to get a security 
return for the investment, and I am not going to suggest that 
if we sent the check out that it would not go for anything 
other than security matters. We certainly would feel much more 
comfortable if we knew it was going to needs that were 
identified in the State plan. The plans were to be built from 
the bottom up, but I am not saying under certain circumstances 
or for certain kinds of acquisitions we should not look at a--
we should abandon the reimbursement model and look for the 
State to send the check down. I am open to anything that 
improves the process, facilitates the process and builds more 
security.
    If we could be assured of those three things, we ought to 
do it, and finally, I think the budget reflects a higher number 
for the emergency management professionals, less of it to go to 
personnel costs, more of it to go to training and exercises. I 
believe that it is a shared responsibility to hire and maintain 
those individuals; that is, our share and the State and local 
to reimburse in part, reimburse up to 25 percent and the rest 
to go for training and planning exercises.
    Mr. Etheridge. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Rhode Island is recognized for 5 
minutes, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I certainly admire your endurance and perseverance for 
appearing here this morning and every time you come here, 
although we come from different perspectives, we certainly 
share the same goal, to protect the Nation to the greatest 
degree possible.
    Chairman Cox. Would the gentleman yield for just a moment?
    I have just been alerted that we may need to change our 
procedure slightly. To make sure that both you and Mr. Meek get 
your questions asked, which I think is even more important that 
they get answered in realtime, if you would not mind sharing 
your time and put the questions both to the Secretary. Then, 
Mr. Secretary, if you have to take them in writing, we are 
going to leave the record open for 30 years for written 
responses, but I want to make sure that since you have both 
been here that you get your questions asked, and I do not want 
to use up any more of your time with an explanation. So please 
proceed.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to follow up on the allocation 
of funding to high threat urban areas under the Urban Areas 
Security Initiative. While I am certainly pleased the 
Department is making efforts to direct funds to those cities 
and regions that most need it, I share concern with many of my 
colleagues that it remains unclear exactly what assessment 
these UASI designations are based on.
    I am concerned with my State of Rhode Island being denied 
funding and ensuring that an adequate minimal level of funding 
is preserved for all States. In addition, I am concerned about 
a category of communities that is being left out of the UASI 
program and that has specific needs that aren't necessarily 
being taken into account by the State homeland security funding 
formula.
    As an example, Providence, Rhode Island is a major city, a 
State capital, contains a port, bridges, an interstate highway, 
sports arena, convention center, as well as an LNG facility at 
its port, and its homeland security apparatus is critical not 
only to the city but to the entire State.
    Providence has not previously been recognized under the 
UASI program, and there is no indication that this will change. 
I am sure that there are many cities across the country in a 
similar situation, particularly State capitals, that have 
serious vulnerabilities and could be attractive terrorist 
targets. They must therefore find ways to meet the high costs 
associated with these targets and their citizens.
    However, they are not considered high threat areas by DHS 
and, with the drastic cuts in funding going to non-UASI 
localities, they could find it impossible to achieve an 
adequate level of protection preparedness.
    So, Mr. Secretary, could you speak to the special needs of 
these communities and are there any plans to create some sort 
of subcategory of higher risk areas in order to recognize these 
cities and these circumstances or is there any intent to expand 
eligibility for UASI funds to incorporate cities like 
Providence?
    Second, the administration has defended the funding shift 
toward the Urban Area Security Initiative and away from the 
State Homeland Security Grant Program by arguing that the 
distribution of Federal funds should be based more closely on 
threat and risk.
    Now, while I believe that a certain minimum level of 
funding must flow to every State, even in small States like my 
own, I do agree that threat and risk assessments are critical 
to making the best use of the resources.
    However, I would appreciate if you could help me understand 
exactly what these funding decisions are based upon. I know you 
spoke earlier, several times actually, about a comprehensive 
nationwide threat and vulnerability analysis that is under way 
but it is far from complete and yet the budget proposes a major 
shift in funds, based apparently on the results of such 
analysis.
    Secretary Ridge. Sure.
    Mr. Langevin. So can you discuss that and can you update me 
on your department's threat and vulnerability assessment. I 
believe that IAIP is the directorate with primary 
responsibility for this analysis, so does IAIP have the 
resources and staff levels required to carry out this task 
expeditiously and are your analysts receiving the complete and 
timely information they need from TTIC and the rest of the 
Intelligence Community. And finally, you have--I have noticed 
in your statement that you are asking for $45 million for 
infrastructure improvements at the DHS facility where you are 
now located and also would be used to help relocate the Navy. I 
really would like to know what assessment was made to determine 
whether that was the best location for the DHS headquarters.
    I want to be on record, Mr. Secretary, in saying that I 
believe it is a mistake to locate DHS headquarters within 
Washington, D.C. We all know that Washington, like New York, is 
a prime terrorist target. We have the capital here, the White 
House, the Pentagon is very close by. If there were an attack 
on Washington which took out the city--and let's face it, it is 
a very real possibility at some point in the future as 
technology becomes more sophisticated and easier to acquire--it 
is a mistake to have DHS located here. I think we would be much 
smarter to spend the funds locating the facility at a more 
remote site, perhaps somewhere in Virginia or Maryland, but not 
so close to Washington, D.C.
    So if you could take those.
    Chairman Cox. Pursuant to the previous order of the Chair, 
the gentleman from Florida is recognized for his questions.
    Mr. Secretary, we are very, very concerned about your 
schedule. We know you are trying to be as gracious as possible, 
but we have had several notices from your staff that you are 
long since supposed to be gone.
    Secretary Ridge. Thank you.
    Mr. Meek. Mr. Secretary, I am going to forego some of the 
questions that I had, but on budget questions I will give it to 
you in writing. Hopefully, we will get a response.
    I want to thank you on a recent project we worked on as 
relates to children and immigrations, but I want a case in 
point. As you know, I am from south Florida. We have talked 
about south Florida being very unique to protecting the 
homeland and I think it is very, very important that you pay 
very close attention to what is happening right now as we speak 
in Haiti and as we may well have in the coming days if the 
violence continues.
     I have had a meeting with members of the Department of 
State, and I think it is important that the Department of 
Homeland Security is very much aware of the resources that are 
going to have to be given if we play a defensive strategy of 
waiting for things to get worse and the kind of exodus we are 
going to see out of Haiti that I think will jeopardize 
protection of the homeland.
    As you know, many of the 9/11 terrorists came from south 
Florida. I do not believe that they are a number or a great--
any evidence to show that they are Haitian terrorists, but the 
resources of the Coast Guard and others and the Navy that it 
will take to stop an exodus will give light to other countries 
that have a higher question of Al-Qa`eda presence there, to be 
able to allow someone to be able to slip through and hurt our 
homeland, and at the same time we have had discussions with 
south Florida. We do not have the infrastructure to be able to 
house a high concentration of refugees.
    I would ask you if you would please work with Miss 
Condoleezza Rice and also with Secretary Powell in making sure 
that we work with CARICOM, the Caribbean countries, in putting 
a civilian police force with the Canadians and the French there 
on the ground to bring about some sort of peace, to save lives 
of Haitians, but also to make sure we maintain the protection 
of our homeland and also as relates to stopping the courier of 
drugs into the U.S., not being able to send those resources 
from Guantanamo.
    There are other questions, but today I want to make sure 
that I share that information with you because I believe with 
all those resources on an issue that we can play offense on 
will take away from other countries that are in the Caribbean 
that has a very high question of Al-Qa`eda presence and could 
very well slip through what we have now, that the Coast Guard 
is preventing those individuals from getting into the country.
    Secretary Ridge. I want to assure you we have been aware 
and monitoring that situation for quite some time and working 
in collaboration with State. We are aware. We are watching it 
very carefully and understand the concerns that you addressed.
    Mr. Meek. Thank you, Mr. Secretary Ridge.
    Secretary Ridge. And I appreciate the courtesy both that 
the Congressmen have extended to me and I look forward to 
responding to their letters first.
    [The information follows:]

             Questions from the Honorable Kendrick B. Meek

    1. Secretary Ridge, I would like to discuss with you Project 
SeaHawk, a highly successful program being coordinated at the Port of 
Charleston, S.C., by a Joint Agency Task Force consisting of DHS, the 
Coast Guard, the FBI and Justice Department law enforcement personnel. 
Project SeaHawk includes a critical threat assessment system that 
conducts a risk profile of all vessels that enter a port.
    I strongly believe that since Florida is particularly vulnerable to 
threats, the Port of Miami and other Florida ports could benefit from 
this program. As you know, the Port of Miami is the largest passenger 
port and one of the busiest cargo ports in the world. I, along with 
other Members of the Florida delegation, sent your Department a letter 
requesting that you consider implementing a vessel profiling system 
that would improve maritime safety, as well as protect the large volume 
of cargo and the millions of passengers that move through our ports.

    Knowing that DHS is centralizing intelligence at the highest level 
to ensure security, is the Department planning to expand this program 
to the Port of Miami or to other Florida ports? In order to continue 
the process of planning to protect our homeland, I highly recommend and 
encourage that the Department does expand this program into Florida.
    Answer: The Coast Guard, and its partners-federal, Federal, State, 
and local agencies, foreign governments, international organizations, 
and other stakeholders-have a fundamental need for comprehensive 
information, intelligence, and knowledge about all entities and their 
respective activities within the U.S. Maritime Domain. This 
comprehensive information, intelligence, and knowledge base is Maritime 
Domain Awareness (MDA). The CG is well qualified to help lead the 
effort to integrate and coordinate a national MDA capability. This 
capability collects and analyzes all available sources of maritime and 
related information and intelligence, and leverages them into a common 
operational picture to enable the Coast Guard, DHS, IAIP and other 
members of the law enforcement and defense communities to see, 
understand, and act first in safeguarding our Nation.
    The Charleston Harbor Operations Center (CHOC) was an initiative 
funded through the Department of Justice and coordinated via very 
strong interagency partnerships. At its core, the goal was to improve 
the sharing and coordination of information; i.e. enhance MDA. The 
Coast Guard is expanding on lessons learned from CHOC and has already 
deployed similar capability in Miami, San Diego, Boston, New York, and 
Hampton Roads. While the levels of capability vary among each port at 
this time, the Coast Guard is continuing to work to deploy a Common 
Operating Picture (COP) among all our coastal command and control 
centers in a way that the information is comprehensive, can be shared 
across agencies, and most importantly is actionable by field 
commanders.
    In Miami in particular, the Coast Guard has partnered with DHS 
Science and Technology Directorate (S&T) to build a prototype 
integrated maritime surveillance system (Project Hawkeye) covering Port 
Everglades, Miami, and Key West, Florida and develop the Department's 
enterprise Maritime Domain Awareness (MDA) architecture. Thanks to 
funding made available through S&T, the Coast Guard has been able to 
deploy this initial capability in Miami and lay the groundwork for 
future expansions. Project Hawkeye is an ongoing program that will 
enhance Integrated Maritime Command Centers by combining existing 
facilities, upgrading equipment to detect, track, and identify vessel 
traffic around ports, harbors, approaches, and costal zones, and 
providing robust MDA through integration of information in a Common 
Operational Picture.

    2. Given the serious nature of the current engine reliability and 
power problems on the HH-65, what is the status of the HH-65 Reengining 
Program? Can reengining the HH-65 in a timely manner impact the HITRON 
Mission aircraft?
    I ask these questions because wouldn't reengined HH-65s be able to 
provide significant support for the security of the Port of Miami?
    Answer: To address urgent HH-65 safety and reliability issues, the 
Commandant made the decision on January 14, 2004 to re-engine the HH-
65. This includes both the engine and engine control systems. The Coast 
Guard issued letter delivery task order (DTO) to Integrated Deepwater 
Systems (ICGS) on January 15, 2004 directing them to take immediate 
action to re-engine the HH-65 to ensure unrestricted safe and reliable 
operations. This DTO includes sufficient funding to carry out 
development and initiate the production phase of the product. Since 
that time, the CG and ICGS have negotiated a project cost. The 
manufacture and delivery of critical parts has driven the schedule. The 
CG, ICGS and its subcontractors continue to negotiate with its 
subcontractors to accelerate the delivery of engines and parts.
    The First HH-65 has been re-engined, and has completed initial test 
flights. It is scheduled to return to service in mid-September 2004. 
The second HH-65 is undergoing re-engining at this time.
    The goal of the re-engining effort is to expeditiously address 
safety and reliability issues. The Coast Guard's long-term desire is 
that all Coast Guard helicopters be capable of use of force projection.

    Chairman Cox. Mr. Secretary, we appreciate your valued and 
informative testimony. We appreciate your willingness to 
respond to these additional questions in writing. We look 
forward to working with you this year.
    The committee stands adjourned.
    [Whereupon, at 12:46 p.m., the committee was adjourned.]


                            A P P E N D I X

                               __________

                   Questions Submitted for the Record

Responses by Honorable Tom Ridge to Questions for the Record Submitted 
                     by The Honorable Jim Langevin

    1. Mr. Secretary, I would like to follow up on the allocation of 
funding to high threat urban areas under the Urban Areas Security 
Initiative. While I am certainly pleased the Department is making 
efforts to direct funds to those cities and regions that most need it, 
I share concern with many of my colleagues that it remains unclear 
exactly what assessment these UASI designations are based on. I am 
concerned with my State of Rhode Island being denied funding and 
ensuring that an adequate minimal level of funding is preserved for all 
States. In addition, I am concerned about a category of communities 
that is being left out of the UASI program and that has specific needs 
that aren't necessarily being taken into account by the State homeland 
security funding formula. As an example, Providence, Rhode Island is a 
major city, a State capital, contains a port, bridges, an interstate 
highway, sports arena, convention center, as well as an LNG facility at 
its port, since homeland security apparatus is critical not only to the 
city but to the entire State. Providence has not previously been 
recognized under the UASI program, and there is no indication that this 
will change. I am sure that there are many cities across the country in 
a similar situation, particularly State capitals, that have serious 
vulnerabilities and could be attractive terrorist targets. It must 
therefore find ways to meet the high costs associated with these 
targets and their citizens. However, they are not considered high 
threat areas by DHS and, with the drastic cuts in funding going to USAI 
localities, they could find it impossible to achieve an adequate level 
of protection preparedness. So, Mr. Secretary, could you speak to the 
special needs of these communities and are there any plans to create 
some sort of subcategory of higher risk areas in order to recognize 
these cities and these circumstances or is there any intent to expand 
eligibility for USAI funds to incorporate cities like Providence?

    Answer: ODP is the Federal government's lead agency responsible for 
preparing the National against terrorism by assisting States, local and 
tribal jurisdictions, and regional authorities to reduce 
vulnerabilities against, prevent, respond to, and recover from 
terrorist acts. ODP's funding goes well beyond focusing on high-
density, high threat urban areas. ODP provides funds to every State and 
territory through the State Homeland Security Grant Program (SHSGP) 
using a State and territory minimum formula. In fiscal year 2003, ODP 
provided more than $2 billion to states and territories under this 
program. In fiscal year 2004, ODP will distribute more than $2.2 
billion under this program. Under this program, the States are required 
to obligate or pass-through at least 80 percent of their allocated 
amount to units of local government. These funds also can be used by 
the States and territories to support a wide range of activities to 
enhance and augment their security measures, including the purchase of 
specialized equipment, training and exercise support, and preparedness 
planning. States base their funding distribution decisions on homeland 
security strategies that are a requirement of receiving ODP funds.
    I strongly recommend that your constituents work directly with 
Rhode Island's State Administering Agency (SAA) to determine what 
resources, if any, are available to them to enhance security across the 
state. The SAA for Rhode Island is Rhode Island Emergency Management 
Agency and the point-of-contact is John E. Aucott who can be reached by 
telephone at (401) 462-7127 or by email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="02686d6a6c2c6377616d767642706b2c6c65602c63706f7b2c6f6b6e2c">[email&#160;protected]</a>

    2. Second, the administration has defended the funding shift toward 
the Urban Area Security Initiative and away from the State Homeland 
Security Grant Program by arguing that the distribution of Federal 
funds should be based more closely on threat and risk. Now, while I 
believe that a certain minimum level of funding must flow to 
everybody's State, even in small States like my own, I do agree that 
threat and risk assessments are critical to making the best use of the 
resources. However, I would appreciate if you could help me understand 
exactly what these funding decisions are based upon. I know you spoke 
earlier, several times actually, about a comprehensive nationwide 
threat building analysis that is under way but it is far from complete 
and yet the budget proposes a major shift on funds, based apparently on 
the results of such analysis.

    Answer: The UASI grant formula is based on information about threat 
provided by the intelligence community, the placement of critical 
infrastructure, and population densities. The Administration feels that 
this formula correctly targets the cities that should receive the UASI 
grants.

    3. Can you update me on the progress of your Department's threat 
and vulnerability assessment? Does IA/IP have the resources and staff 
levels required to carry out this task expeditiously? Are your analysts 
receiving the complete and timely information they need from TTIC and 
the rest of the intelligence community?

    Answer: The Office of Information Analysis (IA) currently has all 
the information it needs to assess threats to the nation. This involves 
the independent analysis of all information received from other members 
of the Intelligence Community, the Terrorist Threat Integration Center 
(TTIC), and other DHS component entities. As IA matures, staffing 
levels will increase and processes will be refined to enable IA to 
expeditiously carry out its mission. Similarly, the Office of 
Infrastructure Protection (IP) is currently assessing the 
vulnerabilities of critical infrastructures and key assets.

            Questions from the Honorable Lincoln Diaz-Balart

    Congress imposed a December 31, 2003 deadline for permanent 
installation of Electronic Explosive Detection (EDS) equipment in-line 
with baggage systems at the nation's airports. I understand the dollars 
needed for airports seeking in-line EDS equipment exceeds the budget 
for installation of the EDS. TSA has said that the in-line deployment 
of EDS is the most effective baggage screening method for Miami 
International Airport (MIA), in my district.Sec. 
    However, MIA has had difficulty obtaining approval for design and 
funding for their in-line EDS equipment.
    MIA is a Category X airport. More than 29.6 million passengers 
passed through MIA in 2003. MIA is the third busiest airport for 
international passengers in the United States. Over ninety airlines 
operate out of MIA, more than any American airport. MIA has 1,416 total 
international flights a week, the most of any airport in the U.S. Of 
that, it has 565 flights to and from Latin America per week, more than 
all American airports combined.
    MIA is jobsite for nearly 37,000 employees working for nearly 400 
employers. There are 237,421 direct and indirect jobs associated with 
MIA. Overall, the airport has $18.5 billion revenue impact for South 
Florida.
    As MIA continues to await TSA design approval, the Airport has had 
to put their contractors on hold and I have been informed that the hold 
order is costing them over $175,000 a day.

    1. Can you explain how TSA prioritizes its grants to airports? What 
policy criteria are used to allocate these dollars?

    Answer: DHS and TSA will continue to apply prioritization factors 
when determining which airports will be covered by funding allocated. 
In fiscal year 2004, $721 million was made available for the 
installation of electronic screening technology for explosives 
detection, covering both lobby and in-line solutions. This figure 
included $250 million in the Department's fiscal year 2004 
appropriation and an additional $471 million in carryover from fiscal 
years 2002 and 2003. Fiscal year 2004 funding also included $158 
million for equipment purchases. The Administration's fiscal year 2005 
budget request for explosives detection calls for $400 million, 
including $250 million for the Aviation Security Capital Fund, for the 
installation and purchase of electronic screening technology for 
explosives detection at airports working towards in-line solutions as 
well as airports requiring additional stand-alone solutions to support 
increased throughput needs.
    TSA purchases and installs in-line EDS equipment through a variety 
of funding mechanisms, including Congressionally authorized Letters of 
Intent (LOIs) as well as Other Transaction Agreements (OTAs). For 
facility modifications needed to accommodate the installation of EDS 
equipment, the Federal Aviation Administration has provided funding 
through its Airport Improvement Program (AIP) in fiscal year 2002 and 
fiscal year 2003. The funding mechanism initiated with an airport for 
installation of EDS technology is selected based upon the particular 
security circumstances and needs of each project.
    Existing Letters of Intent (LOI) were awarded primarily on the 
basis of whether or not 100% electronic screening had been achieved at 
the airport. DHS and TSA are in the process of defining and quantifying 
new prioritization factors so that we can establish a list of candidate 
airports going forward should additional LOIs be deemed appropriate.
    MIA has been working with TSA on two mutually agreeable Memorandums 
of Agreement and Letters of Intent (MOA/LOI)s--one for the Central 
Terminal and one for the South and North Terminal Development 
Programs--and a design concept for the in-line baggage screening 
operation. The purpose of the MOA/LOI is to define the parties' 
agreement with respect to funding amounts and schedules for performance 
of work for the replacement of baggage conveyor systems or 
reconfiguration of baggage areas to install in-line EDS equipment 
within MIA's North, South and Central Terminals. MIA has agreed to 
initially fund the project with the intent that TSA will reimburse at 
least 90 percent of the total project costs as provided for in the FAA 
Reauthorization (Public Law 108-176). The current cost estimates 
included in the MOA/LOI that are pending TSA's approval are:


                                                                     Total Cost         Federal Share at 90%

Central Terminal...............................................        $57,444,000                   $51,699,600
South & North Terminal.........................................        177,206,846                   159,486,161
    Total......................................................        234,650,846                   211,185,761


    To date, TSA has approved MOA/LOIs for in-line baggage screening at 
eight major U.S. airports.I understand that TSA stated that it intends 
to sign only a handful of additional LOIs, leaving a significant number 
of airports across the country without a long-term EDS solution. MIA's 
request is currently in the next phase of airports to be approved. 
However, I have been told that TSA has informed MIA that OMB will not 
authorize TSA to issue any further LOI's due to insufficient funding.
    TSA provides a monthly report to Congress detailing all the 
airports where TSA is not in compliance with the 100 percent electronic 
screening of all checked baggage. I have been told that, during a 
January 8 phone call between MIA Airport Director Gittens and TSA 
Acting Administrator Stone, Mr. Stone said he had only recently been 
informed that MIA is not in compliance with the requirement to screen 
100 percent of checked baggage electronically. Admiral Stone further 
stated that MIA had not been included in the monthly report to Congress 
of non-compliant airports. I have been told that the report was also 
used to determine which airports received priority for LOIs for in-line 
EDS installation.
    If the allegations are true and TSA had reported accurately, MIA, 
one of the busiest airports in the nation, would have most likely been 
given priority and had their MOA/LOI approved in the 1st round. The 
safety and security of the American public is my primary concern.

    2. Can you look into these serious allegations and report back to 
this Committee?
    Answer: TSA's top priority is security, and consequently, TSA will 
continue to focus its available funds for the purchase and installation 
of explosives detections systems (EDS) at those airports that require 
additional work in order to achieve and maintain compliance with the 
100 percent electronic screening of checked baggage mandate. Miami 
International Airport (MIA) has achieved compliance with the mandate to 
conduct 100 percent electronic screening. Because of ongoing changes to 
passenger loads, terminal modifications and airport expansion projects, 
MIA warrants--and receives--monitoring by the TSA to ensure that we 
maintain that level of compliance. As TSA continues to balance the many 
competing priorities for available funds, we are continually reviewing 
our priorities to maximize the utilization of the funds available.

           Questions from the Honorable Ernest J. Istook, Jr.

    1. The December 17, 2003 Homeland Security Presidential Directive 
requires the federal government to, ``identify, prioritize and 
coordinate the protection of the critical infrastructure and its key 
resources (including telecommunications) in order to prevent, deter and 
mitigate the effects of deliberate efforts to destroy, incapacitate, or 
exploit them.'' While commercial communications networks should be 
considered when implementing this directive, I am more interested in 
hearing from you the efforts the Department is taking in regards to the 
protection of the private internal communications systems owned and 
operated by the utilities themselves. How should we ensure that the 
needs and protection of these private networks are addressed?
    Answer: The National Communications System (NCS) has in place 
existing robust processes and capabilities that support the 
identification and coordination of protection of critical 
infrastructure, especially the public telecommunications assets. The 
NCS's Network Design and Analysis Capability (NDAC) applies both public 
and industry proprietary data to analyze and assess the vulnerabilities 
of the public networks. The NDAC is capable of using general and 
specific threat scenarios to identify specific assets at risk and 
determine mitigations strategies. The NCS also conducts ongoing 
vulnerability analyses of specific segments of the infrastructures. The 
results of some of these analyses have been applied by the Protective 
Security Division (PSD) in initiating detailed security analyses of key 
infrastructure components such as cable head landings and telecom 
hotels. As this process matures, the scope of these efforts will be 
expanded. The NCS also participates with the FCC Network Reliability 
and Interoperability Council (NRIC), which in its last session 
developed over 400 best practices for physical and cyber security for 
all platforms of the telecommunications infrastructure. These best 
practices will continue to be reviewed and updated during the NRIC VII 
session over the next two years and will apply to private networks as 
well.
    Supervisory Control and Data Acquisition Systems are a core 
component of many of the electric utilities internal networks. The NCS 
is developing a capability to model the interaction and dependency 
between SCADA and telecommunications systems. This capability will 
enable detailed analyses of SCADA communications vulnerabilities. The 
NDAC has amassed a set of data, tools, and models that characterize 
various aspects of these communications systems. The Idaho National 
Environmental and Engineering Laboratory's (INEEL) National SCADA test 
bed provides the ability to test variants of SCADA equipment, software, 
protocols, and configurations and to assess and model their 
communications vulnerabilities. The NCS and INEEL collaboration, using 
real SCADA systems and their communications interfaces, will enable 
calibration of the NCS? SCADA communications dependency and 
vulnerability models.
    The NCS is leveraging INEEL's expertise to achieve the following 
goals:
        <bullet> Develop detailed test plans (including specific tests 
        to be performed) that will be used to evaluate SCADA network 
        vulnerabilities and dependencies;
        <bullet> Develop prototype SCADA communications models;
        <bullet> Test and validate models;
        <bullet> Develop technology/procedures to mitigate 
        vulnerabilities;
    In the longer term the NCS will:
        <bullet> Evaluate performance of mitigation approaches using 
        models, and
        <bullet> Develop recommended best practices for mitigation of 
        SCADA communications vulnerabilities.
    This combination of tools for examining vulnerabilities of common 
communications systems will contribute to meeting the protective needs 
of these private networks.

    2. Is there a process or network within DHS that enables a cross-
coordination of emergency response and communications capabilities that 
includes critical infrastructure as well as the traditional public 
safety community?
    Answer: The SAFECOM (Wireless Public SAFEty Interoperable 
COMmunications) program resides within the Department of Homeland 
Security's (DHS's) Science and Technology Directorate and serves as the 
umbrella program within the federal government to help local, tribal, 
state and federal public safety agencies improve public safety response 
through more effective and efficient interoperable wireless 
communications. SAFECOM developed two mechanisms to ensure the 
coordination of DHS efforts related to communications and 
interoperability. The first is the Federal Interagency Coordination 
Council (FICC), comprised of those offices whose mission is to support 
communications as they relate to public safety and critical 
infrastructure protection. The second is the SAFECOM program's Advisory 
Council, which provides a venue for federal programs and national 
organizations representing public safety and critical infrastructure 
protection sectors to contribute to the SAFECOM strategy and to 
collaboratively share information to protect the homeland.

    3. The nation's electric, gas and water utilities and natural gas 
pipelines are among the longest-term users of private radio spectrum 
and have been reclassified as public safety radio services by Congress. 
Given this designation and their vital role during emergency response 
situations, I would be interested in learning whether representatives 
of the utility industries have been or will be included during 
discussions of a nationwide interoperable communications network for 
emergency responders.
    Answer: As a public safety practitioner driven program, SAFECOM is 
dedicated to addressing the needs of all public safety organizations. 
The program began to include public safety by reaching out to those 
first responders involved in local emergencies on a daily basis. 
SAFECOM further coordinated its activities with representatives from 
local and state governments, to ensure that the responsible decision 
makers were also included. SAFECOM has since developed relationships 
with the national associations representing these practitioner and 
decision making communities, as well as other, broader public safety 
disciplines, which have provided the program the opportunity to gather 
input from a wide range of stakeholders as it outlined and developed 
its strategy. While initial relationships with representatives from the 
electric, gas, water, and natural gas pipelines industries have been 
established at conferences and other venues, SAFECOM will now begin to 
incorporate them more formally into the program, such as their 
representation on the SAFECOM Advisory Committee.

    4. To what extent does HSARPA work with the DARPA at the Department 
of Defense to identify technologies which DoD is already working on 
that might be beneficial to our Homeland Security efforts? My concern 
here is making sure that we are making the most of taxpayers dollars 
and not trying to reinvent the wheel.
    Answer: HSARPA works very closely with DARPA to identify areas of 
joint interest, to avoid duplication of effort, and to identify and 
quantify opportunities for cooperation. The Director of DARPA and the 
Director of HSARPA correspond quite frequently. The Deputy Director and 
several HSARPA Program Managers served at DARPA in the past and 
maintain professional relationships with their former colleagues; this 
increases the information flow and serves to identify potential 
conflicts and opportunities for cooperation. Formal cooperative efforts 
are documented by Memoranda of Agreement that specify the role of each 
organization. Several areas of DARPA effort have progressed to the 
stage at which they would be of interest to HSARPA. Discussions are 
underway exploring transfering the technology or the program to HSARPA 
management. Those areas in which HSARPA has issued solicitations have 
been discussed with DARPA representatives to ensure that HSARPA is not 
``reinventing the wheel.''

    5.Undersecretary Hutchinson recently reported to the department's 
Advisory Committee on Commercial Operations (COAC) that DHS is near to 
finalizing its plans for a regional structure. He stated that 7 to 10 
regional offices would be created around the country with a director 
leading each. As you know, we in Congress and those in the trade 
community have expressed serious concern about how the department will 
ensure that customs commercial operations continue to be administered 
in a uniform and consistent way under such a regional structure.

    Can you share with us what specific mechanisms DHS will employ in 
order to maintain consistent national policies and procedures with 
respect to customs operations in different regional offices?
    Answer: Success in accomplishing DHS' missions requires developing 
a coordinated effort among federal, state, local, tribal, public and 
private sector entities on all aspects of homeland security; 
integrating the activities of the department across mission areas; and 
the efficient and effective delivery of DHS services within each 
mission area. To achieve this mandate, DHS is exploring a regional 
concept of operations that ensures that these three functions are 
achieved at the regional and especially local level among federal, 
state, tribal and private sector entities.
    While our goal in implementing a regional structure will be to 
build better operational capabilities for the Department, national 
policies and doctrine will continue to be issued from DHS headquarters 
to ensure that programs are consistently applied nationwide.
    The Department recognizes that with global trade and product 
tracking, America needs uniform and consistent customs processes in 
every port and the unimpeded flow of legitimate commerce is vital to 
our nation's security. The partnerships established between business 
and government have been fundamental to improving these processes. 
These efforts in turn have contributed to the growth in America's 
global economic strength. The Secretary is committed to continuing this 
partnership to increase our collective security.

    6. Will the public be given the opportunity to review and comment 
on the department's proposal for the regional structure and its 
potential impact on commercial operations?
    Answer: The initial regional concept of operations recommendations 
are being reviewed within the Department and its component agencies. 
The assessment of the infrastructure, operations, personnel and assets 
of component offices throughout the nation has required extensive 
analysis and data collection. In addition, the Department is conducting 
an analysis on any potential operational considerations with regard to 
implementing a regional structure.
    Upon approval of these initial recommendations, the Department will 
ensure that our external Stakeholder constituents will have the 
opportunity to review and comment on the impact this regional structure 
will have on their particular operations and programs. Although work is 
underway to determine the best way to move forward on a DHS regional 
structure, the many variables of this complex issue will be discussed 
prior to the final implementation of the regional concept.

    7. Please provide for me and the Committee a summary of the C-TPAT 
program in terms of how many violators the program has identified as 
well as what disciplinary actions have been taken against those 
violators.
    Answer: Companies seeking C-TPAT certification must apply to CBP by 
first signing and submitting the appropriate C-TPAT Agreement. 
Companies are then required to conduct comprehensive internal/external 
security self-assessments of their supply chains and report back to 
CBP, via their Profile Questionnaire submission, a summary of their 
findings including any identified weaknesses.
    CBP then reviews the profile questionnaire, initiates the vetting 
process, and either accepts or rejects the applicant's submission.
    After CBP certifies a company for C-TPAT, the company then 
qualifies for the Validation process. The validation process is a 
physical review (foreign and domestic) by CBP and the C-TPAT 
participant to ensure that the supply chain security measures contained 
in the C-TPAT participant's security profile have been implemented and 
are being followed.
    There is currently an 18 percent outright rejection rate for 
insufficient profile questionnaire submissions. In addition to these 
1,000 plus initial rejections, over 90 companies have been denied C-
TPAT benefits, or have had their benefits suspended, due to violations 
identified during our vetting or validation process. These violations 
include but are not limited to the following:
    <bullet> Previous criminal records or violations.
    <bullet> Significant violations involving narcotics.
    <bullet> Failure to implement adequate security measures and 
procedures.
    <bullet> Misrepresentation of information submitted to CBP.

                Questions from the Honorable Jim Gibbons

    1. Las Vegas McCarran Airport is the second busiest domestic Origin 
and Destination airport in the nation and processes more passengers 
through its checkpoints than any airport except LAX. McCarran is of 
vital importance in sustaining the largely visitor-dependent Las Vegas 
economy. However, the recent return of extremely long passenger 
screening lines is a major cause of frustration for the Las Vegas air 
traveler. If the situation does not improve, many of our visitors may 
be discouraged from returning to Las Vegas. I'm sure there are similar 
situations in other parts of the country.
    These long lines also cause masses of people to congregate outside 
of the checkpoints presenting the additional security risk of shifting 
the would-be target from the airplane to the airport terminals 
themselves.
    I don't want my comments to be a reflection on the hard work of the 
TSA employees at McCarran. I firmly believe that this situation can be 
addressed with a few tweaks in TSA policy. For instance, Federal 
Security Directors at airports should be given the maximum flexibility 
to address the airport's needs.

    Has the department looked at giving Federal Security Directors at 
the individual airports expanded authority to manage the security 
screening process?
    Answer: TSA has in fact given Federal Security Directors (FSD) 
increased flexibility and authority to manage the security screening 
process. Initiatives are underway to allow our FSDs to have the 
flexibility they need to perform their security functions more 
effectively and efficiently by giving them more direct authority. TSA, 
in turn, will continue to hold FSDs accountable for meeting Federal 
security standards and for managing effectively. TSA is committed to 
strike the right balance between effective agency-wide management and 
local FSD authority.
    McCarran International Airport (LAS) is a prime example of the 
benefits gained by this practice. LAS formerly faced long passenger 
wait times that often exceeded one hour, having peaked during heavy 
convention attendance in February 2004. In contrast, the wait times at 
LAS for the months of April, May, June, and July have rarely exceeded 
30 minutes. Average wait times for the airport are well within a 10 
minute average.

Examples of flexibility provided to LAS include:
        A. Overtime. LAS was provided considerable autonomy in using 
        overtime to support operational requirements during peak travel 
        times--such as holidays and conventions. The flexible use of 
        overtime as a management tool to support high volumes of 
        passengers associated with large functions allowed the FSD to 
        ensure that screener staffing could meet the airport's changing 
        needs.
        B. Enhanced checkpoint screening procedures. LAS had latitude 
        to innovate changes at the checkpoint in order to screen 
        passengers with the greatest efficiency. In coordination with 
        the Administrator, LAS piloted programs including 1) 
        Incorporating front loaders; 2) Developing more efficient bin 
        returns; 3) Enhanced use of x-ray procedures; and 4) Expansion 
        of the number of checkpoint lanes.
        C. Flexible deployment of resources. The LAS FSD was able to 
        redeploy equipment and personnel as needed to meet screening 
        requirements. LAS was thus able to manage available resources 
        to adjust quickly for natural or unexpected fluctuations in 
        airport requirements. This flexibility enabled the FHS to 
        continue to meet TSA's security mandate despite sometimes 
        dramatically changing circumstances.
    Much of this success is due to the combined effort and teamwork of 
TSA and other parties with operational responsibilities at LAS. For 
example, the Las Vegas Department of Aviation officials were quick to 
provide assistance by providing lane monitors to assist passengers with 
queuing and divesting in front of the checkpoints. TSA officials made 
several decisions involving operations in keeping with the increased 
flexibility of the FSDs. These decisions proved so beneficial that they 
were implemented at many other airports in the United States. In 
addition, the FSDs and their staffs have worked especially hard with 
airline stakeholders to manage flight loads and expand checkpoints to 
keep pace with the rapid passenger traffic growth experienced at LAS. 
An increase of three lanes in 2003 has been followed by an additional 
seven lane expansion that will open in late August 2004. This new seven 
lane expansion is an effort to prepare for the pending growth of the D 
concourse by 10 gates in late 2004.

    2. The Department of Homeland Security needed to get off to a 
running start. Consequently, DHS now has a wide variety of well-
qualified men and women--including yourself--who have taken the reins 
and implemented programs and strategies to protect the American 
homeland.
    Many of these highly qualified people have military and other 
federal backgrounds. All of these people will draw upon these 
experiences to build DHS' capabilities.

    What are you and your management team doing to ensure that DHS 
develops efficient processes so that you can avoid adopting the some of 
the inefficiencies that the Department of Defense and other agencies 
have developed over the years?
    Answer: We have worked to ensure a consistent understanding of the 
mission, vision and values of the Department--stressing the importance 
of leadership and the responsibility of all levels of leadership to 
managing the change to DHS while maintaining the vigilance we need to 
secure our homeland. We have adopted the dictum ``One mission, one 
team, one fight'' to keep us focused on this end. We have seen the 
opportunity of the new Department as an opportunity to change past 
practices, to merge like programs and functions creating even stronger 
and more effective organization; for example, the ``one face at the 
border'' initiative in CBP. Or, to propose changes to the 
organizational structure such as the combination of the Office of 
Domestic Preparedness with the Office of State and Local Government. We 
continue to look for opportunities to streamline our activities, as we 
have in developing the National Incident Management System, which is 
the Nation's first standardized management plan that creates a unified 
structure for Federal, state, and local lines of government for 
incident response.
    We are blending 22 distinct agencies and bureaus, each with its 
employees, mission, and culture, into a single, unified Department 
whose mission is to secure the homeland. Simultaneous with that 
harmonization and integration effort, we are devising new processes and 
infrastructure to stand up the Departmental offices. We need to 
transform multiple legacy business practices, and their legacy 
infrastructure, into harmonized or single business practices across the 
enterprise. We have the opportunity to build the 21st century 
department and that will be accomplished by business transformations. 
There are multiple, enterprise wide transformations that must take 
place and be overseen, integrated and optimized by the Department's 
leadership. Examples of enterprise wide transformations include eMerge2 
(Electronically Managing Enterprise Resources for Government 
Effectiveness and Efficiency); Max HR (the unitary human capital 
management system) and, the Homeland Secure Data Network (HSDN) 
(classified secure communications backbone for not only the DHS 
enterprise but also secure communications with all federal, state, 
local and tribal Homeland Security stakeholders). DHS will be a 
cohesive, capable and service-oriented organization whose cross-cutting 
functions will be optimized so that we may protect our nation against 
threats and effectively respond to disasters.
    At this time, there are many change programs and projects underway; 
programs such as eMerge2 , Max HR and HSDN and projects such as 
TriBureau, the realignment of the legacy Customs and INS support 
services base with the new mission elements of CIS, ICE and CBP. These 
programs and major projects are being executed with varying degrees of 
impact, risk, and applied management disciplines. We are constantly 
considering options to, unify, streamline, and improve our entire 
organization. We are aggressively solving immediate and real business 
gaps while at the same time, defining and implementing new business 
operations. As a result, we require a formalized and systematic 
approach for defining, chartering, supporting, synchronizing, and 
measuring change programs.
    One example of this type of process improvement is the management 
of moving the Department off of services provided by former owning 
cabinet Departments to DHS provided services in fiscal year 2004. This 
was a relatively massive project involving cataloguing all the service 
requirements across the enterprise, developing fiscal year 2004 service 
delivery plans and contracting back under MemorandumsSec.  Agreement 
(MOUs) for only those services that the new DHS infrastructure could 
not support. This included harmonizing business process across the 
enterprise as much as possible to drive down the number of different 
processes being used by the components.

               Questions from the Honorable John Sweeney

    1. I am concerned about granting security clearances not only to 
state and local officials but to the private sector as they own and 
operate 85 percent of our infrastructure. I understand the Homeland 
Security Act has sufficient authorization language to allow DHS to 
grant clearances to first responders. Do you agree with this? I would 
like to see your actual plan on number of clearances you intend to 
grant and time schedules.
    Answer: Both the Homeland Security Act and Executive Order 12968 
``Access to Classified Information,'' dated August 4, 1995, allow for 
the investigation of and granting of access to individuals who act for 
or on behalf of an agency as determined by the appropriate agency head. 
Therefore, if it is determined that officials in the private sector 
have a ``need-to-know'' and require access to classified information, 
DHS has a process in place to investigate and grant access to those 
individuals. If it is determined that particular first responders have 
a ``need-to-know,'' they will be investigated and granted access in 
accordance with E.O. 12968.
    The Office of Security would not be in a position of determining 
the number of clearances necessary or establishing a time schedule. The 
Office of Security would only handle the processing and the briefing of 
those individuals identified by the appropriate office/directorate.

    2. Do you have explicit authorization to grant security clearances 
to relevant individuals in the private sector where they have a 
legitimate need to know?
    Answer: See response to question 1 above.

    3. Do you support or oppose making the Commandant of the U.S. Coast 
Guard a member of the Joint Chiefs of Staff when issues pertaining to 
the Coast Guard are under discussion?
    Answer: It is not necessary that the Commandant be a member of the 
JCS. The Commandant has an open invitation from the Chairman to 
participate in JCS discussions that the Commandant feels involve 
specific Coast Guard equities or those of a general nature involving 
all military services. The Commandant exercises that open invitation 
regularly, but with discretion, participating only in discussions of 
topics with Coast Guard equities involved (average of one time per 
month). Coast Guard Assistant Commandant for Operations (G-O) and 
Director of Operations Policy (G-OP) attend similar meetings (at the 
OPSDEPS level) on a more frequent basis (average of 2-4 times per 
month).
    The Commandant also routinely participates in Combatant Commanders 
conferences and related DOD senior leadership venues as a military 
service chief. As a member of the Joint Planning and Execution 
Community, the Coast Guard participates in a variety of Joint planning 
and policy forums, including:
        <bullet> Joint Strategy Reviews (including rewrites of National 
        Military Strategy and periodic risk assessments);
        <bullet> Quadrennial Defense Reviews;
        <bullet> War on Terrorism assessments and strategy development; 
        and Regional Combatant Commander Operations Plans development 
        and force flow conferences.
    In addition, the Coast Guard HQ maintains a Joint Action 
Coordination Office (JACO-CG) for daily coordination of CG inputs to a 
variety of Joint Staff initiatives. The JACO-CG responded to 348 Joint 
Staff Action Packages (JSAPs) in 2003; 48 to date in 2004 (avg.--28 
JSAPs per month)

    4. Describe DHS efforts--and note significant, real 
accomplishments--of how the Coast Guard and the Navy have created a 
synergy among their staffs to improve the capability, interoperability, 
and affordability of their platforms so that our nation is well served 
across the full breadth of this widened national security spectrum?
    Answer: The Coast Guard and the Navy have historically maintained a 
strong relationship. However, given recent increased efforts in 
cooperation over the past several years, especially with regards to our 
shared National Fleet Policy, the inter-service relationship is 
considered the strongest it has ever been. The two Services have 
strengthened their service liaisons, entered into formal agreements for 
shipbuilding coordination efforts, and are collaborating on weapons and 
sensors system development--all in the spirit of improving 
interoperability and developing complementary capabilities. Recently 
most manifest in Coast Guard deployments for Operations IRAQI FREEDOM & 
ENDURING FREEDOM and for stability and security operations in Haiti, 
Coast Guard forces seamlessly integrated into joint operations on day 
one. In both cases, DOD specifically asked for Coast Guard capabilities 
to meet Combatant Commander requirements.
    A National Fleet Policy Statement, first signed in September 1998 
and updated most recently in July 2002, commits the U.S. Coast Guard 
(USCG) and U.S. Navy (Navy) to ``shared purpose and common effort.'' 
Today, the National Fleet policy is embodied in initiatives such as 
Deepwater recapitalization, the prospective DOD-DHS Command & Control 
Memorandum of Agreement for Homeland Defense/Homeland Security, the 
USN-USCG partnership to expand Maritime Domain Awareness (MDA) and our 
close relationship with US Northern Command. Each of these endeavors 
builds upon our synergistic relationship to ensure that National Fleet 
assets provide the broadest mix of capabilities to meet the full 
spectrum of national security requirements.
    The USCG and Navy continue to work together, continually improving 
their staff alignment and cooperation as they re-capitalize their 
fleets. There are two Memoranda of Understanding (MOUs) established 
between the USCG Deepwater Program and the Navy's Littoral Combat Ship 
(LCS) program. One MOU is requirements focused and the other is 
acquisition focused. As both programs continue their development, the 
USCG and Navy leadership are engaged in coordinating their efforts 
where it makes good business sense and is legally permissible. The 
Deepwater Program Executive Officer (PEO) is working closely with the 
Navy's LCS program. The PEO meets regularly with the Navy, monitoring 
programmatic and technical progress and looking to maximize 
opportunities for commonality and interoperability.
    Specific examples of how the Coast Guard and the Navy have created 
a synergy among their staffs to improve the capability, 
interoperability, and affordability of their platforms include:
    <bullet> With funding support from the Navy, the Coast Guard is 
developing the MK 3 / 57mm Gun System for Deepwater cutters. The gun is 
also a candidate system for LCS and DDX (next generation surface 
combatant ship). The Navy remains aware of USCG gun and ammunition 
qualification efforts and will benefit from the USCG's advance work if 
the gun is included in the weapons systems of other naval warships.
    <bullet> The Navy is supporting the USCG's procurement of Navy Type 
combat systems equipment for the National Security Cutter (NSC). By 
placing Navy Type systems on the NSC, the Navy and USCG can integrate 
logistics, maintenance and training for years to come. Additionally, 
common systems will facilitate future naval operational planning and 
execution across a broad spectrum of future Deepwater assets.
    <bullet> The CG Deepwater PEO is finalizing a Memorandum of 
Agreement (MOA) with Naval Air Systems Command (NAVAIR) in March 2004 
to maximize effectiveness across naval and maritime missions. Under the 
agreement, the organizations will exchange information to identify 
areas of mutual interest and support.
    <bullet> Cooperation between various USCG and USN commands in the 
development of a prototype Integrated Anti-diver/swimmer System capable 
of providing MSSTs with an underwater detection and defense capability.

    5. Does the Coast Guard have an Unfunded Priority List (UPL) like 
it's Department of Defense sister services? If not, why not?
    Answer: The Coast Guard does not maintain an Unfunded Priority List 
(UPL) like the Department of Defense services. The President's fiscal 
year 2005 budget provides the necessary resources for the Coast Guard 
to meet its missions. The Deepwater project is replacing technically 
obsolete and high cost maintenance ships and aircraft, which are 
becoming more unreliable every day. The Deepwater project is the Coast 
Guard's top funding priority to recapitalize these critically needed 
platforms. An UPL is not necessary because the Department of Homeland 
Security will submit a Future Year Homeland Security Plan with the 
President's Budget each year, which includes outyear requirements.

            Questions from the Honorable Bill Pascrell, Jr.

    1. Every year it's the same thing: the Administration proposes big 
cuts to the successful FIRE Grant program. This time out you've 
proposed a cut of one-third--from $750 million down to $500 million. In 
fact, in this budget, all grants to our first responders suffer an $800 
million decrease from amounts appropriated by Congress last year. Is 
there less threat today? Is this why you've dramatically reduced the 
federal help to our men and women on the frontlines?
    Answer: The Administration and the Department recognize the 
importance of the support provided through the Assistance to 
Firefighters Grant Program (AFGP), particularly with respect to rural 
and volunteer fire departments, as well as to urban and suburban 
departments. For many of these departments, these funds are critical to 
their operations. The fiscal year 2005 request includes $500 million 
for the AFGP, which is the first time the Administration had requested 
funding for this program separately from the rest of the larger first 
responders program. The fiscal year 2004 appropriations act for the 
Department of Homeland Security (DHS) transferred the administration of 
the AFGP to the Office for Domestic Preparedness (ODP) from FEMA. ODP 
is committed to working with the fire service to ensure the continued 
success of this program. By the end of fiscal year 2004, the Department 
expects that more than $2 billion will have been distributed to over 
15,000 fire departments since the beginning of this initiative.
    In addition to the support provided to the fire service through 
AFGP, this community is also eligible to receive funds and assistance 
through ODP's Homeland Security Grant Program (HSGP) and Urban Areas 
Security Initiative (UASI). The request would provide more than $1 
billion for continuation of HSGP and over $1.4 billion for continuation 
of UASI. As in past years, the fire service is eligible to receive 
support--including equipment acquisition funds and training and 
exercise support--under both of these programs. With the funds 
dedicated to AFGP, along with funds for continuation of HSGP and UASI, 
the Administration and Department are confident that the needs of the 
emergency response community will be met.

    2. Everyone who has any level of contact with the firefighter 
community knows that there are basic, critical needs out there. We knew 
that before 9/11. For example, we know that 45 percent of firefighters 
lack standard portable radios, and 57,000 firefighters lack critical 
personal protective clothing. These are basic needs that have gone 
unmet. Why are you proposing to shift the focus of this program away 
from basic, unmet critical needs to terrorism preparedness?
    Answer: While we agree that fire departments have basic needs, a 
Federal grant program cannot replace the role of local governments and 
communities supporting the majority of those needs. As the 
Administration continues to support the Assistance to Firefighters 
Grant Program to address the highest priority needs, we have emphasized 
that Federal assistance to responders should provide for the 
procurement of those specialized items that are not just dual-use 
items, but rather specific to terrorism preparedness. The changes 
proposed for 2005 support the first responder community's capability 
and capacity to address chemical, biological, radiological, nuclear or 
explosive threats. By doing so, we support basic fire department needs 
and are also addressing the nation's priority to fight terrorism in the 
homeland.

    3. In preparing this budget, did you actually consult with any 
real-life firefighters? With all due respect, I don't know any 
firefighter out there who thinks that cutting funding to the FIRE Act 
and changing its mission is an appropriate thing to do. Where are you 
gathering your intelligence to make these inexplicable decisions?
    Answer: As discussed in our previous reply, we do not see the 2005 
proposal as a change in mission but more as providing increased 
visibility for those fire departments in need of terrorism-specific 
preparedness and training, or dual-use equipment for departments in 
high-risk areas. We implement these measures based on discussions with 
fire departments and firefighters from all types and sizes of fire 
departments.
    The fiscal year 2005 request includes $500 million for continuation 
of the Fire Act Grant program, the same funding level as in the 
President's Fiscal Year 2004 request , and representing a solid 
commitment to continue to support the critical needs of the nation's 
fire service, who's views and expertise are well-represented by the 
U.S. Fire Administration. Even though the fiscal year 2004 
appropriations act for the Department of Homeland Security transferred 
the administration of the Fire Act Grant Program to ODP from FEMA, the 
Department is committed to cooperation between ODP and the U.S. Fire 
Administration to ensure the ongoing success of this program. By the 
end of fiscal year 2004, the Department expects that more than $2 
billion will have been distributed to over 15,000 fire departments 
since the beginning of this initiative.
    Further, the AFGP is not the only means of providing assistance to 
fire departments. , Fire departments are eligible to receive funds and 
assistance through ODP's Homeland Security Grant Program (HSGP) and 
Urban Areas Security Initiative (UASI). The fiscal year 2005 request 
would provide more than $1 billion for continuation of HSGP and $1.2 
billion for continuation of UASI. The funds proposed for the Assistance 
to Firefighters Grant Program, along with funds for continuation of 
HSGP and UASI, leave the Administration and Department confident that 
the needs of the emergency response community will be met.

    4. The leading cause of firefighter death in America is a heart 
attack that occurs either at the scene of emergencies or soon after 
returning from emergency scenes. In my district, Bloomfield, NJ 
Firefighter Daniel McGrath could tell you a thing or two about the need 
for cardiac fitness. When Mr. McGrath went to his physical mandated by 
the program funded by the 2002 FIRE grant, it was discovered that he 
needed immediate heart surgery--no one had any idea he was in danger 
prior to that physical. He had successful bypass and valve replacement 
surgery and is back on the job today. With all this in mind, why would 
the President's 2005 proposed budget eliminate funding for programs to 
enhance the level of cardiac fitness among firefighters?
    Answer: The goal of the President's Fiscal Year 2005 budget is to 
focus the Assistance to Firefighter Grant Program on the basic training 
and equipment needed to be prepared for all hazard and terrorism 
responses to protect the American public. During the past four years, 
those departments that had a need for wellness and fitness projects had 
ample opportunity to seek funding for those activities. Many did and 
now have exercise equipment and training that will last them for many 
years to come. Medical exams, immunizations, and personal fitness have 
long been local responsibilities, and indeed the vast majority of such 
costs are borne annually by local government. Inclusion of these items 
in the first four years of the AFG Program was intended to provide a 
jump start to local fire departments who had never undertaken such 
activities but not to permanently subsidize these operating costs.

    5. Another leading cause of firefighter death occurs from 
firefighters getting lost inside burning buildings and other crews not 
being able to find and rescue them. Why would the budget eliminate 
funding for programs to train rapid intervention teams to improve their 
capability to rescue firefighters who are trapped or lost at fires?
    Answer: Contrary to any misunderstanding that may exist, the 
Assistance to Firefighters Grant Program support for the development of 
RIT capability will continue, but rather than cited as a separate 
activity, it will be integrated into the eligible equipment and 
training activities supported by the program.

    6. The nation's leading reports on the fire safety of America, 
``America Burning'' and ``America At Risk. . .America Burning 
Revisited'' specifically cited prevention and education as crucial 
strategies in reducing loss of life and property from unwanted fires. 
The recent review of the Assistance to Firefighters Grant Program by 
the Department of Homeland Security's Inspector General suggests a 
greater emphasis should be placed on fire prevention and education. 
American fire departments value prevention efforts as part of a multi-
faceted system for keeping people in communities safe. Why would the 
President's proposed 2005 budget eliminate funding for such a critical 
component of this nation's fire and life safety infrastructure?
    Answer: The Administration's proposal does not eliminate the 
statutory funding set aside of 5 percent for Special Fire Prevention 
and Safety projects, which will continue to be made available to fire 
departments and other nationally recognized agencies with a proven 
record of success in such efforts. Within the broader program, 
applicants have continually chosen to select fire operations, 
firefighter safety and firefighting vehicles for assistance over fire 
prevention activities by an overwhelming majority. We believe this 
demonstrates that the fire service overall believes that investment at 
this point in time is best made in the equipment and training areas. In 
addition, direct and effective fire prevention activity is centered on 
the adoption and enforcement of fire and building codes, which remain a 
state and local responsibility in the United States.

    7. Even the best-trained and equipped fire department cannot reach 
emergency scenes instantaneously, meaning that serious efforts at 
reducing fire deaths, medical emergencies, and property loss must focus 
on preventing these incidents from happening in the first place. 
According to the ``State of Home Safety In America'' report, our nation 
suffers nearly 20,000 deaths and almost 20 million medical visits each 
year from preventable injuries. Fires and burns are the third leading 
cause of unintentional home injury death, following slips and falls and 
poisonings. Injury in America is at epidemic proportions. A key focus 
area for the United States Fire Administration Programs is prevention 
and public education. Why is the President's 2005 budget proposal so 
out of alignment with the goals of the federal agency responsible for 
focusing on the nation's fire safety?
    Answer: There is a reasonable distinction between the program 
activities pursued by a national agency such as the U.S. Fire 
Administration, and the activities funded in a national grant program 
aimed at local responders. Activities of the United States Fire 
Administration (USFA) will continue to focus efforts on injury 
prevention, especially to the young and the old as part of the USFA's 
five-year strategic goals. Support for special education, and training 
courses and targeted marketing efforts related to USFA safety and 
injury reduction initiatives continued as does the mandatory Community 
Risk Reduction Course at the National Fire Academy which trains senior 
fire service managers on how to reduce injuries from all hazards in 
their communities. Even with the changes proposed by the 
Administration, the 5 percent set aside for Special Fire Prevention and 
Safety projects has preserved for fiscal year 2005. Furthermore, the 
AFG Program, which has only been existence since 2001, is not the sole 
source of Federal support to injury prevention activities, Other public 
health agencies continue to address injury prevention as part of their 
mission.

    8. The Budget's Program Assessment Rating Tool declared that the 
Fire Grant Program ``is unfocussed and has not demonstrated its impact 
on public safety.'' The fact is that this program has positively 
impacted public safety by providing nearly $2 billion for infrared 
cameras, hazmat detection devices, improved breathing apparatuses, 
advanced training and fitness programs, fire engines, and interoperable 
communication systems. This is the basic equipment our fire departments 
need to effectively respond to all hazards. How was your assessment 
reached?
    Answer: The analysis was conducted by the Office of Management and 
Budget in coordination with the Department, FEMA, and the U.S. Fire 
Administration. This analysis included all program information and data 
available at the time. As of that point, the program still lacked clear 
goals for the objectives laid out in the Fire Act, ``protecting the 
health and safety of the public and firefighting personnel;'' and 
lacked strategy for measuring progress towards these goals. The 
analysis raised concerns about the wide array of funding uses and the 
broad dispersal of funds among a large number departments. Both factors 
may limit the program's ability to focus resources on those activities 
benefiting the maximum number of firefighters and the general public. 
In the absence of a program evaluation strategy, grantees were not 
required demonstrate measurable improvements in their capabilities as a 
result of these grants. As this Administration has a commitment to 
results, not simply the purchase of equipment, there should be osome 
means of knowing whether the activities funded by the program actually 
contribute to the safety of the American public.
    Over the last year, the Administration has taken a number of 
actions to address these issues while also supporting continued 
funding: goals have been clarified, a program evaluation process has 
established, funding uses have been narrowed, and the Administration 
has sought to increase the grant size for larger cities. In time, these 
improvements should contribute to a measurable track record for the AFG 
Program's performance.

           Questions from the Minority Staff of the Committee

    1. A comprehensive staffing strategy is needed to identify 
vulnerabilities along our borders and to provide resources according to 
the greatest need. However, to the Committee's knowledge, there is no 
comprehensive border staffing strategy:
        <bullet> created, or being developed, by the Department of 
        Homeland Security (DHS) or any of its components;
        <bullet> after the 9/11 attacks;
        <bullet> that includes both the northern and southern land 
        borders; and
        <bullet> that identifies how our limited resources--border 
        inspectors, Border Patrol agents, and technology to support 
        these groups--will be assigned.
    To the contrary, several staffing initiatives have been announced 
or implemented (such as the ``Action Plan for Cooperation and Border 
Safety'' recently announced by Secretary Ridge and his Mexican 
counterpart, Secretary of Government Santiago Creel) without any 
evidence that a vulnerability assessment of our land borders was 
conducted or is even being planned. Despite the fact that more than two 
years have passed since the 9/11 attacks, there is no indication that 
DHS has made any effort to establish a comprehensive staffing 
strategy--for example, updating existing staffing strategies such as 
Customs? Resource Allocation Model (RAM) to reflect post-9/11 security 
concerns. The Committee is concerned that DHS does not seem to have a 
comprehensive policy in place to guide the placement of border 
resources--such as unmanned aerial vehicles, sensors, or camera 
arrays--or implementation of staffing initiatives such as the ``One 
Face at the Border.''

    What, if any, steps has DHS taken to assess staffing and technology 
needs along the border since its creation last year? Has any DHS 
component made an attempt to conduct these assessments after the 9/11 
attacks? How many other land border staffing initiatives does DHS plan 
to implement without an overall staffing strategy in place? Does DHS 
have plans to conduct a vulnerability assessment of our land borders, 
and if so, what is the timeframe for those assessments?
    Answer: The creation of CBP on March 1, 2003, and the resulting 
merger of customs, immigration, border patrol, and agriculture 
functions into CBP has resulted in the need to evaluate any future 
agency-wide use of an allocation model for projecting staffing needs. 
Integrated workload distribution and assumptions are still being 
assessed in the newly configured CBP. Among the questions to be 
considered in future staffing models are how the workforce will be 
aligned and how workload and work process data from the various 
incoming agencies will be collected and used. As we have continued to 
assess data and information from incoming agencies, we have determined 
that it exists in many different formats. These different formats must 
still be integrated and/or expanded to meet the needs of the new agency 
and be captured in CBP automated systems to feed into any allocation 
model.
    In the meantime, we have used different data sources to assist in 
allocating resources. Using this approach, it is clear to us that there 
is no available scientific assessment to be able to know and project 
all threats associated with our borders both between the ports-of-entry 
or at the ports-of-entry. We have, however, attempted to project our 
needs based on known threats and workload and performance data that are 
presently available.
    Between the ports of entry, we have recognized and determined, 
based on intelligence, a known vulnerability at the northern border and 
have re-deployed temporary and permanent staffing and resources to 
address this threat. We have also determined based on apprehensions and 
intelligence the need to re-deploy existing personnel and resources to 
address an identified threat along the Southwest Border and will deploy 
border patrol resources to address this threat.
    At the ports of entry, we have undergone a major initiative to 
integrate three inspectional workforces, which has been the primary 
focus of our merger. Since ``One Face at the Border'' is still in its 
infancy we are not in a position to prepare a comprehensive staffing 
strategy. We are presently implementing a major cross- training effort 
over the next 1-2 years. As officers become fully trained, we will be 
in a better position to determine the number that would be appropriate 
at all ports of entry and geographic locations and will introduce the 
use of intelligence, risk assessments and data to assist in designing 
staffing allocations.
    To this end, CBP will continue to use other decision support tools 
such as threat assessments, existing and anticipated workload, 
targeting results, and statistics to assist in preparing analyses to 
support the allocation and deployment of staffing, technology and 
resource deployment.
    The Automated Commercial Environment (ACE) is under development and 
has deployed initial capabilities. The ACE is the information 
technology foundation for CBP business processes and will significantly 
enhance information collection and analysis pertaining to potential 
terrorist threats and movement of trade. As the centerpiece of CBP 
Modernization, deployment of ACE capabilities and resulting of business 
process enhancements will be a significant consideration in planning 
resource allocation and staffing.

    2. The ``One Face at the Border'' initiative was announced in 
September, 2003 and streamlines the inspections process at our ports-
of-entry. As part of that announcement, DHS indicated it would offer 
Agriculture Specialists the opportunity to transfer to Customs and 
Border Protection (CBP) Officer positions. However, to the Committee's 
knowledge, CBP has announced no procedures or timeframes for these 
transfers of Agriculture Specialists, nor has it announced a plan to 
back-fill the Agriculture Specialist positions of those who choose to 
accept the new CBP Officer positions.
    First, please provide the Committee with any written documents 
concerning the most recent plan available for transferring Agriculture 
Specialists to CBP Officer positions, including but not limited to: 
application timeframes, method of selection (and any applicable 
factors, such as geography, seniority) of Agriculture Specialists to 
become CBP Officers, and types and length of notice Agriculture 
Specialists will receive in advance of application process. Second, 
please provide the Committee with information on: how many Agriculture 
Specialists will be allowed to transfer, how this number was reached, 
and whether there is any appeals process for Agriculture Specialists 
who are denied a transfer to CBP Officer positions. Finally, please 
provide the name of the individual who is responsible for making all 
decisions regarding implementation of the ``One Face at the Border'' 
initiative.
    Answer: DHS and CBP are committed to offering Agriculture 
Specialists the opportunity for reassignment to the position of CBP 
Officer. On July 25, 2004 the legacy Customs and Immigration Inspectors 
were converted to CBP Officers in the 1895 series and into one overtime 
system--COPRA. We still plan to offer Agriculture Specialists the 
opportunity to become CBP Officers, however, we must ensure that we do 
not create vulnerabilities in the ports as a result, which makes the 
timing of this opportunity critical. Filling current vacancies in the 
ports and training the new employees is our number one priority.

    3. To the Committee's knowledge, there are no studies or metrics 
that confirm how much states and localities have improved their 
preparedness for acts of terrorism. In addition, a December 31, 2003, 
report from the DHS Inspector General found that, ``DHS program 
managers have yet to develop meaningful performance measures necessary 
to determine whether the grant programs have actually enhanced state 
and local capabilities to respond to terrorist attacks and natural 
disasters.'' Therefore, what is the basis for the overall reduction in 
grant funds to be distributed by the Office of Domestic Preparedness?
    Answer: The Department firmly supports the need to develop national 
preparedness standards. As part of this effort, ODP is continuing its 
efforts to develop preparedness standards and to establish clear 
methods for assessing State and local preparedness levels and progress. 
On December 17, 2003, the President issued Homeland Security 
Presidential Directive (HSPD)-8. Through HSPD-8, the President tasked 
Secretary Ridge, in coordination with other Federal departments and 
State and local jurisdictions, to develop national preparedness goals, 
improve delivery of federal preparedness assistance to State and local 
jurisdictions, and strengthen the preparedness capabilities of Federal, 
State, territorial, tribal, and local governments.
    Earlier this year, the Secretary delegated to ODP the lead for the 
implementation of HSPD-8. This designation by the Secretary is 
consistent with ODP's mission, as provided under the provisions of the 
Homeland Security Act, to be the primary Federal agency responsible for 
the preparedness of the United States for acts of terrorism.
    The standards that will result from HSPD-8 implementation build on 
an existing body of standards and guidelines developed by ODP and other 
Federal agencies to guide and inform State and local preparedness 
efforts. Since its inception ODP has worked with Federal agencies and 
State and local jurisdictions to develop and disseminate information to 
State and local agencies to assist them in making more informed 
preparedness decisions, including capability assessments, preparedness 
planning and strategies, and choices relating to training, equipment, 
and exercises.

    4. The FIRE Grant program was created by Congress in order to meet 
basic, critical needs of the firefighting community--including fire 
engines, portable radios, protective clothing, and breathing 
apparatus--which a December 2002 study by the U.S. Fire Administration 
and the National Fire Protection Association found to be significant. 
Once again, not only is the Administration proposing to reduce funding 
for this program from $750 million to $500 million, but you are also 
proposing to shift the focus of this program to terrorism preparedness. 
How does the Administration expect the fire community to prepare for 
and respond to terrorism when it is abundantly clear that many fire 
departments lack the training and equipment to respond to even the most 
basic emergency situations?
    Answer: The Administration and the Department recognize the 
importance of the support provided through the AFGP particularly with 
respect to rural and volunteer fire departments, as well as to urban 
and suburban departments. For many of these departments, these funds 
are critical to their operations. The fiscal year 2005 request includes 
$500 million for the AFGP, which is the first time the Administration 
had requested funding for this program separately from the rest of the 
larger first responders program. The fiscal year 2004 appropriations 
act for DHS transferred the administration of the AFGP to ODP from 
FEMA. ODP is committed to working with the fire service to ensure the 
continued success of this program. By the end of fiscal year 2004, the 
Department expects that more than $2 billion will have been distributed 
to over 15,000 fire departments since the beginning of this initiative.
    In addition to the support provided to the fire service through the 
AFGP, this community is also eligible to receive funds and assistance 
through ODP's HSPG and UASI. The request would provide more than $1 
billion for continuation of HSGP and over $1.4 billion for continuation 
of UASI. As in past years, the fire service is eligible to receive 
support--including equipment acquisition funds and training and 
exercise support--under both of these programs. With the funds 
dedicated to AFGP, along with funds for continuation of HSGP and UASI, 
the Administration and Department are confident that the needs of the 
emergency response community will be met.

    5. Although the President's request increases the amount of 
discretionary grant funds to be distributed based on threats and 
vulnerabilities under the Urban Area Security Initiative, you have yet 
to provide Congressional appropriators and authorizers with a detailed 
explanation of the intelligence information that you are using to 
determine which cities receive these grants, despite the fact that we 
have requested this information. In addition, it still is not at all 
clear how the Department intends to measure progress in building our 
preparedness capabilities nationwide.
        a. When can we expect the Department to provide this Committee 
        with detailed information that supports your selection of 
        specific cities to receive funds under the Urban Area Security 
        Initiative?
    Answer: DHS officials and staff have provided a number of briefings 
on how the UASI funds were allocated. The methodology was fully 
consistent with appropriations legislation requiring an allocation that 
took ``into consideration credible threat, presence of critical 
infrastructure, population, vulnerability. . .'' Yet as our methodology 
relies on information provided from other Federal agencies, we must be 
sensitive to their requirements for handling this information, 
including concerns about the specific formula. DHS is willing to 
provide additional briefings at the Committee's request.
        b. What is your progress to date in building the terrorism 
        preparedness capabilities of states and localities, how are you 
        measuring this progress, and what is your timeline for building 
        a ``baseline'' level of preparedness capabilities nationwide?
    Answer: The Department of Homeland Security firmly believes that it 
is essential to provide states and localities the support they need to 
enhance their security against terrorist attacks, and to provide them 
the resources to identify vulnerabilities and needs. To this end, the 
Department, through ODP, administered the State Homeland Security 
Assessment and Strategy Process (SHSAS). This process allowed states 
and local jurisdictions to update their needs and vulnerabilities 
assessment to reflect post-September 11, 2001, realities, as well as to 
identify progress on the priorities outlined their initial homeland 
security strategies, which were initially conducted in 1999. The SHSAS 
process allows states to make prudent and informed decisions on how 
best to allocate and distribute funds they receive from ODP and DHS to 
enhance their security.
    In addition, ODP is continuing its efforts to develop preparedness 
standards and to establish clear methods for assessing State and local 
preparedness levels and progress. On December 17, 2003, the President 
issued ``Homeland Security Presidential Directive (HSPD)-8.'' Through 
HSPD-8, the President tasked Secretary Ridge, in coordination with 
other Federal departments and State and local jurisdictions, to develop 
national preparedness goals, improve delivery of federal preparedness 
assistance to State and local jurisdictions, and strengthen the 
preparedness capabilities of Federal, State, territorial, tribal, and 
local governments.
    Earlier this year, the Secretary delegated to ODP the lead for the 
implementation of HSPD-8. This designation by the Secretary is 
consistent with ODP's mission, as provided under the provisions of the 
Homeland Security Act, to be the primary federal agency responsible for 
the preparedness of the United States for acts of terrorism. HSPD-8 is 
consistent with the broader goals and objectives established in the 
President's National Strategy for Homeland Security issued in July, 
2002, which discussed the creation of a fully-integrated national 
emergency response capability. Inherent to the successful 
implementation of HSPD-8 is the development of clear and measurable 
standards for State and local preparedness capabilities.
    The standards that will result from HSPD-8 implementation build on 
an existing body of standards and guidelines developed by ODP and other 
Federal agencies to guide and inform State and local preparedness 
efforts. Since its inception ODP has worked with Federal agencies and 
State and local jurisdictions to develop and disseminate information to 
State and local agencies to assist them in making more informed 
preparedness decisions, including capability assessments, preparedness 
planning and strategies, and choices relating to training, equipment, 
and exercises.
        c. A recent Presidential Directive (HSPD-8) required you to 
        develop a national domestic all-hazards preparedness goal. How 
        do you intend to develop this goal, how will state and local 
        governments be involved in the development of this goal, and 
        when do you expect to be completed with this goal? How will 
        this goal be integrated into both your current grant programs, 
        and your future budget requests?
    Answer: HSPD-8 requires the creation of an all-hazards preparedness 
goal, mechanisms to improve delivery of federal preparedness assistance 
to States and localities, and an outline to strengthen preparedness for 
our nation. To this end, ODP has developed 4 initiatives to implement 
HSPD-8: (1) create a National Preparedness System, (2) balance the 
Federal portfolio of preparedness investment, (3) establish a National 
Training and Exercise Program, and (4) develop a National Preparedness 
Assessment and Reporting System. To execute these strategies, a Senior 
Steering Committee has been put together to oversee the implementation 
and guide the interagency Integrated Concept Teams (ICTs). The ICTs 
must develop comprehensive and executable program implementation plans. 
Since preparedness is capability based, the National Preparedness Goal 
will be determined by analyzing existing scenarios, defining baseline 
capabilities, establishing metrics, and issuing national guidance. This 
will help DHS establish preparedness requirements and scorecards that 
indicate gaps, deficiencies and excesses in the nation's preparedness. 
It will also help generate tools and processes to assist in the 
prioritizing the allocation of resources.
    State and local stakeholders have been closely involved in the 
planning and development related to HSPD-8. State, territorial, tribal, 
and local participation in the Integrated Concept Teams (ICTs) and 
Senior Steering Committee for HSPD-8 Implementation was carefully 
selected to balance stakeholder views. Participation includes 4 members 
per ICT and 7 on the Senior Steering Committee, to keep the groups to a 
manageable size. DHS is funding travel for these representatives to 
make participation easier:
    Further, DHS is committed to the nation-wide review of key drafts 
in the process--through a secure website, targeted conferences for some 
activities, and other means. The intent is to obtain broad review 
before final drafts are submitted to the Senior Steering Committee and 
DHS Leadership.
    Additionally, an initial version of a homeland security universal 
task list (UTL) is being reviewed by the preparedness community, 
including over 50 national associations representing State and local 
stakeholder groups and ICT members. The UTL will define the tasks that 
must be performed at the federal, state, and local levels to prevent, 
respond to and recover from the incidents described in the 15 
Illustrative Planning Scenarios (IPS) developed by the Homeland 
Security Council. The IPS will define the range of threats and hazards 
for incidents of national significance.

                            Major Milestones

    <bullet> March 26, 2004--Secretary Ridge approves concept for HSPD-
8 Implementation.
    <bullet> July 31, 2004--Establish Universal List of Mission 
Essential Tasks for the Homeland Security Community. Submit a multi-
year Exercise plan to the President.
    <bullet> September 1, 2004--Submit to DHS a Program Implementation 
Plan and Requirements.
    <bullet> September 15, 2004--Submit National Preparedness Goal to 
the President.
    <bullet> October 1, 2004--First Annual Report on the Use of Funds 
for Preparedness Assistance Programs to the Secretary.
    <bullet> December 31, 2004--Complete Federal Response Capabilities 
Inventory.
    <bullet> March 15, 2005--Quantifiable Performance Measurement for 
Planning, Equipment, Training, and Exercises for Federal Preparedness.
    <bullet> September 1, 2005--Full implementation of Process to 
Develop and Adopt First Responder Equipment Standards and R&D Needs, 
National Training Program, and National Lessons Learned / Best 
Practices System.
    <bullet> September 15, 2005--First Annual Report to the President.
    <bullet> September 30, 2005--Full Implementation of a Closely 
Coordinate Interagency Grant Process.
    State and local stakeholders have been closely involved in the 
planning and development related to HSPD-8. State, territorial, tribal, 
and local participation in the Integrated Concept Teams (ICTs) and 
Senior Steering Committee for HSPD-8 Implementation was carefully 
selected to balance stakeholder views. Participation includes 4 members 
per ICT and 7 on the Senior Steering Committee, to keep the groups to a 
manageable size. DHS is funding travel for these representatives to 
make participation easier:

Balanced Investments Integrated Concept Team
    Errol Etting, Fraternal Order of Police (FOP)
    W. R. Zwerschke, International Association of Emergency Managers 
(IAEM)
    Michael Fraser, National Association of City & County Health 
Officials (NACCHO)
Training and Exercises Integrated Concept Team
    Captain John P. Salle, International Association of Chiefs of 
Police
    Robert Cumberland, National Volunteer Fire Council
    Thomas J. Fargione, National Emergency Management Association 
(NEMA)
    Mark H. McCain, American Public Works Association (APWA)

Assessment and Reporting Integrated Concept Team
    Chief John M. Buckman, International Association of Fire Chiefs 
(IAFC)
    Tim Stephens, Association of State and Territories Health Officials 
(ASTHO)
    Mike Brown, National Sheriff's Association (NSA)
    Emily B. DeMers, The Council of State Governments

Senior Steering Committee
    Governor Dirk Kempthorne, Boise, ID
    Mayor Anthony Williams, Washington, DC
    Commissioner Karen Miller, President, National Association of 
Counties
    Chief William Phillips, Aroostook Band of Micmacs, Presque Isle, ME
    Dale Shipley, Director, Ohio Emergency Management Agency
    Chief Michael Freeman, Los Angeles County Fire Department

    DHS is committed to the nation-wide review of key drafts in the 
process--through an online electronic program management office (ePMO), 
targeted conferences for some activities, and other means. The intent 
is to obtain broad review before final drafts are submitted to the 
Senior Steering Committee and DHS Leadership.
    Additionally, the initial version of the universal task list (UTL) 
is being reviewed by the preparedness community, including over 50 
national associations representing State and local stakeholder groups 
and ICT members. The UTL will define the tasks that must be performed 
at the federal, state, and local levels to prevent, respond to and 
recover from the incidents described in the 15 Illustrative Planning 
Scenarios (IPS) developed by the Homeland Security Council. The IPS 
will define the range of threats and hazards for incidents of national 
significance.

    6. Deputy Secretary Loy recently testified to this Committee that 
achieving interoperable communications was ``one of the Secretary's top 
four or five priorities for the Department.'' Although interoperable 
communications systems remain a critical need for the first responder 
community, the President's Budget requests no funds for grants--a 
reduction of $85 million from fiscal year 2004 that was appropriated by 
Congress--to enhance state and local interoperability.
    a. How does the Department intend to address this ``priority'' 
issue when you have requested no grant funds for this purpose?
    Answer: The Department is working to improve interoperable wireless 
communications in a number of ways.
    SAFECOM, a program within the Science and Technology Directorate, 
hosted a strategic planning meeting in December 2003 with 
representatives of the state and local public safety and government 
communities. This group helped SAFECOM plan specific efforts to promote 
public safety communications and interoperability with the funding 
available for fiscal year 2004. The following are initiatives SAFECOM 
will pursue, leveraging resources from other federal programs where 
possible to maximize resources available to all levels of government in 
support of improved public safety communications and interoperability.
    Research, develop, test & evaluate (RDT&E) existing & emerging 
technologies for improved public safety communications and 
interoperability. Public safety is in need of equipment that has been 
tested and has been proven to meet their operational requirements. To 
accomplish this, SAFECOM is developing a Broad Agency Announcement 
(BAA) to be released in the Spring of CY 2004 to select and fund 
critical field tests for the cutting edge technologies necessary to 
improve public safety communications and interoperability. In addition, 
SAFECOM provides funding to the National Institute of Standards and 
Technology (NIST) to perform laboratory testing of interim technologies 
that can assist public safety in developing short term solutions for 
interoperable communications.
    Developing a process to advance standards necessary to improve 
public safety communications and interoperability. To accomplish this, 
SAFECOM will identify, test, and, where necessary, develop standards in 
coordination with the public safety community and ongoing standards 
activities. These activities will be performed in conjunction with 
NIST.
    Creating a one-stop shop for public safety communications and 
interoperability. A national public safety wireless communications 
portal will be developed to provide planning and management 
applications, collaborative tools, and relevant and timely wireless 
information to the public safety community. The first step in 
delivering this one-stop-shop will be to build a prototype combining a 
limited number of existing applications, tools, and sites. A toll-free 
telephone number will be established to provide technical assistance 
and other information to the practitioner community.
    ntegrating coordinated grant guidance across all grant making 
agencies. Coordinated grant guidance provides criteria to avert the 
creation of public safety communications systems stovepipes at the 
local and state levels. To integrate grant guidance, we will work with 
the Federal Interagency Coordination Council (FICC) to ensure that 
federal money is spent to promote a consistent vision of 
interoperability.
    Creating a baseline of public safety communications and 
interoperability across the country. A mechanism will be established to 
assess the current state of interoperability across the nation. This 
will be the basis for measuring future improvements made through local, 
state, and federal public safety communications initiatives. To 
accomplish this, we will define the optimal metrics, assess previous 
studies into the state of interoperability, conduct a gap analysis, and 
launch and support a project team to conduct the baseline assessment.
    Completing the comprehensive Public Safety Statement of 
Requirements(SoR). The SoR defines the functional requirements for 
public safety practitioners to communicate and share information when 
it is needed, where it is needed, and when authorized. To accomplish 
this, we will complete Version 1.0 of the SoR in partnership with 
public safety. This document is expected to be available by the end of 
March 2004.
    Providing technical assistance for public safety communications and 
interoperability. Technical assistance, which includes support for 
planning, development, implementation and assessment of public safety 
communications systems, is a stated need of the public safety 
community. To provide this, we will develop a coordinated, consistent 
approach for the entire lifecycle of a communications system in 
partnership with FICC.
    SAFECOM and the public safety community assembled believe that this 
set of initiatives will move the country towards improved public safety 
communications and interoperability.
    b. Your own Project SAFECOM officials have noted that no standard, 
guidance, or national strategy exists on interoperability. Justice 
Department officials informed GAO that they are working with SAFECOM to 
develop a statement of requirements for interoperability--not 
interoperability standards, but requirements for such standards--that 
should be ready for release by May 1, 2004. First, will these 
requirements be ready by May 1st of this year, and second, how long 
after the requirements are ready can we expect standards to be issued?
    Answer: The Statement of Requirements is now in draft form and will 
be finalized and released before May 1, 2004. After its completion, 
SAFECOM will perform a standards gap analysis against the SoR to 
continue the promotion and adoption of standards developed by the user 
community and existing standards-defining organizations. This is an 
ongoing task as technology changes and improves. Standards must evolve 
with technology to ensure the backwards compatibility of new equipment 
with legacy systems. Such an approach helps maximize the current 
investments that public safety has made.
    To ensure that appropriate standards are promulgated and adopted 
SAFECOM is partnering with the National Institute of Standards and 
Technology Office of Law Enforcement Standards and the Department of 
Justice's Advanced Generation Interoperability Law Enforcement (AGILE) 
program to continue to support current standards efforts, as well as to 
continue the testing and evaluation of new technologies and equipment. 
In addition, SAFECOM is funding a Broad Agency Announcement (BAA) to 
field test new technologies that may be applied to the public safety 
environment and working with its federal partners to promote the 
adoption of currently available standards when applicable through 
coordinate grant guidance. An example of this is the fiscal year 2003 
SAFECOM guidance used in the Office of Community Oriented Policing 
Services (COPS) and Federal Emergency Management Agency (FEMA) grant 
solicitation.

    7. Before the Department of Homeland Security was established, U.S. 
Customs had responsibility for investigating unfair trade practices. 
Since Customs investigations were moved to ICE a year ago, what 
activities has ICE undertaken to investigate unfair trade practices--
especially dumping cases? Specifically, what resources have been 
requested in the Fiscal Year 2005 budget to pursue these cases, 
including FTEs and total funds requested, and is there a strategy plan 
for ICE that reflects how ICE will continue to pursue non-DHS mission 
investigations? If so, what is it?
    Answer: In August 2003, in order to combat potential fraud and 
facilitate legitimate trade, U.S. Customs and Border Protection (CBP) 
published its Trade Strategy Document. This strategy was developed 
under the guidance of the CBP Modernization Board and with the 
direction of the Trade Strategy Board. ICE is a full member of the CBP 
Modernization Board and is represented by the Director of the Office of 
Investigations (OI). The ICE representative on the CBP Trade Strategy 
Board is the Chief of the Commercial Fraud Investigations Unit within 
OI. ICE's partnership within CBP's Trade Strategy Board is a highlight 
of the ICE/CBP shared trade enforcement mission. ICE is the principal 
provider of investigative services to CBP. As such, ICE is committed to 
the success of the CBP Trade Strategy Board.
    ICE's trade enforcement program and commercial fraud investigations 
mission is to detect, deter, investigate, penalize, and dismantle 
organizations that employ fraudulent, predatory, and unfair trade 
practices that threaten U.S, economic stability, market 
competitiveness, and public health and safety. To detect and/or deter 
the circumvention of anti-dumping duties on imports into the U.S., ICE 
is actively working with CBP on targeting initiatives on such 
commodities as catfish, crawfish, shrimp, garlic, steel, and honey, to 
name a few. In addition, ICE and CBP have met on several occasions with 
representatives of domestic industry who are being injured by the 
illegal practices of other importers.
    ICE currently has numerous investigations open nationwide involving 
the evasion of anti-dumping duties, especially on commodities from 
China. In the last year, ICE has made significant progress in the 
investigation and convictions of importers who evade or attempt to 
evade payment of anti-dumping duties. Included in these ``milestones'' 
are increased cooperation with the Department of Commerce (DOC) and the 
ability to obtain proprietary documents from DOC.
    During the past year, ICE has made significant civil and criminal 
cases. One such case is a civil settlement of $5.25 million in 
penalties against the Bank of China for its role in conspiring with, 
and financing, Nature's Farm, et al, in a scheme to evade the payment 
of anti-dumping duties on Chilean mushrooms imported from China. Also, 
in the Central District of California, a jury convicted Young Sen LIN 
for Conspiracy to Evade Payment of Anti-dumping Duties, a violation of 
18 USC 371. LIN defrauded the government of approximately $3 million in 
anti-dumping duties on imported crawfish tail meat.
    ICE has provided increased training to special agents and federal 
prosecutors, including steel training seminars hosted by the Steel 
Industry. During fiscal year 2004, seminars were held in eight cities 
throughout the U.S. and Puerto Rico.
    Funding to support anti-dumping investigative efforts, as well as 
investigations of other unfair trade practices, is contained within the 
base budget of the Office of Investigations. There is no additional 
funding requested in the fiscal year 2005 President's Budget supporting 
the investigation of unfair trade practices.

    8. Several strategic industries in the United States are being 
weakened by what seems to be this Administration's benign neglect of 
aggressive Chinese trade into our country. For example, a company in 
Congresswoman Slaughter's district (FMC) makes a chemical crucial to 
the information economy. In fact, it is the only U.S. producer of this 
chemical which is necessary to etch circuit boards. This company has 
alleged unfair trade practices, but this Administration has, so far, 
failed to pursue this case against the Chinese. Beyond the lost 
American jobs, what is the Department's position concerning the 
potential security threat posed if critical U.S. industries, which 
provide equipment for our war on terror or military, are weakened or 
lost overseas, such as steel? What actions, if any, is DHS taking to 
prevent this from happening?
    Answer: DHS is responsible for border security and that includes 
the enforcement of our trade laws. The Administration has shown its 
willingness to pursue policies to help vital sectors of the economy. 
When it is necessary to take measures to create a fair and level 
playing field, it is DHS that enforces these measures at the border. We 
will continue to vigorously enforce our trade laws, while at the same 
time allowing legitimate commerce to move freely and thereby strengthen 
our economic growth. We are pursuing the development of the Automated 
Commercial Environment (ACE) which will become the foundation of a 21st 
century trade data system providing enhanced support for cargo 
processing and enforcement operations. The increasing availability of 
early and accurate trade information is allowing DHS to identify risks 
earlier so that we can respond sooner to protect the homeland.

    9. Has DHS communicated with those responsible for administering 
our trade policy? How frequently does that occur?
    Answer: DHS is actively engaged in trade policy development. The 
Assistant Secretary for Border and Transportation Security (BTS) Policy 
and Planning is a member of the Trade Policy Review Group (TPRG). The 
TPRG is a senior group lead by the United States Trade Representative 
with participants from the Department of State, the Treasury 
Department, the Department of Commerce, the Department of Justice and 
many other federal agencies. Through this and subordinate groups, the 
Department of Homeland Security communicates our interests during the 
development of trade policy. Border and Transportation Security staff 
participate on a weekly basis in working level trade discussions 
through the Trade Policy Staff Committee (TPSC) of the TPRGa.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
